<html>
<title> - COMBATING ANTI-SEMITISM IN THE OSCE REGION: TAKING STOCK OF THE SITUATION TODAY</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
    COMBATING ANTI-SEMITISM IN THE OSCE REGION: TAKING STOCK OF THE 
                            SITUATION TODAY

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2011

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                            [CSCE 112-1-13]
                            
                            
                            
                            
                            
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
 
                            
                            


                   Available via http://www.csce.gov
                   
                             ___________
                   
                        U.S. GOVERNMENT PUBLISHING OFFICE
92-729 PDF                     WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                  
                   
                   
                   
                   
                   
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               

      HOUSE                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    BENJAMIN L. CARDIN, Maryland,
Chairman                             Co-Chairman
JOSEPH R. PITTS, Pennsylvania        SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama          TOM UDALL, New Mexico
PHIL GINGREY, Georgia                JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas            RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida           ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,           SAXBY CHAMBLISS, Georgia
New York                             MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina        KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee

                                      
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
               MICHAEL C. CAMUNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  


                  COMBATING ANTI-SEMITISM IN THE OSCE

                      REGION: TAKING STOCK OF THE

                            SITUATION TODAY

                              ----------                              

                            December 2, 2011
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3

                                MEMBERS

Hon. Eliot Engel (D-16), a Member of Congress from the State of 
  New Jersey.....................................................    33
Hon. Trent Franks (R-8), a Member of Congress from the State of 
  Arizona........................................................    34
Hon. Frank Wolf (R-10), a Member of Congress from the State of 
  Virginia.......................................................    38

                               WITNESSES

Hannah Rosenthal, Special Envoy to Monitor and Combat Anti-
  Semitism, U.S. Department of State.............................     5
Rabbi Andrew Baker, Personal Representative of the OSCE Chair-in-
  Office on Combating Anti-Semitism..............................     7
Shimon Samuels, Director for International Relations, Simon 
  Wiesenthal Center..............................................    20
Mark Levin, Executive Director, National Conference on Soviet 
  Jewery.........................................................    23
Eric Fusfield, International Director of Legislative Affairs, 
  B'nai B'rith International.....................................    27
Stacy Burdett, Director of Government and National Affairs, Anti-
  Defamation League..............................................    30

                                 (iii)
                                 
                                 
                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    50
Prepared statement of Hon. Benjamin L. Cardin....................    51
Prepared statement of Hannah Rosenthal...........................    52
Prepared statement of Rabbi Andrew Baker.........................    57
Prepared statement of Shimon Samuels.............................    61
Prepared statement of Mark Levin.................................    81
Prepared statement of Eric Fusfield..............................    85
Prepared statement of Stacy Burdett..............................    88
Materials for the Record.........................................   128


                  COMBATING ANTI-SEMITISM IN THE OSCE



                      REGION: TAKING STOCK OF THE



                            SITUATION TODAY

                              ----------                              


                            December 2, 2011

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10 a.m. in room 2203, Rayburn House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Steve Cohen, Commissioner, Commission on Security and 
Cooperation in Europe.
    Members present: Hon. Eliot Engel (D-16), a Member of 
Congress from the State of New Jersey; Hon. Trent Franks (R-8), 
a Member of Congress from the State of Arizona; and Hon. Frank 
Wolf 
(R-10), a Member of Congress from the State of Virginia.
    Witnesses present: Hannah Rosenthal, Special Envoy to 
Monitor and Combat Anti-Semitism, U.S. Department of State; 
Rabbi Andrew Baker, Personal Representative of the OSCE Chair-
in-Office on Combating Anti-Semitism; Stacy Burdett, Director 
of Government and National Affairs, Anti-Defamation League; 
Mark Levin, Executive Director, National Conference on Soviet 
Jewery; Shimon Samuels, Director for International Relations, 
Simon Wiesenthal Center; and Eric Fusfield, International 
Director of Legislative Affairs, B'nai B'rith International.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The hearing of the Helsinki Commission will come 
to order. And I want to welcome and thank, express thanks to 
our witnesses and everyone for joining us at this very 
important hearing. Almost a decade ago, in May of 2002, I 
chaired a Helsinki Commission hearing focused on the horrifying 
spike in anti-
Semitism making itself through much of the OSCE region.
    Many of our witnesses today testified at that hearing, 
which put the issue of combating anti-Semitism on the top of 
the OSCE's agenda, resulting in OSCE commitments on fighting 
anti-Semitism and a series of high-level annual conferences on 
combating anti-Semitism, and even led to the creation of a 
global network of parliamentarians united against anti-
Semitism, the inter-
parliamentary coalition, the ICCA, of which I am on the 
steering committee.
    A lot of good has come out of this. It's worth recalling 
some of the things we've done, and it has been done as a team. 
Since the 2002 hearing, the OSCE Parliamentary Assembly has 
annually passed declarations addressing anti-Semitism and 
calling for concrete measures by all participating states in 
the OSCE.
    At the high-level conference in Berlin in 2004, leaders 
from throughout the OSCE region met to focus specifically on 
combating anti-Semitism, leading participating states to 
commit, at the Sofia ministerial later that year, to collect 
and report hate crimes data. In that same year, a tolerance 
unit with a focus on anti-Semitism was established within the 
OSCE's Office of Democratic Institutions and Human Rights, or 
ODIHR, and the OSCE appointed a special representative on 
combating anti-Semitism.
    I'm very pleased, and I think it's a great honor, that we 
have here today Rabbi Andrew Baker, a critical force in the 
development of the Berlin conference--and, matter of fact, one 
of those who wordsmithed much of that actual document, 
especially when we hit some snags. He was there writing out 
language that was incorporated into the final product. I'm very 
happy that you are here, and just laud you for the great work 
you have done for so long.
    The OSCE is now equipped with a toolbox to combat anti-
Semitism, ranging from more than a dozen publications focused 
on addressing anti-Semitic hate crimes, Holocaust remembrance, 
and now has a new training against hate crimes for law 
enforcement programs to assist participating states in their 
efforts.
    The Anti-Defamation League and other NGOs that fight so 
hard to ensure that human rights and the dignity of Jews 
worldwide will always and everywhere be fully respected--they 
have also been an absolute critical part of this work. While 
the OSCE has the potential to contribute mightily to this 
fight, it is only truly effective when it works with these 
vital human rights defenders.
    Efforts in the U.S. Congress and other parliaments have 
complemented this work over the years. The Inter-Parliamentary 
Coalition for Combating Anti-Semitism, which held its most 
recent major conference in Ottawa last fall, has been a crucial 
forum for parliamentarians to work across national boundaries 
to address common problems of anti-Semitism.
    In our own Congress, other members and I have worked hard 
to fight this terrible hate through this Commission, as well as 
through the Congressional Anti-Semitism Task Force and other 
committees of Congress where this has been taken up. It was a 
2004 amendment of mine that created the State Department's 
Office to Monitor and Combat Anti-Semitism and the Special 
Envoy on anti-Semitism.
    And, of course, we're very pleased to have the current 
special envoy, Hannah Rosenthal, with us today. Ms. Rosenthal 
is doing an exemplary job, a fine job in that position. I got 
to know her a little better at Ottawa, and I appreciated her 
comments there and her comments worldwide as she travels and as 
she speaks out boldly. And her presence is a reminder of our 
government's true commitment to fight against anti-Semitic 
hate.
    Yet our work is far from done. Despite the efforts of many 
good people, mostly in courageous NGOs, but also in our 
Government and a few other governments, despite the 
conferences, commitments, laws, training, monitoring, the 
measure of our success is what happens on the ground. By most 
accounts, the despicable evil of anti-Semitism has decreased in 
some parts of the OSCE region in recent years, but remains at 
higher levels than in 2000. This is simply unacceptable, and 
it's why we are here today.
    I'd like to also just note that one of our witnesses later 
on today will be Mark Levin. And I would just note for the 
record that during my first term in Congress, in 1982, Mark was 
encouraging many of us--as was the National Conference on 
Soviet Jewry and others--to speak out on behalf of refuseniks, 
so I responded to a letter that Ham Fish had sent around--the 
former member from New York--engaged in what we call a special 
order at the end of the legislative day. And Mark was in the 
gallery, came down. We had lunch in follow up to that, and he 
invited me to join him in a special trip to Moscow in January 
of 1982.
    We spent 10 days in Moscow and Leningrad, met with 
refuseniks around the clock, and for me, it was the primer--it 
was the eye-opener as to what anti-Semitic hate in its most 
virulent form looks like. We met with great people, like Yuli 
Kosharovsky, Dr. Lerner, who was one of the leading refuseniks 
of that time, and heard their stories. And really, when you're 
there in total immersion for, like I said, the better part of 
10 days in Moscow and Leningrad, you come away a changed 
person.
    And so I want to forever thank Mark Levin for inviting me, 
for his leadership--because he's still with it today, all these 
years, and has never stopped in his fight. As have all of you--
you are the long stayers, people who have been absolutely 
committed and have just never given in. I'd like to now 
recognize my good friend and colleague, Mr. Cohen, for any 
opening comments he might have.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen.  Thank you, Mr. Chairman. I want to thank you 
for scheduling this important hearing and for your important 
work over the years on many issues concerning human rights, but 
also anti-Semitism in general, and for having this 
distinguished panel that has done so much and has so much 
knowledge. And they bring to us testimony that I'm eager to 
hear.
    The OSCE really sprang from the rubble of the Second World 
War, and the Second World War had as its base anti-Semitism and 
the Holocaust actions of the German government--not that that 
was the entire reason for the Second World War. I mean, Germany 
wanted to--uber alles--but at the same time, they had this way 
of bringing their people together by hating Jews. And the 
Holocaust ensued, and concentration camps and deaths, horrific 
behavior.
    It's so appropriate that we look at what's going on with 
this issue today in the world. And it's not just in the Middle 
East, where it is a significant issue. But it's also in Europe, 
and it's frightening to think that in Europe, where just 60-
some odd years ago--65, 66 years ago--they were firsthand 
witnesses of the horrors of anti-Semitism, of religious 
prejudice, of discrimination, of all types of awful human 
behavior.
    That was just on this Earth 66 years ago, and yet it's 
being replicated with anti-Semitic actions in Europe. I think 
as we look at anti-Semitism, we look at civilization, because 
until we can get along with each other and accept our 
differences--whether they be religious or racial, sexual, 
gender identity or whatever--we're not going to do what we 
should be doing on the Earth that God created and gave us, 
which is to help each other get through the time and enjoy the 
time that we're here.
    And if we concentrate on the minimal differences that we 
have rather than the commonality that we share, which is 99.7, 
99.8 percent the same, according to all the studies we've had 
over the years--Human Genome Project--we should look at those. 
Until we do, we're not going to have achieved our purposes on 
Earth. So it's important that we look at this issue, that we 
study it, we keep an ever-mindful eye on it and try to do what 
we can to ward it off.
    I've done it in my career, with the Holocaust Commission--
one of the first in the United States, in Tennessee that we 
started in 1984. And I saw to it that it didn't just teach 
about the Holocaust, which it does, but also teaches about 
man's inhumanity to man in all areas. It goes into the areas 
where we've had--the Cambodians, and other areas where we've 
seen horrific conduct.
    And we need more of that in our schools, more education 
about tolerance and understanding. And we need more hate-crime 
enforcement, which we were fortunate to pass in the Congress a 
couple of terms ago, where we've seen hate crimes perpetuated 
against people in this nation as well as around the world. But 
this nation is not immune to the horrors that we see.
    And all you have to do is go to your local newspaper, and 
sometimes look at the comments that are made on the newspapers' 
websites, particularly if a Jewish congressman is involved, and 
you'll see anti-Semitism, with anonymity protecting the bigots 
that use that as a way to attack people that have different 
political thoughts than they. So, Mr. Chairman Smith, I thank 
you for having the hearing and I look forward to the testimony 
of our witnesses.
    Mr. Smith. Mr. Cohen, thank you very much. I'd like to now 
introduce our two very distinguished witnesses, beginning with 
Hannah Rosenthal, who was sworn in as special envoy to monitor 
and combat anti-Semitism on November 23rd of 2009.
    Sparked by the work and experience of her father, a rabbi 
and Holocaust survivor, and her own experience studying to 
become a rabbi, Hannah Rosenthal has led a life marked by 
activism and a passion for social justice, having served as 
executive director of the Chicago Foundation for Women and 
Jewish Council for Public Affairs. And without objection, yours 
and all of our distinguished witnesses' full resumes will be 
made a part of the record--they are very extensive and very 
distinguished.
    Next, we'll hear from Rabbi Andrew Baker, who is director 
of International Jewish Affairs for the American Jewish 
Committee. Since 2009, he has served as the personal 
representative of the OSCE Chair-in-Office on Combating Anti-
Semitism.
    A leading expert on anti-Semitism in Europe and Holocaust 
restitution issues, he travels extensively to address issues 
impacting Jewish communities worldwide, including anti-Semitic 
violence and Holocaust restitution issues, promoting tolerance 
in the emerging democracies of Central and Eastern Europe, and, 
of course, in the Middle East, which has gotten even worse, 
obviously, most recently in Egypt. So I'd like to yield to 
Special Envoy Rosenthal for such time as she may consume.

  HANNAH ROSENTHAL, SPECIAL ENVOY TO MONITOR AND COMBAT ANTI-
               SEMITISM, U.S. DEPARTMENT OF STATE

    Ms. Rosenthal. Thank you very much. Chairman Smith, Mr. 
Cohen, thank you for the invitation to testify before you 
today.
    Since its founding in 1976, the U.S. Helsinki Commission 
has dedicated itself to addressing human rights issues, 
including anti-
Semitism. And for the past three decades, Chairman Smith has 
provided unparalleled leadership in his efforts to combat anti-
Semitism and promote human rights.
    As the Special Envoy to Monitor and Combat anti-Semitism, 
I'm honored to be able to present my findings on anti-Semitism 
in Europe, and I would kindly ask that my full written 
statement be submitted for the record.
    Mr. Smith. Without objections, so ordered.
    Ms. Rosenthal. More than six decades after the murder of 6 
million Jews in Europe, the countries of that region have made 
some important strides. Their leaders have denounced new and 
old forms of anti-Semitism, and they have forcefully stated, in 
unison, never again. But sadly, we've also seen many setbacks 
within these very same countries.
    Over the past two years, my staff and I have diligently 
reported on anti-Semitic incidents throughout Europe, following 
and tracking developments in old and new cases. We've observed 
six distinct trends. Though in my written testimony today--all 
six are there--I want to draw your attention to three trends in 
particular. The first is the persistence of traditional anti-
Semitism. Through my travels, I run into people who think anti-
Semitism ended when Adolf Hitler killed himself. Regrettably, 
it didn't.
    Anti-Semitism is not history; it is news. And it is alive 
and well. According to reports by the Governments of Norway, 
Germany, Italy, and the United Kingdom, there is a disturbing 
increase in anti-Semitism. Since June, we have seen 
desecrations to Holocaust memorials, synagogues, Jewish 
cemeteries in Croatia, Czech Republic, Greece, Lithuania, and 
Poland.
    We have heard modernized versions of the blood libel, where 
Jews are accused of kidnapping children to steal their organs; 
conspiracy theories, like the supposed Jewish control over the 
banking system or the media. They continue to gain traction 
with some groups. And perhaps the most disturbing is the 
physical violence that remains a problem. Just last week in 
Belgium, a 13-year-old girl was beaten by a group of girls, 
shouting ``Shut up, you dirty Jew, and return to your 
country.''
    The second trend I want to mention is Holocaust denial. 
This form of anti-Semitism is unfortunately espoused by 
religious and political leaders, and is a standard on hateful 
websites and other media outlets. For example, British denier 
David Irving continues to get public airings of his anti-
Semitism and Holocaust denial.
    Petras Stankeras, a Lithuanian historian and former 
government official, teaches that the Holocaust never happened. 
Bishop Williamson of the Secret Society of Pius X regularly 
preaches Holocaust denial and anti-Semitic canards. As the 
number of survivors, direct witnesses, and camp liberators 
drops, there is a heightened sense of urgency in recording 
their stories and building monuments and museums for future 
generations.
    Ironically, while some deny the Holocaust ever happened, 
others glorify that it did, and this accounts for a third 
trend, which we call Holocaust glorification. The public 
display of Nazi ideology and the presence of neo-Nazi groups is 
of special concern in Europe. This year, we have seen numerous 
cases. In Austria, a politician resigned after his ``blood and 
honor'' tattoo, the motto of Hitler Youth, was seen in public.
    At a soccer match in the Netherlands, soccer fans chanted 
``Hamas, Hamas, all Jews be gassed.'' A British politician was 
expelled from his party for shouting ``sieg heil'' and giving 
the right-arm salute at a concert. And on Middle East satellite 
television watched by tens of millions in Europe, Sheikh 
Qaradawi, founder and president of the Dublin-based European 
Council for Fatwa and Research, called for a new Holocaust to 
finish the job.
    At the State Department, we monitor these trends and 
activities in 198 countries and territories. We report on them 
in two major annual reports--the International Religious 
Freedom Report and the Annual Report on Human Rights. As part 
of this process, I am developing a pretty major and aggressive 
training initiative for the State Department employees, so that 
they can better monitor what is happening in their countries 
and be sensitized to the various forms of anti-Semitism.
    Of course, it's not enough to study and monitor these 
deeply troubling trends. It is critical that we act to reverse 
them. And to do that, we can't just preach to the choir, so to 
speak. We have to join in partnership with non-Jews in 
condemning it. To change the culture of hate to one of 
tolerance, we have to continue building bridges among different 
ethnic and religious groups. We have to continue working with 
opinion leaders in government, civil society, and the media.
    And the State Department is doing that in a number of ways. 
We sponsor teacher training on the Holocaust. We provide 
training to foreign law-enforcement officials that cover hate 
crimes and crimes toward vulnerable groups. And we use old and 
new technologies to communicate with the public about human 
rights and tolerance and democracy. But we also have to think 
outside the box, and I want to note two specific examples.
    First, to combat Holocaust denial, I accompanied eight 
leading imams, two of which had been Holocaust deniers, to 
Dachau and Auschwitz camps. When we arrived at Dachau, the 
imams, who clearly knew very little or nothing about the 
Holocaust, were so overwhelmed by what they saw in Dachau, they 
immediately went down to the ground in prayer. And that was in 
front of the sculpture commemorating the 6 million Jews who had 
been exterminated.
    All the passers-by stopped in their tracks--the docents and 
the tourists--and they were recognizing that this was a 
historic moment. Following the emotional visit to Auschwitz, 
all eight imams produced a statement strongly condemning 
Holocaust denial and all other forms of anti-Semitism, and 
they're now urging their colleagues and schools to join in the 
statement. They're also planning trips for their youth to bear 
witness and to bear the burden of the reality of the Holocaust.
    A second example took place at the February OSCE 
Parliamentary Assembly. Along with my colleague, Farah Pandith, 
the special representative to Muslim communities, we launched a 
virtual campaign called 2011 Hours Against Hate. Using 
Facebook, we asked young people around the world to pledge an 
hour or more of their time to help or serve someone who didn't 
look like them, pray like them, or live like them.
    At the time, our goal was to get 2,011 hours pledged. To 
date, we have over 16,000 who have actually gone online and 
pledged time. And we have had dozens of countries already 
inviting us to come to their country and incorporate 2011 Hours 
Against Hate in their efforts. Last week, I met with the 
Olympic committee that's trying to figure out a way to 
incorporate the campaign in next year's summer games.
    So while I fight anti-Semitism, I'm also keenly aware that 
hate is hate. Nothing justifies it--not economic instability 
and not international events. When history records this 
chapter, I hope it will reflect on our efforts to build a 
peaceful, fair, and just world, where people defend universal 
human rights and dignity.
    The Jewish tradition tells us you are not required to 
complete the task, but neither are you free to desist from it. 
Together, we must confront and combat the many forms of hatred 
in our world, and in this vein, Mr. Chairman, I look forward to 
working with you. And I'm happy to answer any questions. Thank 
you.
    Mr. Smith. Thank you very much, Special Envoy Rosenthal, 
for your passion and the comprehensiveness of your effort. It 
is extraordinary. I'd like to now yield to Rabbi Baker--
whatever time you would like to consume.

 RABBI ANDREW BAKER, PERSONAL REPRESENTATIVE OF THE OSCE CHAIR-
              IN-OFFICE ON COMBATING ANTI-SEMITISM

    Rabbi Baker. Chairman Smith, thank you--thank you very 
much. Thank you, Representative Cohen, for being here. I too 
have a fuller testimony in written form, but will try to 
provide an abbreviated version here now.
    Mr. Smith. Without objection, your full statement, and 
anything you would like to add to the statement for the record, 
will be made a part of the record.
    Rabbi Baker. Thank you. Enormous appreciation has to be 
expressed to you personally, Representative Smith, and to, 
really, this Commission, which has spearheaded efforts to 
understand and to combat anti-Semitism in Europe. A decade ago, 
at the immediate aftermath of the ill-fated U.N. conference in 
Durban, we sought effective means to alert the public to the 
resurgence of anti-Semitism in Europe, which included a 
dramatic increase in attacks on Jewish targets, frequently 
triggered by events in the Middle East.
    We also witnessed the beginnings of what would become a new 
problem of anti-Semitism in public discourse, and we turned to 
you. We turned to this Commission. It was the Helsinki 
Commission that pushed and prodded a reluctant diplomatic 
bureaucracy here in Washington to press the OSCE to take up 
this problem. Much to the surprise of some of those skeptics, a 
first OSCE conference on anti-Semitism took place in Vienna in 
2003--as you indicated, a seminal follow-up conference and 
declaration in Berlin in 2004.
    We saw, as well, commitments by governments to monitor and 
collect data on anti-Semitic and other hate crimes, to promote 
Holocaust education and effective legislation. That was 
followed by the establishment of a department on tolerance and 
nondiscrimination at ODIHR, at further conferences and expert 
meetings, including the conference in March where you were 
present in Prague, focusing on anti-Semitism in public 
discourse.
    These efforts, as you indicated, also included the 
appointment of a Special Envoy of this Personal Representative 
of the Chair-in-Office on Combating Anti-Semitism, a position 
which I am honored to hold.
    My message today to you is a simple one: The problem 
remains, and we still need your help. The Prague--and I'd like 
to sort of go through thematically on several of these issues, 
first being anti-Semitism in public discourse--that Prague 
conference itself was a recognition that this is one of the 
most difficult current challenges we face. Opinion surveys in 
many European states reveal anti-
Jewish sentiments are still held by significant numbers of the 
population. These percentages may fluctuate over time; they are 
certainly not uniform from country to country. But the overall 
picture remains a distressing one, and it has direct and 
immediate consequences for local Jewish communities.
    While governments still fall short in monitoring and 
reporting physical incidents of anti-Semitism, fewer still have 
any systematic process of monitoring and recording, let alone 
responding to, incidents on the Internet or in the media. 
Governments can and should do much more, and in the interim, 
practical steps can be taken to help civil society groups 
develop the capacity to do their own monitoring.
    Participants in Prague stress the importance of political 
and community leaders responding loudly and swiftly as a way of 
fostering a taboo culture when it comes to anti-Semitism. In 
the area of Holocaust education, this has long been identified 
as an important contribution to combating anti-Semitism, and it 
is among the commitments that participating states made at that 
OSCE conference in Berlin in 2004.
    We should bear in mind that even where the subject is 
included in secondary school curricula, that still may mean 
only a day or less over the course of the entire school year. 
And there are also special challenges when teaching the 
subject. Some students from immigrant Arab and Muslim 
communities have voiced resentment or sought to bring the 
Middle East conflict into the discussion, which draws attention 
away from the subject itself and really subverts its intention. 
Some governments have recognized this problem and sought, in 
some cases, creative ways to deal with it.
    In the area of Muslim-Jewish relations, which we must 
recognize is critical to the evolution of these problems in the 
last decade, when the EUMC conducted its survey on anti-
Semitism in European Union countries in 2004, it revealed that 
a new and growing source of anti-Semitic incidents could be 
traced to Arab and Muslim communities. This remains a matter of 
concern and is still reflected in that available data that 
disaggregates these things. In some cities or in some 
neighborhoods in Europe, visibly identifiable Jews--that is to 
say, those in Orthodox garb or wearing Jewish symbols--may well 
be fearful of physical or verbal attack when they are on the 
streets in certain neighborhoods. Obviously, enhanced security 
measures and more rapid and serious responses to complaints 
provide some relief to these problems.
    More and more countries are developing educational programs 
to promote tolerance, to combat racism and xenophobia; and of 
course, they should be commended for doing so. But I have found 
in conversations with European Jewish leaders that there are 
also some words of warning: such general programs do not 
necessarily address the problem of anti-Semitism when it is 
stemming from individuals who themselves may also be victims of 
racism or discrimination.
    There is a special problem with the demonization of the 
state of Israel. It has become almost commonplace to find 
mainstream media coverage of the Middle East conflict, and 
particularly in Western Europe, demonizing Israel. It is 
manifest in news, in cartoons, and in commentary. Some 
observers have described this as a new form of anti-Semitism, 
but it also contributes to prejudice against Jews who are seen 
as Israel's friends, supporters, or surrogates. We also see 
that the term Zionist is increasingly being used in a 
pejorative way, and frequently substitutes for Jew in written 
or oral discourses.
    In 2005, the EUMC adopted a working definition of anti-
Semitism. It provided an overall framework, but it went, as 
well, to provide specific examples of how anti-Semitism can 
manifest itself with regard to the state of Israel. It was 
endorsed by parliamentary conferences in London and Ottawa. The 
State Department special envoy sitting next to me here has 
adopted it for her own work and analysis.
    And I share it and recommend its use when I travel in my 
OSCE capacity. But it still meets with some opposition, 
including from the EUMC's successor organization, and thus it 
bears repeating whenever possible.
    Security: Despite their small numbers, European Jewish 
communities have shouldered an outsized burden in providing 
security for their members and their institutions. From the 
1970s, some have been and remain targets of international 
terrorism. The corrosive impact of this increased anti-Semitic 
rhetoric in more recent years has meant that synagogues, 
religious schools, community centers and cemeteries face 
physical attacks ranging from graffiti to arson.
    So community leaders, in turn, must decide how much of 
their limited resources can be diverted from educational and 
religious needs to provide for their own protection. At its 
essence, it restricts the Jewish community's ability to 
exercise the full freedom of religious practice, a bedrock 
principle of the OSCE.
    Let me raise something that may at first seem a very 
particular issue, and that is the efforts to ban religious 
slaughter--essentially, kosher meat. A growing number of 
countries have adopted these laws, which require the stunning 
of animals before they are slaughtered, thus effectively 
banning kosher slaughter, ritual slaughter. Jewish communities 
have adapted by importing kosher meat.
    But discussion of this topic, at least during OSCE visits I 
had this year in the Netherlands and in Switzerland--in the 
Netherlands, where a law is being debated, and in Switzerland, 
where such a law was imposed a century ago--reveal a more 
troubling situation. The Dutch legislation is spearheaded 
primarily by animal rights advocates. It's received support 
from nationalist MPs who may believe, although I think they're 
mistaken in this case, that this law would also prohibit halal 
meat to all Muslims in the country.
    Meanwhile, Dutch Jewish leaders are cautious in marshaling 
the arguments in opposition. They're reluctant to assert the 
basic principles of religious freedom, which they believe, 
frankly, would not have popular appeal.
    In Switzerland, even government officials acknowledge that 
their law, coming as it did in the wake of the Dreyfus trial in 
the 1890s, was anti-Semitic by intent. They say, or they have 
told me, it's even likely that Swiss courts would respond 
positively to an appeal to overturn it. But successive Jewish 
community leaders have elected not to do so.
    They long ago accommodated themselves to the ban with 
imported meat from nearby France, and they have told me that 
they believe challenging it could generate an anti-Semitic 
backlash. Better, then, to keep a low profile. Now, this is 
understandable, but surely it is a very outdated prescription 
for averting or combating anti-Semitism.
    Let me turn now to the role of the OSCE and this 
Commission. As you've indicated in your opening remarks, there 
has been significant progress in focusing the OSCE to address 
the problem of anti-Semitism and in educating people to its 
unique manifestations and its stubborn persistence. Monitors 
have generally recorded a decline in anti-Semitic incidents 
since early 2009, but we are still far, far higher than the 
baselines of previous years.
    We also know that turmoil in the Middle East could again 
trigger a new wave of incidents, and it is still far from clear 
what repercussions there might be if Europe's economic crisis 
still worsens. The U.S. and the Helsinki Commission have been 
the primary driving force to keep the OSCE focused on this 
problem of anti-
Semitism, a necessary and constant reminder that it is still 
with us, and that it can always again turn deadly.
    When Secretary of State Clinton and the U.S. delegation 
take their seats at the OSCE ministerial meeting in Vilnius 
next week, I very much hope that they will include this message 
in their remarks. In closing, Mr. Chairman, let me pay respects 
to--I know he was a good friend of yours and ours--Ambassador 
Steve Minikes, who died earlier this fall.
    It was, in significant measure, due to his personal efforts 
that there was that first conference, and the important follow-
up conference and declaration in Berlin and then later in 
Cordoba. You know, I still vividly recall, one evening early on 
in this process, sitting with him at his residence in Vienna. 
And he pulled out of a pile of items a small postcard with a 
handwritten message in pencil.
    It was sent to him 60 years ago by his grandmother, with a 
very benign message to her grandson, simply saying everything 
was OK; she was fine. But as he pointed out, the postmark 
belied that message. It was sent from Theresienstadt. And 
shortly thereafter, his grandmother was deported to Auschwitz 
and to her death.
    We could understand why this was so personal to him. But I 
think in sharing that, it was also a lesson--it was also a 
message never to forget where anti-Semitism in Europe once led, 
and to be vigilant now and in the future. Thank you very much.
    Mr. Smith. Rabbi Baker, thank you very much for your 
leadership. Your very, very eloquent statement gives us much to 
act on. The reason for this hearing isn't just to receive 
information. It's to give us the guidance on this Commission, 
and by extension, the Congress--both House and Senate--a 
blueprint for where we should go from here. And both of you 
have done that very, very well today.
    Ms. Rosenthal, in your trends that you articulated, you 
talked about Holocaust relativism. And Shimon Samuels, Dr. 
Samuels, makes a very similar and very strong point in his 
testimony, and talks about, in Eastern Europe, Baltics, and the 
Ukraine, seemingly innocent conflation of the Holocaust with 
Stalinist atrocities--all of this, you know, this sense that 
the Holocaust was not an absolute unique, horrific historic 
event that stands out in time forever.
    Could you perhaps speak a little bit further about that? 
Because it seems to me--it becomes a very useful way of 
downgrading the atrocities that occurred during that period, 
during the Holocaust. Not to trivialize any other terrible set 
of atrocities, but it was unique. It was an effort to wipe Jews 
off the face--certainly, of Europe, if not the face of the 
earth. Had Nazism prevailed worldwide, certainly, that was a 
final solution contemplated. So if you could speak to that, if 
you would, and perhaps Rabbi Baker.
    Ms. Rosenthal. Yes, Holocaust relativism, obfuscation, and 
whatever other word we want to use--we see it in a lot of 
places. Some of it has to do with trying to cloak it into 
honoring people who fought communism and the Soviets, without 
any historical context on what else was going on under the Nazi 
regime. It's very, very problematic.
    I just came back last week from Estonia, where we were 
encouraging the government to move ahead in prosecuting a Nazi 
war criminal that remains unprosecuted. And I had the 
opportunity to talk to many people while I was there. And I 
asked about the rally that occurs annually of the Waffen-SS.
    The young people in Estonia that I met pulled me aside 
after the leader of the Jewish community--this sounds very much 
like what you were talking about, Rabbi Baker--was saying, 
everything's fine. We're even invited to the rally. Don't worry 
about it. The young people pulled me aside and said they're 
very concerned. They're very concerned when they see anyone who 
honors anything Nazi, and that increasingly, young people are 
attending this rally. So this is something I needed to follow 
up with, with the foreign minister's office and the prime 
minister's office.
    There are parades of Waffen-SS that are cheered on in other 
parts of Europe, and it's very problematic. Also, we see 
increases in not just the number of people in a neo-Nazi group, 
but a proliferation of neo-Nazi groups and websites and hateful 
platforms that are being used.
    In no way do I want to indicate that I think that those 
platforms should be censored, I want to be clear, but it isn't 
good enough to protect free speech if we're not condemning the 
bad speech. And so we need to call on people in civil society, 
in the media, in government, religious leaders, to immediately 
and strongly condemn when those events or that rhetoric occurs.
    Mr. Smith. Thank you.
    Rabbi Baker. If I could supplement that with a couple of 
comments. It has become a given that Holocaust education is 
useful, not only in combating anti-Semitism, but promoting 
climate of tolerance and appreciation for difference. And I 
wouldn't deny that. But I think the way it is sometimes 
employed should be cause for some caution and concern and a 
special focus. In more and more cases, Holocaust education is 
being infused with a human rights focus.
    Again, nothing wrong with that: There are obviously general 
lessons of man's inhumanity to man that come from looking at 
the Holocaust. But sometimes, those general lessons can almost 
lead to what we would recognize as a kind of perversion of its 
essential historical message.
    There was one film produced a couple of years ago showing, 
kind of, a day in the life at the Mauthausen concentration 
camp. It showed a man with his son walking through the camp and 
the exhibits, and then writing some comments in a guest book 
before he left. And after he left, the camera focused in on 
these remarks, and his message was, well, now Israel should 
understand what its treatment of the Palestinians is all about. 
So perhaps he had a human rights lesson that he derived from 
that visit. But if that lesson was one that should teach us to 
be concerned about the presence of anti-Semitism today, I think 
it was lost.
    Secondly, there has become, certainly with positive 
motives, an interest in elevating and understanding of the 
sufferings under communism, of what that meant in Central and 
Eastern Europe. And by the way, Jews in these communities 
themselves suffered disproportionately under communism.
    But in some places, it has become a kind of competition. 
And even at times, equivalency is being drawn between what took 
place under communism and what happened during the Holocaust. 
The term genocide is frequently used, and even misused, in this 
regard.
    By the way, I noticed in one of the draft documents for the 
ministerial declaration on tolerance--where, in the past, these 
declarations have spoken of the importance of Holocaust 
education, we now find it's added Holocaust education and 
education of other genocides. Again, not to diminish that 
importance, but the way they have become linked together in 
this, I don't think, is a helpful step.
    Mr. Smith. Well, as you know, Rabbi Baker, that was from 
the very start part of the problem we faced within the OSCE. 
Some of the delegations, especially the Dutch, immediately 
wanted to--after the Vienna, and certainly after the Berlin 
conference--wanted to just merge everything. And when you merge 
everything, you lose that specific focus that is absolutely 
critical.
    So let me just ask you, with regards to the Lithuanian 
chair-in-office, and now that the baton's being passed to the 
Irish, do you sense, how poorly did they do, honestly? The 
issue of justice fatigue, is it perhaps showing itself here? 
Everything that's being done in the OSCE, we first did in the 
Parliamentary Assembly, and then we try to mirror it and to 
offload it, and have them take the baton.
    We had a coalition of the willing that Gert Weisskirchen 
and I put together right here in the building; that was, like, 
pulling teeth to get other heads of delegation to join us. We 
only had a half a dozen other delegations that joined us, and 
the others kind of said, yeah, we're not against you. But they 
certainly weren't robustly for us in combating anti-Semitism. 
That kind of changed, I think, and changed for the better over 
time.
    But it seems to me that the status quo--given what's 
happening in Egypt, which is a potential huge game-changer, all 
to the negative, with the elections that are occurring. The 
ultra-ultra party has about 15 percent of the votes, and the 
ultra party--the Muslim Brotherhood, which I am very frightened 
will take things in a very, very poor direction--not that the 
SCAF has done a good job, nor Mubarak, but it's all a matter of 
relative--things could get much worse.
    I'm not sure the Parliamentary Assembly or the OSCE really 
realizes that we're on the cusp of an even worsened situation, 
because we know that anti-Semitism often tracks what happens in 
the Middle East anyway. Egypt is a partner, as part of the 
Mediterranean countries, and they are on the brink of going the 
way of Iran. And I hope that's not true.
    Many of us, with the foreign aid bill that will be coming 
up shortly--I know Senator Leahy has spoken eloquently about 
this--we want to condition U.S. aid based on the treaty with 
Israel, based on how well the Coptic Church is treated, which 
has become a very real canary in the coal mine because they 
have seen an accelerated attack on churches and individuals of 
that faith.
    So I think the status quo is not enough, just continuing as 
we are. Again, how well do you see the Irish doing? Are they 
showing the right kind of commitment? How well did the 
Lithuanian chair-in-office do? But I think we're on the brink 
of a significantly worsened situation vis-a-vis anti-Semitism, 
which means we've got to ratchet up our combating of this 
terrible hate.
    Rabbi Baker. Well, look, over the years--and I go back a 
long time, in my American Jewish Committee role, with 
Lithuania, a discussion of its history and the restitution 
issues and the like--but I have to say, during this year, under 
their chairmanship, they have been fully supportive----
    Mr. Smith. Good.
    Rabbi Baker. ----beginning with my efforts to secure their 
support for that conference that took place in Prague on anti-
Semitism in public discourse. I think in some circles that was 
viewed as somewhat controversial. And some of the governments 
you mentioned, in the past, might have had troubles with it, 
but the Lithuanians were certainly supportive of it.
    To fast-forward, even, to these days--as you know, 
beginning on Sunday in Vilnius will be a civil society meeting, 
organized by ODIHR, drawing NGOs from Mediterranean partner 
states. I was personally troubled when I first saw the initial 
drafts of this conference. Again, it was prepared in Warsaw by 
ODIHR, focused on electoral reform, good governance, and so on. 
But absent in that draft was any reference to the tolerance 
agenda, which, as you've indicated, is obviously a critical 
one--and if anything, it must be seen as even more critical as 
we look at the current election results in Egypt. I have to 
say, in pushing to see that it would be included, the 
Lithuanians were supportive of this. And now, it will at least 
be a part of that conference, although a side event, so not 
fully integrated into it.
    But it seems to me that the OSCE provides a real 
opportunity because of the partnership relationship with these 
countries, because of the special tradition of the OSCE and 
NGOs and governments sitting together at the same table, to try 
and take some of that and bring it to bear on the changes going 
on there.
    I have to say that some of the same governments or 
representatives that posed problems to us early on in this 
process no longer do, although others may be less helpful. 
Again, I think the U.S.'s role here is critical. And sometimes, 
perhaps, even U.S. representatives, whether in Vienna or here 
in Washington, are not so mindful of this history and maybe 
fall a bit short, not out of, I think, any ill motive, but just 
not realizing how critical that is, that if you're going to 
accomplish something, you have to have a few governments that 
are really championing it. Lithuania alone, as a chairman, is 
not able to shoulder the full burden.
    So I think, again, when the U.S. delegation or when the 
Department of State hear from you, that certainly helps focus 
the attention, and it can perhaps move this forward. As you 
identified in a critical point, one of the things--and I've 
raised it when I could--the reality that much of the anti-
Semitic material that you find today, at least in Muslim and 
Arab communities in Europe, is imported from the Middle East, 
from some of these partner states. So it is a problem there 
that finds its way into Europe.
    Finally--and I think it bears importance for what develops 
in these emerging democratic societies, in Egypt and Tunisia 
and elsewhere--most of them have a history of Jewish life in 
these countries, even though those communities today may be 
small or almost nonexistent. And yet, how they deal with that 
piece of their Jewish history can be very revealing as to how 
open they will be as a tolerant society and treatment of 
minorities that are there today. We saw that, in a way, in 
Eastern Europe 20 years ago. How these countries dealt with 
their Jewish past told us something about where they were 
going.
    And I think that's an important opportunity. In fact, it 
was not easy, but I managed to encourage and find, then, a 
place for representatives of Egyptian Jews who have lived in 
Europe since their departure in the '50s and '60s to 
participate in this civil society conference in Vilnius. At 
least new Egyptian NGOs, civil society leaders should have an 
understanding, a direct feeling that Jews were also, at one 
time, part of their society.
    Ms. Rosenthal. I would only add--first, on the question of 
Lithuania's leadership, I had put, when I first came into this 
job two years ago, Lithuania as a priority country because of 
press and Jewish community remarks and all. And what has 
happened in these two years, in large part due to Rabbi Baker 
and our fabulous ambassador, Anne Derse, in Lithuania, we've 
seen amazing things happen in Lithuania, including Holocaust 
education teacher training. We have seen the compensation bill 
passed. We have seen rededication of important monuments and 
recognition of the Ponary killing fields.
    And just last week, Lithuania--the foreign minister and the 
prime minister held a conference on totalitarianism and anti-
Semitism, and it was all about anti-Semitism, so that comparing 
and not trying to get into dueling victimhoods, they are very 
sensitive to it, and I think that is reflected in how they lead 
whatever endeavor they're doing.
    How can OSCE improve? What can we hope will be better? 
Well, I'm kind of stunned to realize how, in 2004, everyone 
committed to doing intensive reporting--you know, 
investigations and reporting, and how few do. Of the 56 
countries, 20 claim they collect data, and only four sent it 
in. Whatever the barrier to that is, we should use our 
leadership and effort to make sure that that's happening, 
because to quote you, Mr. Chairman, you can't fix it if you 
can't name it. And that becomes, I think, fundamental to 
something that OSCE can do.
    I have great hopes about Ireland. I, last year at this 
time, was in Ireland for a conference, and this was the first 
conference I'd ever heard of like this that was totally focused 
on Holocaust denial. And so I think that there's great promise. 
But we have to admit that, where participating countries have 
made an agreement, some of those have not been fulfilled.
    As to Egypt and what's happening in the so-called Arab 
Spring, I just want to tell a completely different story, and I 
was able to communicate this to the government of Egypt--Jews 
have lived in Egypt for thousands of years. And from all 
records, this was the first year that they feared they could 
not go to synagogue for Rosh Hashanah and Yom Kippur, the two 
high holy days, to pray. Our embassy was very helpful in 
facilitating it.
    But what's been happening there for religious minorities 
has people very afraid. You have definitely called out what we 
all fear could be the bad outcome of a transition. I don't 
expect the transition to be smooth, but I have to remain 
optimistic that ultimately, the people who took to the streets 
because they wanted basic freedoms, that they will prevail. But 
when I hear that thousands of years of tradition were stopped 
this year because of fear, it was foreboding.
    Mr. Smith. Can I just encourage you, if you would, to 
encourage the secretary of state to designate Egypt as a 
``country of particular concern'' for all that you just 
mentioned, for the accelerated attacks on all minority 
religious, including the Coptic Church? I have chaired two 
hearings on the Coptic Church, and especially this new and 
horrific abuse whereby--and I don't want to deviate too much, 
but they're literally abducting Coptic Christian girls who are 
teenagers and then forcing them to become Muslim, and then, at 
age 18, putting them into a marriage that is a coerced 
marriage.
    We had the former ODIHR--Michele Clark, ODIHR number-two on 
human trafficking, testified at our hearing just a few months 
ago--who said, it's not a matter of allegations; it's a matter 
of reality and we need to recognize it. And it seems to me that 
CPC status, which the international religious commission has 
recommended anyway that Egypt be so designated, carries with it 
the potential of at least 18 separate actions that can be taken 
by the U.S. Government, including denial of certain types of 
aid--and military aid is something that needs to be considered. 
And I know the Senate and House are looking at that even as we 
talk on the continuing resolution or omnibus that will finally 
emerge before we close down for this year.
    CPC status can be done anytime. It seems to me that the 
relevant issues on the ground have so shifted that, if not now, 
when? This would be the time. So please take that back, and 
especially in light of what you just said about the fear factor 
that is palatable for people who want to go to synagogue.
    Ms. Rosenthal. I'll be glad to--[inaudible].
    Mr. Smith. [Inaudible.] Thank you.
    Mr. Cohen. Thank you. We have votes coming up pretty soon, 
so I'm going to be real brief. But, you know, the problem is 
great and it continues, and that's sad. But at the same time, 
there's some good things happening. When I was in Berlin this 
summer--and it might not have been that new, but it was new to 
me, because I hadn't been to Berlin for about 15 years--I was 
very impressed with the Holocaust Memorial and the work that 
was underneath the ground there, underneath the memorial; the 
Jewish Museum; and the designation of where Jewish homes were 
in the neighborhood near the new synagogue. And I think there 
are a lot of Jewish people emigrating to Germany, as I 
understand it. So there is some positive things happening.
    I wondered what other positive signs there are in Europe or 
other places of education, understanding and renewal of Jewish 
communities in Europe.
    Ms. Rosenthal. I think that we're seeing it happen in many 
places. Warsaw is in the process of building an incredible 
Jewish museum. Lithuania has a tolerance center that is not 
just about the Holocaust and the elimination of most of the 
Jews of Lithuania, but the rich history that was there.
    We're funding a program called Centropa that actually 
teaches teachers how to have students learn about how Jews 
lived and the contributions that were made by the Jewish 
communities when they were there, or focused on how they lived 
with the hope that people will want to reinvigor that memory 
and, hopefully, a future for Jewish communities rather than 
just focusing on how Jews died.
    And then we see very interesting things happening where 
non-Jews are getting fed up with some of the things that are 
happening. And so, in Malmo, Sweden, which was identified--you 
know, like, half the Jews were leaving because of harassment, 
and they didn't want their children to experience this--where 
there's a very new organization of the last few months--it's 
called Young Muslims Against Anti-Semitism--where they're going 
into the schools and saying, we need to be working together; 
hate is hate and we want to stand up for the Jewish students 
who are feeling harassed rather than having the families feel 
they have to leave. So there's some good news stories that are 
happening. And I appreciate all of the baby steps that are 
occurring.
    Mr. Cohen. And on the other hand--and maybe Rabbi Baker 
could take this one--who are the bad guys? Who are the worst 
ones in the stands and in Europe that might make overtly or 
even lightened anti-Semitic remarks?
    Rabbi Baker. Well, first to comment just a little bit on 
your first question or view. Look, Germany, in many ways, is--
perhaps it's ironic, but has become the example that shines and 
that we cheer with other countries about because of how it 
confronted its own past. You saw this reflected in Berlin in 
the memorials that you have there. And obviously, it has been 
an open door to Jews from parts of the former Soviet Union, 
making it the largest-growing Jewish community in the world. It 
also, obviously, came to terms with much of the material claims 
for losses during the Holocaust.
    The reality is that in all of these much smaller 
communities in Eastern and Central Europe, many people two 
decades ago thought, with the fall of Communism, those 
communities would disappear. People would leave. They'd build 
new lives in America, in Israel or whatever. The fact is that 
they've all remained. The numbers may be small, but there are 
wonderful stories of revival and even renaissance, I think, in 
almost all of these countries.
    But the reality is, it's not as though if there are arrows 
going up, there are not also arrows going down. In every place, 
there are other forces that have come forward. In some of these 
countries, it has been a kind of romance, a rehabilitation of 
the era of that fascist past. We've seen elements of it in 
Slovakia, in Romania, in Hungary. You have, in a number of 
these countries, still or developing significant right-wing 
nationalist parties. You see this in Hungary with the Jobbik 
party. We see it in Bulgaria with a party there. They draw on 
antagonisms toward minorities--frequently Roma, but often 
folding in anti-Semitic elements, a romance, again, with some 
of the fascist figures of that Holocaust past. They may exist 
and literally coincide with a revival, let's say, of Jewish 
life and culture.
    So it becomes important to try to bolster those voices that 
are combating this that will provide that kind of security or 
long-term comfort that can allow the revival of Jewish life to 
continue. And so it then means we really need to turn, in many 
cases, to the mainstream leaders and to the bystanders--people 
who are inclined, perhaps, to sit back and observe; they need 
to be more forceful, more outspoken. In some cases, the 
examples may be only symbolic, whether it's programs in parts 
of Western Europe, say, that bring Jews and Muslims together. 
But they can be amplified. They send an important message. And 
I think those are stories that--one shouldn't overlook the 
realities of the problems in bringing them forward, much as in 
Sweden--for example, there's a program in the Netherlands that 
brings peers, Jewish and Muslim young adults, to teach about 
the Holocaust and to talk about the Middle East conflict in 
Dutch schools. It's a great program; I don't how many people 
directly are impacted by it. It sends a certain symbolic 
message. But it's still fighting against larger trends, 
nationalist parties and general difficulties.
    Mr. Cohen. Thank you. And I yield back the remainder of my 
time.
    Mr. Smith. Mr. Cohen, thank you very much. You know, we do 
have a few votes--and I apologize to our second panel, but 
we'll come back as quickly as we can.
    But I do have a couple of questions. If we do have to run, 
please continue answering. Chief of Staff Mark Milosch--we will 
go into a very brief recess.
    But Stacy Burdett, in her testimony from ADL--she is very 
strong and focusing on a whole lot of issues, but including 
the--and you mentioned it too, Rabbi Baker, in your statement--
the rising incidents of anti-Semitic hate on college campuses. 
And I'm thinking early next year of having a hearing at 
Rutgers--that would be my preferred venue for a hearing. And 
she points out the situation that occurred at Rutgers where one 
of the staff members called a student a Zionist pig on 
Facebook, and goes on and on about that terrible incident.
    Could you, perhaps, speak to this very alarming trend? It 
reminds me of what we just last week in Cairo where chants went 
up about death to the Jews. But we also saw something very 
similar happening on our own college campuses that was awful to 
behold. If we don't see, I think, our leadership at our 
universities and colleges drawing a bright line against such 
hate, it will get worse. Students should not live in fear, 
especially in the United States of America, but anywhere in the 
world--Europe, anywhere--with regards to openly and very 
proudly manifesting the very real fact that they're Jewish. So 
if you could speak to the university issue.
    And also, Special Envoy Rosenthal, the training issue--does 
it look like monies will be available for additional training 
of law enforcement assets within the OSCE, something that we've 
all talked about, worked on over the years? If you could speak 
to that issue, where you see that going, and--I'm actually out 
of time, but the record will be open as you answer that. And 
then we'll have a brief recess and invite our second panel.
    Ms. Rosenthal. Well, I sit at the foreign policy table. So 
the only country I am not mandated by you to monitor is the 
United States. But I live in the United States, and I have 
grown children who were products of the universities here in 
the United States. And so certainly I am aware of minority 
populations on campus and very specifically Jews feeling 
harassed by political correctness--I hate using that word, but 
that's how it's reported. So I don't have a lot to share, 
because I don't--my office does not monitor that.
    As for OSCE, we have--in 2011, we funded ODIHR at $91,000, 
and the NGO strengthening initiative at 65,000 [dollars], and 
125,000 [dollars] to ODHIR's tolerance efforts, 50,000 
[dollars] for support for my colleague Andy Baker. And I've 
heard nothing that that isn't going to move forward, but you 
would know that better than I.
    Mr. Milosch. Thank you very much. Rabbi Baker?
    Rabbi Baker. Well, to the last point, I think we see that 
so much of the efforts in ODIHR to deal with these issues rely 
on extra budgetary contributions. So that becomes and remains a 
critical concern as for many countries there is an effort to 
control costs and to reduce support.
    The reality is, even if we have secured a greater 
environment for supporting these projects--the work, also, of 
me and my two colleagues as personal representatives--at the 
end of the day, if there isn't financial support to make things 
happen, that becomes a problem. So I hope that this Commission 
and others, in your meetings with other governments and 
colleagues in other countries, can reinforce the importance of 
having this available.
    I'm pleased to hear that you'll consider a separate hearing 
to look at the problem of anti-Semitism on college campuses. I 
have colleagues who focus on that more directly and with 
greater expertise than do I.
    I think we are fortunate, in this country, that in the 
larger environment and atmosphere particularly where that anti-
Israel discourse becomes something much worse is not present in 
the way it is in many European countries.
    But perhaps if there is an exception, it's in the 
heightened and somewhat rarefied environment of college 
campuses. Therefore, I think it does invite a special focus. I 
know it's not the purpose of the meeting--of this hearing 
today, but certainly worth addressing in the future. Thank you.
    Mr. Milosch. Thank you, Rabbi Baker. As you know, the 
congressman has fought and will continue fighting for extra 
budgetary contributions to this most important work.
    We will now go into recess. I think the members will return 
in about 30 minutes. Thanks.

    [Break.]

    Mr. Smith. The Commission will resume its seating. We're 
joined by Commissioner Joseph Pitts of Pennsylvania, who is the 
chairman of the Health and Human Service--or the Energy and 
Commerce----
    Mr. Pitts. Health Subcommittee.
    Mr. Smith. ----Health Subcommittee. And we're also joined 
by Trent Franks from Arizona, who is the chairman of--or co-
chairman of the American [sic] Israel Allies Caucus here in the 
House and also the chairman of the Religious Freedom Caucus. So 
very much focused and concerned about these issues. And if 
either of my two colleagues would like to say a word before we 
introduce our second panel?
    OK. Now, let me introduce panel number two. We'll begin 
with Dr. Shimon Samuels, who's the director for international 
liaison of the Simon Wiesenthal Center based in Paris and also 
serves as honorary president of the Europe-Israel Forum. He has 
long been a force in the fight against anti-Semitism, having 
also served as the European director of the Anti-Defamation 
League based in Paris, and the Israel director of the American 
Jewish Committee.
    We'll then hear from Mark Levin, who is the executive 
director of the NCSJ; advocates on behalf of Jews in Russia, 
Ukraine and the Baltic States and Eurasia. 2008, Mr. Levin 
received the Soviet Jewry Freedom Award from the Russian Jewish 
Community Foundation, and the Order of Merit medal from the 
Ukraine president Victor Yushchenko.
    Mr. Levin has served three times as the public member of 
the U.S. delegation to meetings of the OSCE and served as a 
public adviser for the U.S. delegation to the 2004 Berlin 
Conference on Anti-Semitism. And as he knows, as I mentioned 
earlier, I joined him on my first trip to Moscow back in 1982, 
which frankly began my push in this entire effort--so thank 
you, Mark.
    Then we'll hear from Eric Fusfield who has served as deputy 
director of the B'nai B'rith Center for Human Rights and Public 
Policy since 2007, and director of legislative affairs for 
B'nai B'rith International since 2003. He has been a leading 
advocate for B'nai B'rith in the OSCE's adoption of efforts to 
combat global anti-
Semitism; he's been there every step of the way as language was 
crafted, as action plans were hatched, and brings a great 
degree of wealth and knowledge and wisdom to this effort.
    And then Stacy Burdett is the Anti-Defamation League's 
Washington director, and heads the Government and National 
Affairs Office. Ms. Burdett reaches out to Congress, the 
administration and foreign diplomats to mobilize leadership and 
support on global anti-Semitism, securing fair treatment for 
Israel, and broader human rights issues like international 
religious freedom and the fight against anti-immigrant bigotry. 
She has been a leading force in efforts to advance the global 
fight against anti-Semitism in the OSCE and at the United 
Nations.
    Dr. Samuels, if you could begin.
    Dr. Samuels. Thank you, Mr. Chairman. I open----
    Mr. Smith. If you could just suspend--we're joined by 
Robert Aderholt. Robert, did you want to just say a word or 
two? OK. OK, thank you.

DR. SHIMON SAMUELS, DIRECTOR FOR INTERNATIONAL RELATIONS, SIMON 
                       WIESENTHAL CENTER

    Dr. Samuels. Mr. Chairman, I opened the European office of 
the Simon Wiesenthal Center in Paris in 1988 to focus on three 
challenges. Firstly, in Western Europe, the second religion 
demographic, it was already Islam. An interfaith outreach was 
necessary, as was monitoring of incipient extremism.
    Second, tremors in Eastern Europe since the fall of the 
Berlin Wall signaled a new nationalism variant of past 
phantoms. There was no need to get to seven on the Richter 
scale to understand that monitoring was required. Thirdly, flea 
markets across Europe sold under-the counter floppy disks--
Amiga and Commodore 64 for those of us who remember--disks of 
neo-Nazi games. Hate would advance exponentially with that 
technology and had to be monitored.
    By the millennium, the year 2000, the first focus on 
Islamism was now characterized by the Durban Process, which in 
turn inspired a jihadist anti-Semitism and anti-Semitism 
terrorism nexus with Middle East satellite television and 
website inculcation and recruitment across Europe. The second 
focus was marked by the European Union enlargement. In April 
2004, a Warsaw-welcomed fiesta focused on the challenges facing 
the East European countries entering Europe.
    I was invited to speak on anti-Semitism in the West and 
scapegoating in the East. Scapegoating is a result of painful 
withdrawal from the central of Soviet economy to the market or 
capitalist economy. That very same month, the OSCE Berlin 
Declaration on Anti-Semitism was annunciated and set a new 
threshold of standards for the region. I addressed the state 
parties, noting that you are the same nations we meet at Geneva 
at the U.N. Human Rights Commission, now called the council.
    Yet, here at the OSCE, the language is different, perhaps 
due to the absence of the tyrannies and the NGOs whose vested 
agenda is to perpetuate the Middle East conflict. I view the 
OSCE therefore as the answer to the stultification of the U.N. 
system--even today, exemplified only last week by the 
appointment of Syria to a human rights role at UNESCO.
    What forms of anti-Semitism did the Berlin Declaration not 
foresee? First, that which at the OSCE high-level meeting in 
Astana in 2010 I called supersessionism. Just as the early 
church viewed itself as ``Israel non in carne sed in 
spiritum,''--Israel, not in the flesh but in the spirit--so 
today we witness an identity theft of the Jewish narrative 
among several OSCE parties.
    In Eastern Europe, you have referred to the Baltics and the 
Ukraine; a seemingly innocent conflation is made between the 
Holocaust the atrocities of Stalin. Its political instrument, 
the Prague Declaration, seeks through the European Parliament 
to replace the 27th of January, the day of Auschwitz 
liberation--as a ``Holocaust Commemoration Day''--with a 
``Double Genocide Day'' on the 23rd of August, which marks the 
Molotov-Ribbentrop Pact that resulted in the Soviet occupation 
of the countries concerned.
    In Western Europe, the ongoing Durban Process has redefined 
Holocaust as Naqba, the 1948 catastrophe of Israel's birth. 
Anti-Semitism, to quote from Hadi Alham [ph], professor at 
Teheran University: Anti-Semitism until 1945 focused on the 
Jew, but from 1948 and the victory of Zionism, it targets the 
other Semite--the Arab. Thus, by Orwellian double-speak, if 
Anti-Semitism is Arabiphobia, then Zionism is Anti-Semitism.
    Add to that the mix of terms like apartheid or BDS, boycott 
divestment sanctions--misappropriated from South African 
victimology--to castigate the state of Israel. The Norwegian 
foreign minister uses Holocaust images to depict the 
Palestinian predicament. But if Gaza is Auschwitz, then 
Auschwitz is but a lie.
    The anti-Semitic backlash in Europe to this historical 
gangrene, or what I would like to call the gangrening of 
history, is to be exacerbated further via the World Heritage 
Committee of UNESCO. In that context, supersessionism aims to 
cut the Jewish link to the Holy Land.
    The Cave of the Patriarchs and Rachel's Tomb have been 
rebaptized as mosques. In the background material that I sent 
you, there is a volume called the Buraq Wall, which I purchased 
at the Frankfurt Book Fair this year. This book, Buraq, renames 
the Wailing or the Western Wall, the holiest site in Judaism, 
as a Jewish heresy of aggression against a Muslim heritage 
site. Last week, a film clip found on YouTube, ``Travel 
Palestine,'' funded by the U.N. Development Program, expunges 
all Jewish roots in the Holy Land.
    I believe that Jews also have a trinity--the people, the 
book, the land. Eliminate one leg of that triangle, you delete 
them all. Also not perceived by the Berlin Declaration was an 
even more dangerous demonstration--that the enemy of the good 
is indifference. Here we encounter a new phase in anti-
Semitism. Ahmadinejad stated the Holocaust is a lie, and was 
answered by a wave of international condemnation. A little 
later he continued, wipe Israel off the map. This passed with 
muted indignation.
    His repeated ``Jews are vermin, bacilli, a tumor'' are met 
with fatigue. By a numbing effect, he tests the limits of 
Western timidity. Voila, the anti-Semitism of indifference. 
This week, 5,000 Tahrir Square demonstrators in Cairo, 
screeching ``death to the Jews,'' created no expressions of 
global outrage. The bar has thus been raised on anti-Semitism.
    After eight assaults on the Rabbi of Malmo, Sweden, a 
community of 700 Jews and 70,000 Muslims, the Wiesenthal Center 
during a visit in January, 2011, imposed a travel advisory on 
the city. Our campaign resulted in the Swedish Government 
finally subsidizing community security. Faced with mass total 
indifference, the Rabbi was further subject to 15 assaults 
since our visit. Indeed, now the Muslim community has joined us 
in criticizing Malmo's inattentiveness to hate crimes--the 
anti-Semitism indifference.
    Next month, January the 20th, we will mark the 70th 
anniversary of the Wannsee Protocol, which was a meeting of 15 
Nazi bureaucrats in Berlin to coordinate the extermination of 
11 million Jews as the final solution of the Jewish question. 
In the material that I sent is the list of the 11 million 
Jews--and I stress 11 million. Six million were murdered; 11 
million were the intent. I've always respected the power of 
water; 30 miles of British Channel saved my family and the 
330,000 Jews of England on that list.
    Today 30 miles of channel are as defensible as 3,000 miles 
of Atlantic waters--zero. We are all tripwires crisscrossing 
the OSCE region. Recently discovered documentation of Nazi 
German strategic designs on Persia's oil wealth includes a 
Wansee-style memorandum signed Adolf Eichmann, the architect of 
the Holocaust. Therein, he consigns up to 100,000 Iranian Jews 
to extermination. The current president of Iran persists in his 
intentions to finish the job.
    The late Simon Wiesenthal often said: What starts with the 
Jews never ends with them. And on the Venezuelan coast, Iran is 
building a Shahab-3 missile base with a range of 2,000 miles, 
facing these United States. Twice, in two World Wars, you have 
invoked the Monroe Doctrine to address the balance of the old 
world. Mr. Chairman, through this Commission--which I consider 
an early-warning system--we call on the United States 
Government to maintain that balance in the OSCE region.
    For if anti-Semitism is indeed to be a benchmark, then this 
session must be replayed at a purpose-built, high-level OSCE 
meeting, perhaps to be called Berlin II, stocktaking and 
counteracting anti-Semitism in the OSCE region. It is you, Mr. 
Chairman, and I quote you--you said: The status quo is not 
enough. Thank you.
    Mr. Smith. Dr. Samuels, thank you very much for your very 
eloquent testimony. Anti-Semitism of indifference tests the 
limits of Western timidity--you've really nailed a snapshot of 
exactly where we are today. And the Berlin II idea is something 
we really need to very seriously consider. And I thank you for 
that recommendation and all the other points you've made.
    Now, Mr. Levin.

 MARK LEVIN, EXECUTIVE DIRECTOR, NATIONAL CONFERENCE ON SOVIET 
                             JEWERY

    Mr. Levin. Mr. Chairman, thank you. I also would ask that 
my full statement be put into the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Levin. And what I'd like to do is just try to make a 
few brief points and summarize my testimony. But before I do 
that, Mr. Chairman, I would like to return the compliment that 
you gave me earlier. I think your leadership has been 
instrumental in making not just the issue of anti-Semitism but 
many of the other human rights challenges that the world faces 
much more public, much more on the United States Government 
agenda. And you should take great pride in your 30-plus years 
in being on Capitol Hill and accomplishing as much as you have.
    You should also know that this is the 40th anniversary of 
NCSJ, and we're going to Israel next week. And we will be 
hosting a reception in honor of many of the former refuseniks 
and activists that you and I met on our first trip in 1982. So 
I will, with your permission, give your personal regards to 
Yuli Kosharovsky and Yuli Edelstein.
    This is a very good time to reflect on the progress made on 
this issue. Seven years have passed, as many of my colleagues 
have noted, since the conference on anti-Semitism in Berlin. 
And as far as the Jewish communities of the former Soviet 
Union, I think it's the good news versus the bad news. And 
these are the four points I'd like to make before I get to the 
specific countries.
    We're dealing more with the increase in popular street 
anti-
Semitism today than we are state-sponsored anti-Semitism. So if 
there's any good news, it's that there's virtually no state-
sponsored anti-Semitism in the region today. But we've seen a 
corresponding rise in, as I said, in popular anti-Semitism. 
Interestingly, if you look at the former Soviet Union as a 
whole, anti-Semitism seems to be a much larger problem in the 
Slavic countries than it does in the Central Asian and Caucasus 
areas.
    Next, you know, many of us talk about the new anti-
Semitism. I think that's one reason we saw the action taken by 
the Helsinki Commission and the OSCE as a whole. And we 
commonly refer to the demonization, delegitimatization and 
double standard of Israel as the new forms of anti-Semitism. 
Unfortunately--or fortunately, in the former Soviet Union, 
we're dealing with tried and true traditional forms of anti-
Semitism. We see, what I like to call, an unholy alliance of 
the far right and far left coming together in many of these 
countries.
    And fourth, we have seen an unprecedented rise in 
xenophobia, extremism and ultra-nationalism. Interestingly, in 
the last couple of years the neo-Nazi skinheads and others who 
engage in these hideous acts have focused their attention more 
on other ethnic and religious minorities than the Jews--but as 
we all know, that can change very quickly. And for many years 
the primary target for these ultra-nationalist and xenophobic 
groups were their Jewish citizens.
    I'd like to give a brief overview of current anti-Semitism 
across the former Soviet states. As I said, official state 
anti-Semitism is virtually non-existent. We are focusing on 
popular anti-Semitism. The first country I'd like to focus on 
is Russia. Anti-Semitism in Russia today is most often 
political and street-level, and increasingly features a rising 
number of attacks by, as I said, young skinheads and 
nationalists. Incidents most often involve vandalism against 
and firebomb attacks on synagogues, cemeteries and Jewish 
community centers, but have also included outright physical 
assaults on Jews and attempted bombings of Jewish buildings.
    Most alarming is the fact that human--Russian human rights 
monitoring groups have reported a steady rise over the last 10 
years in the number of overall attacks, as I said, by skinheads 
and extremists on minorities, migrant workers, and foreigners 
across Russia. Leading Russian human rights groups estimate 
that Russian far-right extremists now number in the tens of 
thousands, and warn that nationalist movements are gaining 
strength across Russia.
    It was just a year ago this week that a Russian nationalist 
riot took place in central Moscow, next to the Kremlin. And 
it's important, I think, to remember this because some in the 
government refer to these as soccer fans, not as neo-Nazis and 
skinheads. We're concerned by the strong potential for 
violence, including anti-
Semitic violence, inherent in this movement. And we have been 
urging the Russian government to strengthen its enforcement of 
existing commitments, including to the OSCE charter, and to 
take stronger legal action against incitement of racial hatred 
and overt calls for violence.
    The Russian government recently publicly denounced 
nationalist ideology and expressed support for legal action 
against anti-Semitic acts. But follow through has been uneven. 
Some anti-Semitic attacks in recent years have in fact been 
successfully prosecuted as hate crimes, but many others 
continue to be dismissed as mere hooliganism or random 
violence.
    Next in Ukraine--Ukraine is home to another vibrant Jewish 
community. It's the second-largest in the former Soviet Union. 
Although popular anti-Semitism has persisted in recent years, 
the Ukrainian government has demonstrated a strong commitment 
to combating this trend, and it has in fact achieved some 
successes.
    Anti-Semitic vandalism and other incidents occur regularly, 
and have included physical assaults on Ukrainian Jews and at 
least two known fatalities. There've been firebomb attacks and 
vandalism on synagogues and other monuments. We continue to 
urge the Ukrainian government to deal with these forthrightly.
    Now, one positive step that has occurred--and I've sat 
before you before and talked about a group known as MAUP. MAUP 
was the largest private university in Ukraine for a number of 
years, but it was also the largest purveyor of anti-Semitic 
material and took a lead in promoting anti-Semitism throughout 
the country. The good news is that it's virtually non-existent 
in the anti-Semitism business today, and that is because of the 
strong action taken by the Ukrainian government, followed on by 
the recommendations of this Commission, the U.S. government as 
a whole and many NGOs.
    In Moldova, we're dealing with a large community. Again, 
there've been isolated incidents, but the government has been 
responsive. The government officially condemns anti-Semitism 
and has taken steps to combat it, including supporting 
Holocaust education in local schools and partnering with Jewish 
groups from Moldova and elsewhere in the former Soviet Union.
    Next is Belarus. It's a country, I know, Mr. Chairman, that 
you and the members of this Commission know very well. The 
community in Belarus today numbers approximately 70,000. As in 
neighboring Ukraine and Russia, Belarusian Jews today have 
access to a wide range of religious, educational and community 
resources.
    And Belarus is also the home of the only official Soviet-
era Holocaust memorial in the former USSR, which was dedicated 
in 1946. However, there are incidents of popular anti-Semitism, 
such as vandalism of synagogues and community buildings and 
cemeteries, and monument desecrations have occurred.
    Openly anti-Semitic publications have also appeared in 
recent years in local newspapers and in books published by 
local publishing houses affiliated with the Minsk Orthodox 
Church. Belarusian authorities have also shown themselves 
unresponsive to official complaints against anti-Semitic hate 
literature, and have inconsistently investigated or prosecuted 
perpetrators of anti-
Semitic actions.
    President Lukashenka himself has made on-the-record anti-
Semitic comments in the recent past, and members of his 
administration have published openly anti-Semitic books and 
articles. However, and interestingly, relations between the 
Belarusian Jewish community and the government are generally 
stable, despite evidence of periodic official involvement in 
popular anti-Semitism and official support for policies 
insensitive toward Jews and other minorities.
    Lastly, I'd like to talk about the Baltic states just for a 
second. Despite much good that's taken place in the Baltic 
countries, and despite the small size of the Jewish 
communities, we have seen anti-Semitic episodes there as well, 
especially in Latvia and Estonia. And you've already heard a 
little bit about Lithuania. Local nationalists and veterans of 
World War II-era Nazi-sponsored auxiliary units continue to 
generate anti-Semitic hate speech, and stage annual marches 
with anti-Semitic and Nazi displays.
    A bit of good news is that the prime minister of Latvia 
stated last month that any member of his government attending 
these annual marches of the Waffen-SS veterans would be fired--
which, while commendable, also highlights the persistence of 
these difficult World War II-era divisions in the Baltic 
society.
    Perhaps most disturbing has been the shameful prosecution 
in recent years by Lithuanian authorities of several elderly 
Jewish Holocaust survivors for their wartime anti-Nazi 
resistance activities as somehow anti-Lithuanian. Although it 
appears that the prosecutors are no longer actively pursuing a 
case against these individuals, the instigation of their 
prosecution certainly sent a troubling signal.
    NCSJ and other leading organizations have maintained a 
steady, productive dialogue with Baltic officials on these 
issues of concerns. We will continue to press them.
    Mr. Chairman, I want to finish with a series of 
recommendations, and it'll just take a second. And I think it's 
important to note many of these, particularly in light of what 
happened seven years ago at the Berlin conference.
    Mr. Smith. Mr. Levin, if you could just suspend for one 
brief second. We have three minutes to be on the floor, but 
there's only one vote after that immediate, so within 10 
minutes, we'll all be back. So I apologize, again, for this 
interruption. When we schedule these, we have no idea what the 
schedule might be on that particular day. So I thank you for 
your forbearance, and we stand in brief, very brief, recess.

    [Break.]

    Mr. Smith. The Commission will resume its hearing. Mr. 
Levin?
    Mr. Levin. Mr. Chairman, I'd like to offer the following 
recommendations. It sounds obvious, but the first one would be 
to continue to strongly condemn hate. Incidents of anti-
Semitism, political and religious leaders that polarize society 
and media outlets which propagate intolerance must be strongly 
condemned, to send a clear message that incitement to and acts 
of ethnic, religious, and racial hatred will not be tolerated.
    Secondly, enact adequate hate-crime legislation to create 
an environment in which Jews and other minorities can live 
without fear. The successor states of the former Soviet Union 
must enact hate-crime and hate-speech legislation and enforce 
existing laws for all citizens, including elected officials.
    Three, train local law enforcement. To properly combat 
anti-
Semitism and extremism, government must empower local police 
forces. Police must be able to delineate between ordinary 
hooliganism and a crime motivated by bias or hate. A well-
trained police force will better follow through on hate-crime 
enforcement and investigations, leading to an increase in 
prosecutions, data collections, and dealing more sensitively 
with victims.
    Fourth, monitor and catalogue incidents. Cataloging and 
reporting anti-Semitic, xenophobic and bias-motivated 
activities enables prompt condemnation of such acts, increasing 
the chances that perpetrators will be apprehended swiftly.
    Fifth, implement region-wide programs of interethnic 
understanding and Holocaust education. This is the most 
effective way to combat the roots of popular or street anti-
Semitism. Teaching children the values of tolerance and basic 
human rights from a very young age begins to stop the 
perpetuation of ignorance and negative stereotypes of Jews and 
other minorities.
    And finally, reform the message of religious and media 
outlets throughout the region. Beyond the classroom and the 
government, the two other major sources of information in the 
former Soviet Union are the media and places of worship. 
Governments and nongovernmental organizations need to work with 
leaders of these religious institutions and the editors and 
reporters of media outlets to ensure that they will spread a 
message of tolerance.
    At NCSJ, we will keep engaging governments throughout this 
region strongly and persistently on these and other problematic 
areas in the human rights field. We will continue to make our 
position known in the United States and the former Soviet 
Union, and in international fora. Mr. Chairman, thank you for 
this opportunity. And again, I want to thank you and the 
Commission for everything that you've done to address this 
problem.
    Mr. Smith. Mr. Levin, thank you so very much for your 
insights, particularly the country-specific insights, your 
recommendations at the end, and for your 30-plus years of 
extraordinary leadership. We are joined by Commissioner 
McIntyre, joined by Mr. Engel, who in addition to serving as a 
senior member of the Foreign Affairs Committee and a former 
chairman of the Western Hemisphere Subcommittee--now ranking 
member--also co-chairs the Caucus for Combating Anti-Semitism 
here in the House.
    And we're also joined by Chairman Frank Wolf, who is the 
chairman of the approps Justice Subcommittee. Mr. Wolf, thank 
you for being here. And for the record, Mr. Wolf is the prime 
sponsor of the International Religious Freedom Act of 1998, 
which has, I believe, revolutionized, within the State 
Department, and has made a priority where one did not exist, of 
religious freedom issues within State and in our government. 
Thank you, Mr. Wolf.
    Mr. Wolf, would you like to say anything? Or Eliot or Mike?
    Mr. Engle. Thank you, Mr. Chairman. I'm good.
    Mr. Smith. OK. We'll now go to Eric Fusfield, and thank you 
for your patience and for your leadership as well.

 ERIC FUSFIELD, DIRECTOR OF LEGISLATIVE AFFAIRS, B'NAI B'RITH 
                         INTERNATIONAL

    Mr. Fusfield. Mr. Chairman, I would also like to ask that 
my written testimony be entered into the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Fusfield. And I will use my time just to summarize. 
First, I would like to thank you for the privilege and honor of 
addressing the Commission on behalf of B'nai B'rith 
International and its more than 200,000 members and supporters 
in over 50 countries, including many states in the OSCE region.
    B'nai B'rith would like to thank you, Mr. Chairman, Co-
Chairman Cardin, Mr. Wolf, Mr. Franks, Mr. McIntyre, Mr. Engle 
and the other Commissioners, not just for convening this 
hearing, but for your strong leadership in addressing the 
serious problem of anti-Semitism. The role of the U.S. Helsinki 
Commission and the State Department has been absolutely 
indispensable in generating forward momentum within the OSCE on 
combating anti-Semitism, and we're very grateful for that.
    It's been 11 years since the outbreak of the second 
intifada in the Middle East, and subsequently, the start of a 
new wave of anti-Semitism throughout the OSCE region and around 
the world. This spread of hatred has resulted not only in 
widespread attacks against Jewish communities, but in a 
proliferation of anti-Semitic propaganda, much of which is 
directed against the State of Israel.
    Tragically, the demonization and delegitimization of the 
Jewish state has become a daily occurrence, as Israel's enemies 
repeatedly accuse it of being a Nazi-like occupier and an 
apartheid state that disenfranchises the Palestinians. 
Falsehoods about Israel are repeated so often that they become 
widely accepted in the popular culture, and sometimes impact 
government policy.
    The effort by Israel's relentless critics to denigrate the 
Jewish state is not only evidence that anti-Semitism is alive 
and well 66 years after the Holocaust. This new variation of 
the world's oldest social illness actually poses a security 
threat to the Jewish state by intensifying its international 
isolation.
    Now, over the past decade, the OSCE, with the United States 
in the lead, has taken up the urgent struggle against rising 
anti-
Semitism. While much has been done to fight anti-Semitism in 
that time, much work remains. The need for practical and 
effective strategies to combat and defeat this pathology is 
still crucial. To this end, the OSCE's Ministerial Council 
should formalize the scheduling of conferences on anti-Semitism 
and other forms of intolerance at regular intervals.
    Over the next few years, we'll have opportunities to mark 
the tenth anniversaries of landmark OSCE conferences in Vienna, 
Berlin and Cordoba. By scheduling review conferences at the 
appropriate junctures, we can take advantage of these 
anniversaries by challenging OSCE member states to follow 
through on their commitments. We should widely promote, within 
the OSCE, the EU Monitoring Center's comprehensive working 
definition of anti-
Semitism.
    This document, whose principles have also been adopted by 
the U.S. State Department and the U.S. Civil Rights Commission, 
is tremendously useful in identifying current manifestations of 
anti-Semitism to those who might not otherwise recognize them. 
It should be disseminated as widely as possible among public 
officials, educators, and journalists, among others.
    We must enhance support for ODIHR's tolerance and 
nondiscrimination unit, which has now become a fixed and 
integral part of the OSCE's work. We must enable the TND unit 
to sustain and expand its critical activities, which currently 
include educational programs on anti-Semitism in 14 countries. 
At least two more countries may soon be added to that list. TND 
would like to adapt those materials to an online format to make 
them more readily accessible, but this will require increased 
support from member states.
    Security for Jewish communities must be enhanced. In some 
cases, additional money has been allocated to make this 
possible. But even where funding is not available, much can be 
done through the exchange of best practices facilitated by the 
OSCE. The U.S. has a critical role to play in ensuring that the 
OSCE maintains its focus on anti-Semitism as a distinct 
phenomenon, even as some of the remedies used to address anti-
Semitism may have broader application.
    I hope that Secretary of State Clinton will attend the OSCE 
Ministerial Council in Vilnius next week as expected, and that 
when she does, she will specifically reference the problem of 
anti-
Semitism and the importance of the work of the three personal 
representatives in ODIHR's tolerance and nondiscrimination 
unit. Her doing so will assist in keeping attention focused on 
anti-Semitism at the highest levels.
    Last summer, I had the opportunity to travel to Oslo with 
representatives of the Anti-Defamation League and the Simon 
Wiesenthal Center. In a meeting with leading Norwegian 
journalists, I confronted the editor of the daily paper 
Dagbladet with an editorial cartoon, which I have here, which 
I've entered into the record--an editorial cartoon that he had 
published, depicting former Israeli Prime Minister Ehud Olmert 
as a concentration camp guard.
    His response was that the cartoon had provoked a healthy 
public debate. Three months later, he ran a second piece by the 
same cartoonist, this one depicting Gaza as an Israeli-run 
concentration camp. When asked in an interview why he had used 
the flawed and inherently anti-Semitic Nazi analogy twice, the 
cartoonist replied, because I think it fits.
    Mr. Chairman, I think of my eight-month-old son Emmanuel--
and this is my final exhibit--I'm a new father, so please bear 
with me--and I imagine that he will graduate from college 
around the time that we mark the 100th anniversary of the 
Holocaust.
    With very few Holocaust survivors likely to be alive then, 
and with the lessons of history further faded, how much more 
difficult will it be for his generation to prevent such misuses 
of the Holocaust analogy, and to promote an understanding that 
these distortions heighten the isolation of the Jewish state 
and undermine the security of the Jewish people?
    The implacability of the Norwegian cartoonist and his 
editor is an unsettling reminder of the problem we continue to 
face, and an illustration of why Elie Wiesel has described 
anti-Semitism as the world's most durable ideology. As we gauge 
the OSCE's progress in the struggle against anti-Semitism, we 
can draw reassurance from the positive accomplishments of the 
past eight years, even as we commit ourselves to sustaining and 
intensifying our focus.
    Mr. Chairman, thank you for your unstinting commitment to 
this issue. B'nai B'rith pledges its ongoing cooperation as we 
all confront the challenge of combating anti-Semitism together. 
The history of European Jewry in the past century is a tragic 
one. Let us be mindful of that history. Let us speak out. Let 
us use our influence, and let us act now. History demands 
nothing less from us. Thank you.
    Mr. Smith. Mr. Fusfield, thank you very much. And I would 
just say that 20 years from now, that eight-year-old soon will 
be very proud of the leadership that his dad demonstrated 
throughout these very difficult years. So thank you so very 
much for that testimony and for your statement.
    Mr. Fusfield. Thank you.
    Mr. Smith. Mr. Engle, did you want to say something now 
or--
    Mr. Engle. I'll wait.
    Mr. Smith. Oh, you will. OK, fine. Ms. Burdett?

STACY BURDETT, DIRECTOR, GOVERNMENT AND NATIONAL AFFAIRS, ANTI-
                       DEFAMATION LEAGUE

    Ms. Burdett. Thank you very much. Just, I'll quickly echo 
the thanks of the rest of the panel for your commitment and 
your partnership. And we hear a lot in the OSCE these days 
about fatigue--fatigue on the anti-Semitism issue on the part 
of the governments. And Mr. Chairman, when I look at the other 
members of the panel who are here, I know we meet that fatigue 
with tirelessness.
    And so your work really is an inspiration to us in the NGO 
community, and we're eager and ready to work with you on the 
next phase of this work. I want to ask that my full statement 
be submitted for the record.
    Mr. Smith. No objection, so ordered.
    Ms. Burdett. Thank you--and use my few minutes to take 
advantage of my position as the wrap-up guy, and do a little 
bit of stocktaking on some of the observations today that I 
hope can jumpstart a question-and-answer session.
    Now, nine years ago, almost to this day--it was December 
10th, Human Rights Day--we sat in a room in this building, all 
of us, and we were worried about three specific issues: a 
resurgent anti-Semitism, the broad denial by governments and 
their failure to act, and the lack of basic definitions and 
strategies and tools to even wrap our heads around the problem 
and to begin to think about how to respond.
    Now, on the first count, we've heard the threat persists. 
Middle East developments continue to fuel new forms of anti-
Semitism. Some of the witnesses have talked about the Arab 
Spring. The Anti-Defamation League has released a new report on 
the Muslim Brotherhood and its political party, the Freedom and 
Justice Party, which is espousing virulent anti-Israel and 
anti-Semitic messages. So the trends continue along that path.
    On the second count, the governments still do not show the 
political will to fulfill the commitments that they've made. 
Each year, the Anti-Defamation League, in partnership with 
Human Rights First--we analyze the annual hate crime report of 
the OSCE, and we use that data to issue what the ODIHR is not 
in a position to do, but a real scorecard.
    And seven years after ministers stood in Berlin and pledged 
to do the most basic job of collecting data on anti-Semitic 
incidents, only three of the 56 governments bothered to give 
that information to ODIHR for this year's report. So there's a 
lot of work to be done--again, still big gaps in compliance.
    But what is different today is we do have a strategy. We do 
have a very serious arsenal of tools in place for any 
government that would make the choice to use them. So while 
states have stayed lagging and behind in their own compliance, 
the OSCE really is a focal point for progress, for fighting 
anti-Semitism and hate crime. So the ministerial decisions 
we've all talked about, the personal representative on anti-
Semitism, the tolerance unit and its dedicated program and 
staff adviser on anti-Semitism have really carved out a focus 
in the OSCE, and a menu of tools and strategies.
    Now, we've been so immersed in the incremental development 
of these tools, I wanted to just sketch where we've come, and 
how far we've come. So the ODIHR fulfills its mandate, I think, 
in an expansive way. They start with a tasking that essentially 
is very passive in nature; they're supposed to serve as a 
collection point for anti-Semitic incidents and assist states 
in complying with their commitments. And they use that mandate 
and those reports to expose real failings and to respond to 
those with tools for any states that want to improve.
    So ODIHR reports have looked at key questions that we've 
asked in these rooms: How much hate crime is there? What are 
governments doing about it? What education approaches can deal 
with new forms of anti-Semitism? How do you commemorate the 
Holocaust? And how, in countries across this region, should 
governments and teachers be remembering the Holocaust in a way 
that deals with the fact that, as the special envoy said, anti-
Semitism didn't die with Hitler?
    Now ODIHR has responded to their findings with some 
cutting-edge tools, and they focus on key target groups that 
have been talked about in our own collective recommendations 
and in ministerial decisions. So now teachers can have off-the-
shelf teaching tools in 13 different languages that look at 
anti-Semitism in the context of the experience of students in 
different countries. There's another educators' guide that 
really walks teachers through: why teach about anti-Semitism, 
how to do it. That guide is being translated today into 
Turkish, and it exists in other languages. And there are guides 
for teachers and officials on preparing appropriate and 
meaningful Holocaust events.
    Now, governments also have a tool kit. There is a how-to 
guide on drafting hate crime laws and policies. There are 
trainings they can take advantage of for law enforcement 
officials and officials across the criminal justice system. Now 
we know that communities and NGOs fill these gaps that are left 
behind by the failed policies of governments, and they can 
receive training and support as well. And even in the far 
reaches of the region, there are downloadable tool kits for 
hate crime response and on anti-Semitism.
    And just like the U.S. was a major proponent of these 
programs and for progress on the anti-Semitism issue, we should 
be proud that American models and expertise have played a big 
role in their development. The Anti-Defamation League's been 
very gratified to be involved in helping develop the hate crime 
law guidelines and some of the trainings that are in the 
ODIHR's hate crime tool kit. And you have an appendix at the 
back of the testimony; it's a document we've looked over many 
times. But if you look at it and think about where we were in 
2002, the progress is really remarkable in terms of what are 
the resources.
    Now, the major challenge is, obviously, how to build more 
political will so governments will avail themselves of these 
tools. You know, back in 2002, we also called for the U.S. to 
do better in its own reporting, and we welcome all of your 
support and, Chairman Smith, your work to enact the Global 
Anti-Semitism Awareness Act.
    If you look at a chart that is on page seven of my 
testimony, I did a little snapshot of what's been happening 
since 2002 in the area of U.S. reporting. And if you look, the 
coverage of anti-
Semitism in the State Department Country Reports on Human 
Rights has just about doubled. So in 2002, there were 30 
countries that included a chapter on anti-Semitism in their 
report; today that number is 62. And there is a similar 
doubling if you look just at OSCE-participating states. And the 
content of the reports that the State Department issues also do 
address what's the relationship between anti-Semitism and the 
public discourse, and also our primary trend that we're 
concerned about: how anti-Israel hatred impacts Jewish security 
and Jewish rights.
    And I'm confident that U.S. reporting can continue to 
improve, especially since the special envoy talked today about 
how she's instituted expanded training in the Foreign Service 
Institute. And ADL's been proud to partner with her in 
delivering some of those trainings. And it's incredibly 
important--as you know from your work on trafficking and 
international religious freedom, it's very important to give 
American diplomats practical tools so they can recognize 
indicators and understand the nature of anti-Semitism, 
especially now that they're required to report on it. So your 
support for a strong special envoy can really help ensure that 
these--the specialized focus that we've fought for inside of 
our own government, and the dedicated effort within other 
governments to mobilize their foreign policy tools, can 
continue.
    You know, even here in the U.S., the Jewish community 
enjoys such broad acceptance, but hate, violence and harassment 
is also a disturbing part of American Jewish life as well. The 
ADL's audit of anti-Semitic incidents has shown, the last few 
years, a continuous level of incidents. This year there was a 
slight increase; we found 1,232 incidents. And the FBI hate 
crime data--I've also provided as an appendix to my written 
statement--shows consistently that about two-thirds of hate 
violence that targets an individual based on their religion 
targets Jews. So this is proportionally very, very disturbing.
    And our own ADL survey of attitudes in the United States 
showed that about 15 percent of Americans, so that's about 35 
million people, have anti-Semitic views. So we're very 
concerned at home about the bullying and harassment of our 
children. And you talked, Mr. Chairman, a little bit about how 
on American campuses anti-Israel activity has sporadically been 
spilling over into anti-Semitism, and it has made campus life 
uncomfortable for some Jewish students.
    So we welcome important new guidance from the Department of 
Education Office of Civil Rights. And that guidance made clear 
that anti-Semitic harassment can be prohibited by federal law. 
I've attached a list of resources and links and recommendations 
on fighting bullying and hate crime. With that, I hope the 
Commission can consider, as a follow-on to this hearing--I'm 
very pleased to hear you say you're interested in convening 
another event, perhaps at Rutgers or somewhere else, on the 
issue of campus harassment and would be delighted to work with 
you on crafting that.
    I submitted a full list of recommendations, things that 
participating states can do, echoing a lot of what my 
colleagues have said, and recommendations for the U.S. And I 
wanted to just point out that some of what can be done is--some 
of the recommendations are easier to tackle than others. And I 
wanted to just note, of all the OSCE-participating states--they 
have all designated a national point of contact on hate crime.
    And ironically, the United States is the only country that 
has as our national point of contact someone in our OSCE 
mission. I think we should work together and think about 
shifting that designation to one of our hate crime experts, so 
we're putting forward our best expertise. This was an 
initiative that was driven a lot by American leadership, and we 
should put our best foot forward in that department.
    And the other thing I would add as a recommendation that 
may be easier than some of the others is, we have talked about 
ODIHR tools on law enforcement training and assistance, and I 
think we should take an initiative to look at the other areas 
of American training initiatives in law and justice areas. And 
let's look at anti-Semitism as a potential component of 
programs that are already ongoing.
    And then another--there's a meeting coming up of the 
Mediterranean partners. You know, we've all talked about--
really, the incubator of some of the worst elements of anti-
Semitism is coming from the Arab media, the Arab and Muslim 
world today. And the OSCE Mediterranean partners meeting comes 
around every December, and we know that this is a forum that 
could be better used to address anti-Semitism among civil 
society groups where it's needed, among governments where it's 
needed. So that's another recommendation I think we could 
follow up on, if not for this year, but look at it as a goal 
for next year.
    Thank you very much, Mr. Chairman.
    Mr. Smith. Ms. Burdett, thank you very much for that 
testimony, for the recommendations and for offering to work 
with us--which I know you would anyway, [chuckles] even if you 
didn't say today--on the upcoming hearing, probably at Rutgers 
or at some college venue. I would just note that George--
Professor George Zilbergeld, professor of political science at 
Montclair State University, is here. And he has been very 
strongly promoting this issue of what is happening on our 
college campuses, and has met with me and my staff several 
times. And I want to thank him for those interventions.
    I know Mr. Engel wanted to make a statement, I believe.

HON. ELIOT ENGEL (D-16), A MEMBER OF CONGRESS FROM THE STATE OF 
                            NEW YORK

    Mr. Engel. Thank you, Mr. Chairman. I'll be very brief. I 
have a hearing in Energy and Commerce Committee, so thank you 
for kind of jumping me ahead. First of all, I want to thank the 
witnesses for the testimony. I know all of them personally--or 
know of their work, certainly, and the work you all do, each of 
you collectively, and your organization is truly very, very 
important.
    I have often said in the 21st century--we're now one-tenth 
through the 21st century--who would have believed even 20 or 24 
years ago when I came to the Congress that we would actually be 
sitting in 2011--soon to be 2012--and talk about the very 
existence of the State of Israel, about whether or not the 
State of Israel can survive and then thrive. That was something 
that we thought we had put to bed a long time ago, certainly 
with the Holocaust not being very long ago and people already 
denying it, and the State of Israel, born out of the ashes of 
the Holocaust.
    I think that--and, by the way, when I say that I don't mean 
it was only born of the Holocaust--the Jewish ties to the 
Middle East and the Holy Land has been for thousands and 
thousands of years. But I think it's important that we not 
sweep it under the rug and we talk about it, and my colleague, 
Mr. Smith, the gentleman from New Jersey, has been in the 
forefront. He and I have talked many, many times throughout the 
years about this, and I want to publicly, Chris, say thank you 
for the job that you do, and Mr. Frankson, I have the honor of 
co-chairing the Israel Allies Caucus.
    And, you know, people who try to say they're not anti-
Semitic; they're only anti-Zionist--we know what that is, and 
we know it's a phony and a fraud. If you deny the existence of 
the Jewish state, if you say the most vile things about Israel 
and about Jews, you're not anti-Zionist, you're also anti-
Semitic. It's very, very clear--from the hate cartoons to the 
editorials to the nonsense on campuses and everything that is 
happening, and frankly, it's shameful that barely a generation 
after the Holocaust that we kind of see these exhibits of 
extreme anti-Semitism anywhere in the world, but certainly on a 
continent of Europe, where six million Jews perished--it's just 
absolutely unbelievable. And I point to the United Nations as 
being very culpable, quite frankly. Some like to sugarcoat it, 
but I don't. Durban was an absolute disgrace, and each time--
Durban II, Durban III--compounds the absolute disgrace.
    So I want to thank all of you for doing the wonderful job 
that you do. It's important to keep talking about it, it's 
important to keep saying it. If people don't like it, it's too 
bad. It has to be said, and it has to be said by Jews and non-
Jews alike--all people of goodwill--and that's why it's so 
important. That's why I talk about my colleagues here, who 
certainly have been in the forefront, and I just want to thank 
you, and I thank you very much.
    When I saw this was on the agenda today, I wanted very much 
to make it because I think it's important that we highlight it 
and not sweep it under the table, and I think it's also 
important that we say thank you to these people who are on the 
front lines day in and day out. I've traveled with some of 
you--Mr. Levin--and certainly met with some of you, and I want 
to just thank you.
    Mr. Smith. Mr. Engel, thank you very much for your 
leadership and friendship and partnership on this very critical 
issue. Thank you so much.
    I'll save my questions for last. I'd like to go to Mr. 
Frank, Chairman Franks.

   HON. TRENT FRANKS (R-8), A CONGRESSMAN FROM THE STATE OF 
                            ARIZONA

    Mr. Franks. Well, thank you, Mr. Chairman, that's very 
kind.
    You know, I'm not a member of this Committee on a regular 
basis, but I admire so much the work of Chairman Smith and 
Congressman Wolf, and certainly Mr. Engel and I are good 
friends and have such great commonality on some of the issues 
that are before us here. And I just--from my heart--commend 
each one of you for being here.
    You remind me that there is still much to hope for with all 
of the challenges we face in the world, and I couldn't help but 
be especially struck by two particular thoughts that were 
brought up by your testimony, Dr. Samuels. Your point that it 
is critically important for people to respond to these anti-
Semitic, virulent remarks by people like Mahmoud Ahmadinejad is 
so, so very important because we win or lose this battle in the 
long run, if we let our hearts grow cold to the evil that is 
perpetrated through some of these remarks, and it's very, very 
important that we stand up and are willing to repudiate it in 
the strongest possible terms.
    And I think I mentioned a quote that kind of puts it in 
perspective for me, but: The vice is an evil with so 
frightening a mien that to be hated needs only to be seen. But 
seen too often with its familiar face, first we endure, and 
then we pity, and then we embrace.
    And there is a great danger in allowing the free peoples of 
the world--the people that love Israel, people that love the 
humanity--growing kind of cold and indifferent. When you have 
an Ahmadinejad saying things that are just beyond 
comprehension, saying, well, Israel should be wiped off the map 
or Jews are vermin, after a while we get used to what a maniac 
he is, and we forget that we need to respond and repudiate this 
each time. So I want you to know I'm grateful for that point. I 
think that it may be singularly the most important one because 
that keeps this issue alive in the family of man to where we're 
responding to it as a collective group.
    And, Ms. Burdett, I thought your point was also very 
compelling, and that is the need for governments to have the 
resolve and the courage to stand up in these circumstances, 
when these situations occur across the world.
    So, my question is simply this--and I feel bad about 
throwing it out because it's always the most unfair one. You 
are pulled in many directions as a group--and I will assure you 
those of us on this panel are as well--and if you could say 
what the most important public policy to-do item would be for 
this Congress to combat anti-Semitism and to combat the 
diminishment of people of any faith or group, but in this 
particular context the anti-Semitic forces in the world.
    Let me just remind you, just as an aside, Israel and the 
Jewish people have been attacked for thousands of years. Most 
of their persecutors are gone. There is much to hope for in the 
future, but if we could do one thing in this Congress--could I 
just make a round with the panel and ask you to tell me one 
thing--not to diminish any other thing--but just the one most 
important priority that you'd put before us.
    Dr. Samuels, I'll start with you, and we'll leave the lady 
to close. [Chuckles.]
    Dr. Samuels. Thank you.
    That's probably the most difficult question I've heard in 
my career. I'm not an American, so I can't tell what the U.S. 
Congress to do. I did recommend that the U.S.--this Commission, 
which plays such an important role--continue to afflict its 
counterparts in Europe.
    So sessions such as this would not be held in the Parisien 
Senat or Assemblee Nationale. It has been held, due to you, in 
the Palace of Westminster.
    I think that, just on the parliamentary level, we have 
taken what you have done to the Parlatino, Latin American 
Parliament, which has its headquarters in Panama. We have a 
resolution regarding anti-Semitism, which is being discussed 
today--as we speak--in Panama at the Parlatino. That is 
basically the result of your initiative through us. And I would 
like to suggest that, maybe using us as vectors, we could work 
in different parliaments where we are around the world, and 
bring to bear the thoughts of this Commission, and perhaps hold 
another parliamentary assembly of the OSCE region in order to 
replicate what happened in the past, and to see how we take it 
forward. Thank you.
    Mr. Levin. Congressman, let me also reiterate, it's not the 
easiest question, but the one constant reminder--not just in 
combatting anti-Semitism, but in promoting human rights in the 
United States over the last thirty-plus years--has been the 
United States Congress. Without the support of all of you and 
your colleagues and the people who served in the past, we 
wouldn't have human rights being a fundamental part of U.S. 
foreign policy. We wouldn't have the focus on anti-Semitism 
that we have today. So for a very difficult question, I think 
my answer is to continue on, to not give up.
    You know, Congressman Smith and I, when we would--and 
Congressman Wolf, when we would confront the Soviets, the 
Soviets were convinced that the United States, whether our 
elected officials or Americans in general, would get bored. We 
would forget. We would move on to something else. And what I 
would try to tell the Soviet officials is that our community, 
as a whole, Americans as a whole, we're like water on a rock. 
Change may not take place quickly, but change will occur. And 
by speaking out, by taking legislative initiatives, we will 
defeat this problem. I don't know how long it will take, but as 
long as there are people of conscience working together and 
challenging those who engage in hate of others, they don't 
stand a chance.
    Mr. Smith. Yes, sir.
    Mr. Fusfield. There are specific recommendations where the 
United States can lead the OSCE in very practical ways, some of 
which I mentioned in my remarks. For example, the work of the 
ODIHR's tolerance and nondiscrimination unit--they're providing 
educational materials in anti-Semitism in 14 different 
countries. They want to expand that number; they want to take 
this program and move it online. The U.S. needs to generate 
support and provide support, generate support among other 
member states for ODIHR to continue this work and to expand 
this work.
    Also, there needs to be more security for Jewish 
communities abroad. And this is something--sometimes it costs 
money. The OSCE has allocated money in certain cases for 
upgrading security. But in other ways, it could just require an 
exchange of best practices which the OSCE can facilitate. And 
again, this is something that the U.S. can lead the way on. 
These are specific recommendations, but the broader picture is 
that U.S. leadership remains indispensable. U.S. leadership has 
always been indispensable to the OSCE's efforts in combating 
anti-Semitism.
    We scored some early successes in this effort. The Berlin 
Declaration in 2004 was a landmark declaration and can't really 
be improved upon very much as a document. But, the challenge 
since then has been in making those words come to life, making 
governments follow through in their commitments. And the U.S. 
could continue to be instrumental in encouraging other member 
states to do that, and also not just following through on 
commitments, but maintaining the focus on anti-Semitism as a 
distinct phenomenon--not just grouping it together with other 
forms of hatred and losing the distinct focus on it. There are 
remedies for anti-
Semitism that can be applied to other forms of intolerance too, 
but anti-Semitism is a unique phenomenon, and we can't lose 
sight of that. And that's why I hope, when Secretary Clinton 
goes to Vilnius next week, she makes specific reference to 
anti-Semitism so we retain that sense of its distinctness.
    Finally, I would just say, speaking out whenever possible--
Americans are faced with a challenge that's almost unique, 
because our speech laws are more liberal than almost any other 
democratic country in the world has. And it's our first 
amendment. We love it. We cherish it. We wouldn't have it any 
other way. But it does pose certain challenges for us in 
reining in hatred.
    And the way that we've done it in this country, sometimes 
to great effect, is to publicly stigmatize hate speech and make 
it clear from those people in positions of leadership, 
certainly elected officials but other people in positions of 
influence, that this is unacceptable. It needs to be 
identified. It needs to be decried and deplored for what it is. 
And in many other countries in the OSCE region, leaders, public 
officials have not done as good a job in this as U.S. officials 
have so many times. And I think U.S. officials can persuade 
their colleagues and other governments to do the same.
    Mr. Franks. Thank you. I hope that little boy grows up and 
follows in his dad's footsteps.
    Mr. Fusfield. That's very kind of you, thank you.
    Ms. Burdett. I'll add just one recommendation. You know, 
the best calling card the United States has in dealing with 
these problems is our example. It's been this way all along in 
the OSCE with respect to anti-Semitism. And, when you look at 
the incidents that some of my colleagues have talked about--of 
a list of incidents that I and others have provided, you'll 
see, last week, a 13-year-old girl in Belgium was beaten and 
called a dirty Jew. We know in Paris, a lot of the examples of 
incidents are young, young kids beaten senseless and being 
told, you'll pay for what your brothers did in Palestine.
    And I think we should start with the most vulnerable 
victims, the children. And, we hear the word bullying. We see 
it on TV. We see shows about it. Bullying targets Jewish 
children today in our communities. And it's painful. And the 
stories are painful.
    And I want to just tell one story. There is a young man--
this isn't a Jewish young man, but I think it's a very powerful 
example of how we know hate violence works. And he was beaten 
up because he was a Mexican-American, beaten senseless. He had 
about 40 surgeries just to get back to normal.
    And he came and he sat at this table in the Judiciary 
Committee room, and told the Judiciary Committee that the 
system worked for him. The law worked in his home state of 
Texas. The police responded perfectly. The community poured out 
support for their family. Everything worked. He was a champ. 
And he came here triumphantly to talk about how the law worked 
for him. And about a year later, he went on a cruise with his 
family and he jumped off the second deck of the ship.
    And so I think about that boy, David Richardson [sp], and 
it reminds me, the only way to keep hate violence and anti-
Semitism from scarring people is really to prevent it. It's 
really the single best thing we can do. And we have the Tyler 
Clementi Act pending in the House that addresses bullying. And 
it will help those Jewish kids and all kids who were bullied, 
because the best tack against anti-Semitism, as we've seen in 
the hate crime work in the OSCE, is sometimes putting in a 
system that will help all minority kids.
    Mr. Franks. Well, thank you, Mr. Chairman. It's very kind 
of you to let me go. You know, sometimes, those of us that love 
Israel and the Jewish people want to find some expression in 
this congressional environment to come up with policy that 
would really help. And that's why I asked the hard question. 
But thank you all very much. Thank you, sir.
    Mr. Smith. Chairman Franks, thank you very much for your 
leadership.
    I'd like to now yield to Frank Wolf. Frank Wolf, as you 
know, is co-chair of the Lantos Human Rights Commission, but 
also the Commerce, Justice, Science and Related Agencies 
Committee, and before that, State and Foreign Aid--Foreign Ops 
Committee.
    Just a little quick story: In the mid-1980s, Mr. Wolf and I 
went to a human rights conference in Zeeland, Holland. The 
procurator-general of all of the Soviet Union was there, 
bombastically and very arrogantly saying how they had nothing 
to hide, and any place that could--we asked the question--any 
place we wanted to go, Mr. Wolf, Chairman Wolf and I would be 
permitted to do. We said, Perm Camp 35; we want to meet Natan 
Sharansky. And he said yes.
    Two years later and one delay after another, Sharansky was 
out of that camp. There were still many other political 
prisoners and Jewish refuseniks still there. We got into that 
camp. We met with Lieutenant-Colonel Assen [ph], the KGB camp 
director who was a brute of a man, and his fellow torturers, 
but we videotaped every one of the prisoners. And eventually, 
because of glasnost and perestroika, that camp closed and all 
those people were released. But it was a privilege to join 
Congressman Wolf at that meeting. When Sharansky saw the 
videotape, he broke down and said, they were all my friends. 
And they were still left behind, of course. And he went on, 
obviously, and continues to do great things.
    But I'd like to yield to Chairman Wolf.

HON. FRANK WOLF (R-10), A MEMBER OF CONGRESS FROM THE STATE OF 
                            VIRGINIA

    Mr. Wolf. Thank you, Chris. I want to thank you and thank 
the panel. I'll just make a comment. One, I want to thank 
particularly Chris for being a leader on these issues from the 
very beginning, during the beginning of the Reagan years, and 
probably has done more on human rights and religious freedom 
and anti-Semitism than, frankly, any other member of the 
Congress.
    I'm concerned that I see the trend going, probably in the 
wrong direction. And I may be an exception here. But we see the 
Arab Spring going south in Egypt. I was in Egypt in July, and I 
predicted what was taking place and what took place. We saw 
just the other day, you have the Muslim Brotherhood taking over 
now with a Salafist. The Sinai is wide open. Bad things are 
happening. There were anti-Semitic cartoons in the Egyptian 
press under Mubarak. I predict you're going to see things that 
you never thought you would see coming out of that.
    I think there's less interest here in Washington and in the 
Congress and, frankly, in this administration, than I have ever 
seen since I have been here since 1980. President Reagan said, 
the words in the Constitution were a covenant with the entire 
world, and Reagan advocated and pushed Secretary Shultz when he 
would go to Moscow, would meet with dissidents, or if they were 
imprisoned, would meet with their families. Our embassy was an 
island of freedom.
    That doesn't happen anymore. I see less interest up here, 
on the Hill, in both political parties. The religious freedom 
commission bill that Chris mentioned, we passed it here in the 
House months ago, months ago. I think it was a 400-to-something 
vote. A couple of senators have it blocked. They want to reduce 
the funding of it. And they will be successful in reducing the 
funding. And it's blocked. One or two senators have blocked it. 
And frankly, the faith community are saying very, very little 
about it.
    I also have a bill passed to create a special envoy to 
advocate, modeled after the special envoy for anti-Semitism, to 
model it after that, for religion minorities in the Middle 
East--the Coptic Christians. It passed the House 
overwhelmingly. Two senators have it blocked. I mean, the 
Coptic Christians in Egypt now are going to face--unbelievable. 
You're going to find that the numbers who want to come to the 
United States are soaring. And we have two senators who have it 
blocked.
    Thirdly, there are not the giants in this institution and 
this--in town that used to have--Chris is a giant. Henry Hyde 
was a giant. Tom Lantos was a giant. Scoop Jackson was a giant. 
Tell me, who was the Scoop Jackson in the United States Senate 
today? You don't have to say it for the record, but you just 
tell me what you're thinking of--name the two or three that 
really--this administration has been a failure. Cairo is a 
failure; they've done nothing with regard to what's taking 
place with regard to the Muslim Brotherhood over in Egypt.
    So my request to you is--and when you listen to the 
Republican debates, this issue never comes up. I don't blame 
the candidates; I blame the media. They don't think it's that 
important. It never comes up. Now, is it the economy? Is it--
that we're going through high--I don't know. We've gone through 
high unemployment and 10 percent unemployment in the Reagan 
administration, and there was still a driving interest with 
regard to Secretary Shultz and President Reagan.
    So I would urge you, and those who care deeply in all the 
faith communities--anti-Semitism is particularly bad. I've been 
to Auschwitz. I've seen with Dachau, we speak out and make this 
an issue. Congressmen and senators ought to be forced to make 
decisions on these issues. There should be votes on these 
issues. People should go to their town meetings and ask him 
about it.
    But we got the religious freedom commission bill that's 
tied up in the Senate for three or four months--with what's 
taking place in the world today, and we can't move it, then I 
think there's a problem right here in River City.
    I think memory is diminishing and anti-Semitism on the 
college campuses--I watched the rally a while back where Amedi 
[ph]--what's this guy?--Alan Moody [sp] stands up in front of 
the White House, and says, I am Hamas. Do you hear that, White 
House? And the crowd cheers. I am Hezbollah, he says, and the 
crowd cheers. I have the tape. I saw the tape. And nobody says 
anything.
    And so I think I would urge you to make this an issue in 
the political process. All the candidates ought to be asked, 
what is your position on anti-Semitism? What do you think's 
taking place with the Coptic Christians in the Middle East? 
What do you think about the Gaza being--emptied out? What do 
you think about these things, and what is your plan? What will 
you do?
    And also, to put pressure on this administration--and I 
appreciate Chris Smith having this hearing. I want to urge you 
to go out and make this an issue, a political issue the same 
way that it was during the '80s with--remember Scoop Jackson, 
Jackson-Vanik? I mean, where would've the issue--what would've 
happened without Jackson-Vanik? Now, this Congress will give 
MFN to anybody for anything for trade or for business. I mean, 
that--man does not live by bread alone. And so that's what I 
would urge you, and that's what I wanted to comment on. Just 
take this issue out and make this an issue in every political 
race, every House race, every Senate race. Everyone ought to be 
asked what their position is on anti-Semitism, on the 
persecution of people of faith, on human rights.
    Bashir, the head of Sudan, is an indicted war criminal. Hu 
Jintao invited him to a red carpet treatment, a red carpet 
welcome in Beijing. And nobody said a word about it.
    Thanks for what you're doing. I particularly want to thank 
Chris Smith for what he does. Thank you. I yield back.
    Mr. Smith. Chairman Wolf, thank you for your outstanding 
statement and leadership for 30 years. [Chuckles.] Really do 
appreciate it. Would anyone want to respond to anything 
Chairman Wolf has said?
    Mr. Levin. Mr. Wolf, I think many of us at this table agree 
with much of what you had to say. But I want to answer one 
question. When you say, where are the giants, we're looking at 
two of the giants. I know you weren't looking for an 
unsolicited compliment, but you and Congressman Smith and other 
members of the Commission, whether it's Senator Cardin and 
others, are leading the way.
    I also would like to say that I agree with you that it's 
incumbent upon all of us to try to do more to reinvigorate our 
government, be it in the executive or the legislative, to the 
concern of global human rights. And at least you have my 
commitment that my organization and our members will do 
everything we can to try to remind people of the importance of 
looking out for our fellow men and women around the world.
    Mr. Fusfield. Mr. Chairman, I would echo what was just 
said. And I would add that we all represent nonpartisan NGOs. 
And I think it's fair to say, we all agree that human rights is 
a bipartisan issue if ever there was one.
    And I'll speak now for my organization: We believe that 
human rights should remain in the forefront of U.S. foreign 
policy. We feel that regardless of which party is in power, 
either in the executive branch or in Congress, the emphasis 
should remain the same.
    And, we do feel that leadership is being demonstrated in 
Congress today, particularly in this venue. The Helsinki 
Commission, the role it's played in identifying the problem of 
anti-Semitism, has been indispensable, and we're grateful for 
it.
    We all need to continue doing whatever we can on all fronts 
to spotlight these issues and to generate forward momentum.
    Mr. Wolf. [Off mic] --Well, I'll just ask you a question, 
and you don't have to answer. Is there a [inaudible] in this 
administration? Was there a [inaudible] in the Bush 
administration? Now, if I were asked to answer that, I would 
say no to both. We should have a [inaudible] in every 
administration. I say this administration has no [inaudible]. I 
say, for the last four years, the Bush administration--[off 
mic]--they had no [inaudible]. And every administration--[off 
mic]--[inaudible], and that's what I'm trying to say is 
diminishing because of that concern.
    Mr. Smith. Yes, Dr. Samuels?
    Dr. Samuels. I'd just like to answer you, Congressman, as a 
European, which today is a questionable description, self-
description--we fear very greatly a weak America. A strong 
America is needed to ensure that Europe remains on the rails 
not only economically--politically. And I thank you very much 
for everything you've just said.
    Mr. Smith. Thank you, Chairman Wolf. I'll just conclude 
because you've been very patient. We'll have some questions 
I'll submit for the record. But very, very briefly: You know, 
Mr. Levin, you talked about privatizing, but you pointed out, 
in Russia, in your comments on specific countries, that more 
alarming is the fact that Russian human rights monitor groups 
have reported a steady rise over the last 10 years on the 
overall attacks by skinheads. You talked about the concern 
about violence but you also made the point that it's not state-
sponsored.
    But I think, as Dr. Samuels pointed out, indifference--
perhaps it's a distinction without a difference. When a 
government is indifferent--as far back as February of 1996, 
when I chaired a hearing called ``Worldwide Persecution of 
Jews,'' wearing my hat as human rights subcommittee chair, Paul 
Goble made a very important point. And he said, third and most 
important, anti-Semitism has been privatized, like much else in 
the region.
    That is to say, in contrast to Soviet times, when the 
government was in the position to decide how much anti-Semitism 
would be manifest and how much would be sponsored, now the 
governments are too weak to be in a position to do something 
about it. What has changed over those years is the ``too 
weak.'' The Russian government, and Putin et al, are all very 
strong. They could do much more. So would you be admonishing 
them to really take up this cause far more robustly than they 
have?
    Mr. Levin. Mr. Chairman, we try to do that on a regular 
basis. For a long time, the Russian Government diminished the 
role of the ultranationalist skinheads and neo-Nazis that have 
proliferated throughout Russia. And I think that the recent 
events over the last year and a half--at least some in the 
government have begun to change their mind, and have recognized 
that they have a serious problem on their hands.
    Now, what they're doing about it is a whole 'nother issue, 
and that's why we continue to press them, specifically, on the 
recommendations that we made. But at the very least, they have 
spoken out on certain specific incidents. And now we're saying 
that's a good first step. And in one or two cases, they 
actually, as I noted in my testimony--they did charge people 
with hate crimes, and those individuals were convicted and 
sentenced.
    But there's a lot more that has to be done. And as I also 
noted, when I say fortunately, I don't mean to diminish what's 
happening to other groups--but the attention of these groups 
have been focused on ethnic groups primarily from the Caucasus 
and Central Asia as those responsible for all the problems in 
Russia today.
    The attention has been diverted away from the Jewish 
minority, but we all know that it won't take much for a neo-
Nazi or skinhead to turn his attention back toward the Jewish 
community. And the Jewish community in Russia has also been in 
the forefront of trying to get its government to recognize 
that, as a community, they have specific concerns, but there 
are also larger issues that need to be addressed.
    So you have our commitment that we're going to continue to 
press them.
    Mr. Smith. Would anyone else like to respond to----
    Ms. Burdett. I would just say that in all 56 of the 
participating states, the president, prime minister, and 
leadership have an opportunity to make the most significant and 
immediate difference in this problem. And there may be 56 
different agendas and different suggestions for what they could 
do, but no leader is too weak to not be able to move their 
country a little bit further forward in what they're doing.
    Mr. Smith. You know, Dr. Samuels--and Trent Franks did 
respond to this, and it jumped off the page to me as well--when 
you pointed out that Ahmadinejad stated the Holocaust is a lie, 
he was answered with a wave of international condemnation. And 
then you worked down to the point where he has repeated, Jews 
are vermin, a tumor--they're met with fatigue.
    And then you talked about Western timidity--tests the 
limits of Western timidity. Anti-Semitism is indifference. You 
also point out, last week, how 5,000 demonstrators in Cairo, 
screaming ``death to the Jews,'' created no global outrage. 
Would that also apply to us in Congress, and to the White House 
and to other Western capitals?
    Because I've been shocked by the--I mean, there needs to be 
a daily condemnation of this further erosion that's happening 
in Egypt, a huge, strategically important country. When the 
peace treaty was signed, it was a game-changer. And now we're 
in a situation of equally ominous events occurring as we meet 
here in this hearing.
    Dr. Samuels. In the aftermath of Cast Lead, the Gaza 
engagement, I was invited to anchor a BBC World Service phone-
in program called ``The [sic] World Have Your Say.'' I asked if 
this was going to be a repeat of the anti-Israeli programs of 
the past, and I was ensured that no, this was going to look at 
the repercussions for Jewish communities in terms of anti-
Semitic incidents.
    What it turned out to be was a one-hour program, and after 
40 minutes of fielded-in phone calls that showed only an 
interest in how opinion of Israel had deteriorated, I said that 
I have been taken in, abused, used, and I'm leaving this 
program. Now, what was the point of raising this?
    Media has created, among public opinion, a prejudice, an 
anti-
Semitic prejudice that is new and goes beyond their own 
government's policy. In fact, it is endorsing government's 
policy. And here is a tremendous danger. Recently, the European 
Jewish press had a conference at which I presented a press 
charter for integrity on anti-Semitism, which was five points. 
I don't have it in front of me, but I'd be happy to send it.
    This charter, I think, can be reworked. It can be retooled 
according to the prevailing psycholinguistics and psycho-
environment of each jurisdiction. However, I think it is most 
important to focus upon the media. And I know about First 
Amendment and I know that there are trans-Atlantic differences 
on this, but when we held a conference on the Internet as a 
vector for hate in Berlin, Louis Freeh, who was then the head 
of the FBI, came over and said, help us to help you.
    Not everything in the United States is protected. We all 
know the Wendell Jones famous statement. Therefore, I think 
that it's very important that Congress helps on the question of 
media, helps to point out to media--gently, certainly not by 
censorship. The dangers of what is happening in Europe, I 
think, is a paradigm that should be greatly avoided in this 
country. And by the same means, this country has a role to 
play. Thank you.
    Mr. Smith. Anyone else like to respond? Next week, I'm 
going to be chairing a hearing on--with an empty chair in this 
room--on Liu Xiaobo, the Nobel Peace Prize winner for last 
year. I'm one of those who nominated him, led a congressional 
effort. He's a great human rights activist in the People's 
Republic of China.
    And I raise that because it would appear that dictatorships 
and despots all over the world--and that includes in many of 
these Muslim countries, where, unfortunately, the radical side 
has gained the upper hand to the exclusion of the moderates--we 
don't raise the issue. I mean, this is just me now answering my 
own question, in a way.
    We don't raise human rights issues consistently, in a 
transparent fashion, so that the offending parties know, almost 
in an absolute predictable fashion, the United States of 
America will be on your case every time. No diminution of--or 
no gaps when it comes to this. When Hu Jintao came to the 
United States, he got a red-
carpet treatment, and nary a word was said about human rights, 
including in the press conference with Hu Jintao and President 
Obama--a lost opportunity beyond words.
    Hannah Rosenthal is doing a great job. The individual-
designated, very committed individuals who are not the 
president, not the top echelon--in the sense that we're not 
either; I haven't made this the priority that I believe it 
should be. And I hope we can get some game-changing going on 
here, or else we are in for a much worsened situation.
    If you could all respond very briefly to--Dr. Samuels, you 
made a very, very telling point, and it goes to that very point 
about consistency. You know, we should be saying the same thing 
in every venue, with intensity and with an understanding of the 
facts on the ground as it relates to anti-Semitism and every 
other human rights issue, but we don't.
    And you point out that at the meeting of states parties 
you're the same people we meet at Geneva in the U.N. Human 
Rights Commission; now the council. Yet here in the OSCE, the 
language is different. Why the two different messages, and what 
can we do to change that? We should make sure that we're not 
doing that as well.
    You know, when we're at the OSCE, everyone is really strong 
about affirming the three Ds that Natan Sharansky so eloquently 
talked about when he talked about, you know, disagree with 
Israel on a policy, but don't matriculate into anti-Semitism. 
Could you respond to that? I thought that was a very profound 
statement, Dr. Samuels, about the same diplomats, same country, 
same heads of state, different message.
    Dr. Samuels. Mr. Chairman, very, very briefly: I fear that 
OSCE may be going in the same direction as other international 
institutions. We are seeing this today in UNESCO. We are seeing 
it in other U.N. agencies, and unfortunately, unless you--this 
Commission--takes a stand, that may happen, even due to the 
Mediterranean partners and through them, in the OSCE. And I 
think we should be on our guard. Thank you.
    Mr. Smith. Yes. Stacy?
    Ms. Burdett. I think one of the main differences--again, 
the OSCE had a tradition of being flexible and taking on new 
human rights challenges. But I think when we first started this 
process, we were certainly told, sometimes on this side of the 
pond, that you cannot explicitly speak about anti-Semitism in 
the OSCE. And we did--we pressed for it--and the sky didn't 
fall. Governments didn't walk away from the institution.
    And I think there are a lot of countries who said it 
couldn't be done, and they themselves are talking about it, and 
talking about it in pretty forthright ways. And so I think it's 
a model. And we've had conversations, looking at other IGOs, 
where they may be trying to hold a hearing and then it gets 
cancelled, or it's not popular for some reason.
    I think it's a slow building. And we do have to really 
cling to and sustain that focus in the OSCE. If we look away 
for a minute, it can erode. But I think it's a model of just 
showing, yeah, we can talk about it. Now, you know, I mentioned 
one of these teaching tools is being translated into Turkish. 
That might have been something, in 2002, someone would have 
said would be a pipe dream.
    Mr. Fusfield. You know, one of the features of the OSCE 
known to all of us is that it's a consensus-driven 
organization, and this is in some ways a virtue, and in some 
ways the bane of the organization, because it can be so 
difficult to generate momentum and to mark accomplishments. But 
this is always the context in which we've been dealing in the 
OSCE.
    And again, I made this point several times, but it 
reinforces the importance of U.S. leadership within this 
environment. There has to be an engine. There has to be 
something driving forward progress. We have, as I said in my 
remarks earlier--we have the Berlin Declaration from 2004, and 
it's a document that's hard to improve on. The Berlin 
Declaration was actually a statement of the chair-in-office.
    It has never been incorporated into a ministerial 
declaration, which would be the highest--other than a summit 
statement, that would be the highest statement coming out of 
the OSCE. But were we to go that route, we would face a 
situation where some governments would want to dumb down what 
we already have, chip away at it. And that's the last thing we 
would want to see happen.
    So we have to be protective of what we've already 
achieved--at the same time, fight very hard to go beyond that, 
not just accept this kind of stasis and status quo, and move 
the ball forward. And, you know, we've always encountered 
resistance up till now, and we'll continue to. But we just have 
to keep pushing.
    Mr. Smith. Thank you.
    Mr. Levin. Mr. Chairman, I briefly want to remind you of 
three instances over the history of the Helsinki Commission, 
and why--the importance of the Helsinki Commission, your 
message to your colleagues, has to be expanded, but also to the 
executive branch. Because there has always been tension between 
Congress and the executive branch, and it didn't matter if it 
was a Republican or a Democratic administration.
    In 1977, Arthur Goldberg was the leader of the U.S. 
delegation of the first review conference, when it was the 
CSCE. And he had to fight, and if it wasn't for Dante Fascell 
and Robert Dole and Spencer Oliver insisting that names be 
named, the American delegation wasn't going to lead that 
effort. But through Goldberg and Fascell and others, names were 
named. In 1980, Max Kampelman was the leader of the U.S. 
delegation, and the same thing--going through from 1980 to 
1981, there was a reluctance to name names.
    But it happened, and it happened because of what started at 
this Commission and spread to members of Congress. In 1991, the 
word anti-Semitism never appeared in any OSCE or CSCE document. 
So it took 16 years. And why did the word anti-Semitism finally 
appear in the document? Well, I'd like to think, partly because 
my chairman at the time, Shoshana Cardin, was a public member 
to the U.S. delegation.
    But it was the U.S. delegation, and there was turmoil 
within the U.S. delegation even to push for that. And look how 
far we've come from 1991 to today. It doesn't mean that the 
challenges aren't still there. But what is required is the 
commitment, the ongoing commitment, of the United States 
Congress to ensure that when our government is represented at 
international conferences, that the right message is put 
forward.
    And that can only happen when there is a bipartisan message 
coming from Congress. And I think my colleague Eric mentioned 
it already, but it needs to be reinforced: Human rights are a 
bipartisan effort. And the success that we've enjoyed, as well 
as trying to meet ongoing challenges, will only continue if the 
bipartisanship on this issue continues.
    Mr. Smith. Yes, Dr. Samuels.
    Dr. Samuels. Question to you, Mr. Chairman. I don't know if 
anyone in Congress has recognized the fact that in the new 
government of Greece, which emerged out of what some thought 
was a Greek spring--as a hope for the economy of Greece--the 
minister for development and the minister for transport are 
representatives of not a neo-fascist, but a neo-Nazi party 
called LAOS, which has, through its leader, Plevris, has made 
pronouncements that are horrific--not only in denying the 
Holocaust, but speaking of the Jews in medieval ways.
    I wouldn't be surprised if no one in this Congress had 
noticed that. But certainly, in Europe, in the European 
Parliament, nobody is prepared to pronounce on that. And that 
is even more worrying.
    Mr. Smith. Thank you for that admonishment. We need to 
speak out. One final question--I have many, but we'll submit 
them for the record--Dr. Samuels, you mentioned Berlin II. 
Eric, you talked about implementation, and I think you rightly 
suggested that we be careful about what is reopened, because 
there will be an attempt to water down and weaken. But the 
implementation process, idea of a Berlin II, I think, as a 
minimal effort--is that something that all of you would agree 
with?
    Should we as a Commission make that recommendation to the 
administration and to other delegations--use our parliamentary 
assembly as a conduit to recommend that there be a full-scale 
effort to--because it seems to me that if there's not something 
we're shooting for, we lose our focus.
    But when there's a conference and there's accountability--
at least, hopefully, some--it does add a measure of foreign 
ministers saying, what are we doing on anti-Semitism? And then 
that echoing throughout the chain of command to really be doing 
something. And that happens in our own State Department.
    Next week, I'm reintroducing the Global Online Freedom Act, 
a much-changed and much-improved bill. But in this room, in 
2006, when I had a hearing with Microsoft, Google, Yahoo, and 
Cisco, and had a draft that we circulated and shared with the 
State Department that included an office to combat global 
online freedom issues, they came and announced--not the--an 
equivalent of an office, which took the wind out of the sails 
of the bill right away. But it was fine.
    In other words, having to give an account led to some real 
movement where there had been none before. So I think a Berlin 
II, or a Vienna II, or a Cordoba--but certainly, Berlin would 
be--that was, I thought, the watershed meeting. Would all of 
you agree with that? And could you make, in addition to your 
many excellent recommendations proffered here, give us 
something that would show real solidarity for that initiative? 
Eric?
    Mr. Fusfield. Well, I'll start by expressing my immediate 
support for the idea. I think it's an excellent idea. I would 
love for the Commission to take this issue up. We had, at one 
point, in the OSCE, a kind of unwritten understanding that 
there would be high-level conferences at regular intervals. And 
at some point, the intervals became less regular, and the 
conferences became less high-level.
    But this is the perfect opportunity. I identified--the 
three conferences that took place in '03, '04, '05, and there 
could be a second installment of each of the three--but Berlin 
being the most important of the three. And if ever there were 
an occasion for a review conference, an opportunity to really 
hold member states accountable for their commitments--and we 
have the blueprint--it's the Berlin Declaration.
    But as with all of these OSCE gatherings, it won't happen 
unless there is a driving force behind the idea, a host who's 
willing to come forth and organize the thing. And in the case 
of a Berlin II conference, it might be the German government, 
but Berlin does not necessarily have to be the venue for Berlin 
II, but that remains to be decided. But it definitely needs 
support, and the idea should be circulated as broadly as 
possible. So thank you.
    Mr. Smith. Stacy?
    Ms. Burdett. I think it would be important for us to work 
together in moving forward a proposal, like we did before 
Vienna, because a high-level conference can signal momentum, as 
it has in Berlin. And if we do the legwork properly, it could. 
And if there's not enough buy-in at the ministers' level, or by 
a country--a group of countries--it can also signal flagging 
support. So I think it's important to do some planning and 
legwork in thinking about it together. I'd be glad to do that 
with you.
    Mr. Smith. Thank you.
    Mr. Levin. The issue hasn't gone away. And we heard that 
only three countries submitted any documentation in the last 
go-around. Now is the time to reconvene. And I don't think the 
place is less important than the purpose. And if there's a way 
to send that message beginning next week, then it should be 
done.
    Mr. Smith. Thank you.
    Dr. Samuels. Berlin in Dublin may not reflect Irish 
neutrality in World War II, but I think it would be a wonderful 
place to hold it. And I think it should be held as soon as 
possible, and not wait for the 10th anniversary of Berlin.
    Mr. Smith. Thank you. Anything else any of our 
distinguished witnesses would like to add? If not, thank you 
for your leadership, your moral courage, and for your patience 
as we went through all those votes on the floor today. The 
hearing's adjourned.
    [Whereupon, at 12 noon, the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


            Prepared Statement of Hon. Christopher H. Smith

    Welcome and thanks to our witnesses, and to everyone, for joining 
us this morning.
    Almost a decade ago, in May 2002, I chaired a Helsinki Commission 
hearing focused on the horrifying spike in anti-Semitism making itself 
throughout much of the OSCE region. Many of our witnesses today 
testified at that hearing, which put the issue of combating anti-
Semitism on the top of the OSCE's agenda, resulting in OSCE commitments 
on fighting anti-Semitism--and a series of high-level annual 
conferences on combating anti-Semitism--and even led to the creation of 
a global network of parliamentarians united against anti-Semitism, the 
Interparliamentary Coalition Combating Anti-Semitism, of which I am on 
the steering committee.
    A lot of good has come out of this--it's worth recalling some of 
the things we've done. Since that 2002 hearing, the OSCE Parliamentary 
Assembly has annually passed declarations addressing anti-Semitism and 
calling for concrete measures by all participating States and the OSCE. 
At the seminal High-Level Conference in Berlin in 2004, leaders from 
throughout the OSCE region met to focus specifically on combating anti-
Semitism, leading the participating States to commit, at the Sofia 
Ministerial later that year, to collect and report hate crimes data.
    In that same year a Tolerance Unit with a focus on anti-Semitism 
was established within the OSCE's Office of Democratic Institutions and 
Human Rights or ODIHR and the OSCE appointed a Personal Representative 
on Combating Anti-Semitism. I am very pleased that Rabbi Andrew Baker, 
a critical force in the development of the Berlin conference and 
creation of this position, now fills this position and is able to join 
us today. Rabbi Baker, I was also very happy to have participated, at 
your invitation, in the OSCE meeting on anti-Semitism in public 
discourse, which you organized last March.
    The OSCE is now equipped with a toolbox to combat anti-Semitism, 
ranging from more than a dozen publications focused on addressing anti-
Semitic hate crimes, Holocaust remembrance, and now has a new Training 
Against Hate Crimes for Law Enforcement program to assist participating 
States in their efforts. The Anti-Defamation League and other NGOs that 
fight to ensure that the human rights and dignity of Jews will always 
and everywhere be fully respected--they have been integral to this 
work. While the OSCE has the potential to contribute mightily to this 
fight, it is only truly effective when it works with these vital human 
rights defenders.
    Efforts in the U.S. Congress and other parliaments have 
complemented this work over the years. The Inter-parliamentary 
Coalition for Combating Anti-Semitism, which held its most recent major 
international conference in Ottawa last fall, has been a crucial forum 
for parliamentarians to work across national boundaries to address the 
common problem of anti-Semitism.
    In our own Congress, other members and I have worked to fight anti-
Semitism through this Commission as well as the Congressional Anti-
Semitism Taskforce, which I co-chair. It was a 2004 amendment of mine 
that created the State Department's Office to Monitor and Combat Anti-
Semitism and the Special Envoy on Anti-Semitism--of course we are very 
pleased to have the current Special Envoy, Hannah Rosenthal, with us 
here today. Ms. Rosenthal is doing an excellent job--I got to know her 
last year in Ottawa--and of course her presence is a reminder of our 
government's commitment to the fight against anti-Semitism.
    Yet our work is far from done. Despite the efforts of many good 
people, mostly in courageous NGOs but also in our government and a few 
other governments--despite the conferences, commitments, laws, 
training, monitoring--the measure of our success is what happens on the 
ground. By most accounts, the despicable evil of anti-Semitism has 
decreased in most parts of the OSCE region in recent years--but it 
still remains at higher levels than in 2000. This is simply 
unacceptable, and it's why we're here today.
    I'd like to close with a word on the Combating Anti-Semitism Act of 
2010, legislation I introduced last fall, and which was taken as a 
model by the Ottawa conference of the ICCA. The purpose of that bill 
was to strengthen the State Department's--and Ms. Rosenthal's--efforts 
to combat global anti-Semitism. Today it is with the goal of 
introducing a new version of this bill, that I seek everyone's advice 
on two questions: what is the nature of the anti-Semitic danger today; 
and how do you think our government can more effectively lead the fight 
against this scourge?

             Prepared Statement of Hon. Benjamin L. Cardin

    Mr. Chairman, I commend you for convening this hearing on an issue 
of long-standing importance to me personally and to this Commission.
    Just over 20 years ago, I had the opportunity to attend the 1989 
Copenhagen Conference on the Human Dimension as part of a Helsinki 
Commission Congressional delegation.
    Until that meeting, every effort to refer explicitly to the problem 
of anti-Semitism in an international document had been blocked by the 
Soviet Union. In Copenhagen, with the U.S. Delegation under the able 
leadership of Ambassador Max Kampelman, that finally changed. I feel 
privileged to have witnessed that historic meeting that produced an 
international agreement that broke new ground in so many areas and 
included an explicit condemnation of anti-Semitism.
    But as Ambassador Kampelman observed at a subsequent Helsinki 
Commission hearing, ``having accomplished the words in Copenhagen [we 
now have to see] how those words are being implemented.''
    That is exactly what today's hearing should do.
    With this in mind, I want to flag an issue that has been of 
particular concern to me and one that I hope our witnesses may be able 
to address: the continuing strength of extremist parties and movements. 
In a number of European parliamentary systems, these extremist parties 
(which often combine anti-Semitism with other forms of bigotry) can 
find themselves, by default, kingmakers.
    To be clear, the threat from these groups is not just because of 
the rhetoric they espouse, but because extremist views have a tendency 
to bleed over into the mainstream. In Hungary, for example, more than 
16 percent of the voters in the last elections cast their votes for a 
noxious extremist party, Jobbik--either as an intentional sign of 
support for its anti-Semitic platform or without regard for it. 
Following the elections, Peter Feldmajer, president of the Hungarian 
Jewish community, warned ``Today is a very dark time for modern Hungary 
. . . It is a very dangerous direction not just for Hungarian Jews, but 
for Hungarian democracy.''
    In the context of Jobbik's electoral success, I take particular 
note of the facts that

        1) President Pal Schmitt quoted from convicted war criminal 
        Albert Wass in his August 2010 inaugural address.
        2) The Budapest City Council cut by one third the funds it 
        provided for the annual Holocaust memorial event ``March for 
        Life'' after Jobbik objected to the event.
        3) The new constitution adopted in April disavows Hungarian 
        responsibility for war-time atrocities committed after March 
        19, 1944 (the date of the German occupation), without regard 
        for Hungarian complicity in the deportation of half a million 
        Hungarian Jews, and
        4) Some Hungarian officials have asserted that the 1920 Treaty 
        of Trianon was worse than the Holocaust, thereby trivializing 
        the genocide, war crimes, and crimes against humanity of World 
        War II.

    The ascension of the Dutch Freedom Party (PVV) to power purportedly 
following an agreement to pass anti-Muslim laws that ultimately led to 
Dutch efforts to ban the ritual slaughter of animals, impacting kosher 
practices, is yet another example of how extremist parties have hurt 
not only Jewish communities but also worked to undermine basic OSCE 
human rights and democratic principles. There are also many other 
examples of this phenomenon in the region.
    I commend the OSCE participating States for using the OSCE as a 
tool in the effort to combat anti-Semitism. There is much that the OSCE 
has to contribute in this regard. But the offices and institutions of 
the OSCE need to push on an open door. It is one thing to provide 
training for a country that genuinely seeks expertise and reform, but 
where a country lacks the political will to address these issues at the 
national level, then we have a different sort of challenge in front of 
us.
    Finally, I feel I would be remiss here if I did not make a few 
observations in connection with the High Level Conference on Tolerance 
the OSCE convened last year in Astana, under the Kazakhstani 
Chairmanship. We often speak of the critical role of civil society and 
I think the partnership with NGOs in this particular field has been 
exemplary.
    Thank you.

                 Prepared Statement of Hannah Rosenthal

    Chairman Smith, Co-chairman Cardin, Commissioners--thank you for 
the invitation to testify before you today. Since its founding in 1976, 
the U.S. Helsinki Commission has dedicated itself to addressing human 
rights issues, including anti-Semitism. And for the past three decades, 
Chairman Smith has provided unparalleled leadership in his efforts to 
combat anti-Semitism and promote human rights. As the Special Envoy to 
Monitor and Combat anti-Semitism, I am honored to present my findings 
on anti-Semitism in Europe.
    The Obama Administration is unwavering in its commitment to combat 
hate and promote tolerance in our world. The President began his 
Administration speaking out against intolerance as a global ill. In his 
historic speech in Cairo, he signaled a new path that embraces a vision 
of a world based on mutual interests and mutual respect; a world that 
honors the dignity of all human beings. He then went to Buchenwald 
concentration camp to remind the world of the horrors of the Holocaust 
and the ultimate lesson that the Holocaust represents the possible.
    President Obama and Secretary Clinton have honored me with this 
appointment, and have elevated my office and fully integrated it into 
the State Department.
    We are attempting--through traditional diplomacy, public diplomacy 
and grassroots programs all over the world--to confront and combat 
hatred in all its ugly forms, whether it is directed against people on 
account of their religion, ethnicity, race, sexual orientation or 
differences of political opinion or due to their country of origin. 
Anti-Semitism is one such form of hatred rooted in historical forces 
that go far beyond any current policy debate. If we want to change this 
trend, we need to stand together in our efforts to promote tolerance, 
acceptance and compassion.
    As a child of a Holocaust survivor, anti-Semitism is something very 
personal to me. My father was arrested--on Kristallnacht, the 
unofficial pogrom that many think started the Holocaust--and sent with 
many of his congregants to prison and then to Buchenwald. He was the 
lucky one--every other person in his family perished at Auschwitz. I 
have dedicated my life to eradicating anti-Semitism and intolerance 
with a sense of urgency and passion that only my father could give me.
    Since the murder of six million Jews in Europe, we have made some 
great strides as the countries of Europe have come together to denounce 
new and old forms of anti-Semitism and forcefully state in unison, 
``Never Again.'' But we have also seen many setbacks within these very 
same countries that issued these statements and bore witness to the 
Holocaust seventy years ago. Over the past two years, my staff and I 
have diligently reported on anti-Semitic incidents throughout Europe, 
following and tracking developments in new and old cases. We have 
classified these incidents into six trends, which provide a 
comprehensive framework from which we can analyze anti-Semitism in 
Europe.
    First of all, anti-Semitism is not History, it is News. I run into 
people who think anti-Semitism ended when Hitler killed himself. More 
than six decades after the end of the Second World War, anti-Semitism 
is still alive and well, and evolving into new, contemporary forms of 
religious hatred, racism, and political, social and cultural bigotry. 
According to reports done by the governments of Norway, Germany, Italy, 
and the United Kingdom there is a disturbing increase in anti-Semitism.
    This stems from the fact that traditional forms of anti-Semitism 
are passed from one generation to the next, and sometimes updated to 
reflect current events. We are all familiar with hostile acts such as 
the defacing of property and the desecration of cemeteries with anti-
Semitic graffiti. Since June, we have seen desecrations to Holocaust 
memorials, synagogues, and Jewish cemeteries in Croatia, Czech 
Republic, Greece, Lithuania, and Poland. The Holocaust memorial in 
Thessaloniki, Greece, was vandalized with a swastika and a statement 
denying the Holocaust on the day the City was to honor the 30 Holocaust 
survivors still living Thessaloniki. Swastikas and slogans such as 
``Hitler was right'' were spray painted on the Holocaust memorial for 
the Ponary massacres in Lithuania; ``they were flammable,'' defaced the 
monument to the victims of the Jedwabne Pogrom in Poland during World 
War II. Although both governments immediately condemned the attack, the 
harm was already done. There are still some accusations of blood libel, 
which are morphing from the centuries-old accusations by the Catholic 
Church that Jews killed Christian children to use their blood for 
rituals, to accusations that Jews kidnap children to steal their 
organs.
    Conspiracy theories continue to have traction with some groups, 
such as supposed Jewish control of the U.S. media and the world banking 
system, or that Jews were involved in executing the September 11 
attacks. In July 2010, Vladimir Zhirinovsky's Liberal Democratic Party 
of Russia held a roundtable in the Duma ``On the Question of 
Recognizing the Genocide of the Russian People'' which produced a 
declaration blaming the ``international Zionist financial mafia for 
genocide against the Russian people.'' The old Czarist forgery, The 
Protocols of the Elders of Zion, can be found in parts of the OSCE 
region. In October 2011, the Simon Wiesenthal Center in Europe 
identified approximately 20 anti-Semitic texts on display at the 
prestigious 2011 Frankfurt Book Fair. The ``old fashioned'' anti-
Semitism is alive and well.
    Physical violence is also a problem. Just last week in Belgium a 
13-year old girl was beaten by a group of girls shouting: ``Shut up, 
you dirty Jew, and return to your country.'' Instances like this are 
not isolated to Belgium. We praise the Belgium government for 
addressing this specific instance and, more so, for being proactive. As 
we speak, there is a conference going on in Brussels addressing ways to 
fight anti-Semitism.
    A second trend is Holocaust denial. It is being espoused by 
religious and political leaders, and is a standard on hateful websites 
and other media outlets. In August 2010, British Holocaust denier David 
Irving went on Iranian TV and declared that he thinks that Jews ``have 
overplayed their hand. They've over-used the Holocaust and this in 
turn, has tarnished the Zionist cause.'' Catholic Bishop Richard 
Williamson is another well known Holocaust denier and anti-Semite. Last 
year he was convicted of Holocaust denial in Germany, having claimed 
that Jews were not murdered in gas chambers and that only 300,000 
European Jews were killed in all. Just recently, this Holocaust-denying 
bishop reportedly blamed the Jews for deicide. And Holocaust denial 
still plays a role in our diplomatic engagements with countries that 
are trying to come to terms with their moral responsibility to 
prosecute Nazi war criminals and denounce the past crimes of their 
citizens. As the generation of Holocaust survivors and death camp 
liberators reaches their eighties and nineties, the window is closing 
on those able to provide eyewitness accounts and thus we have a 
heightened sense of urgency to promote Holocaust education, create 
museums and memorials, and carry the memory and lessons of the 
Holocaust forward. That is why I sponsored a program at the State 
Department honoring Father Patrick Desbois, who has made it his life's 
work to find, identify and honor almost 1000 previously unknown mass 
graves of Jews and Roma murdered in Ukraine, Belarus and Poland.
    A third, disturbing trend is Holocaust glorification, which can be 
seen in parades honoring soldiers who fought in the Waffen SS, which 
glorify Nazism under the guise of fighting the Soviets and obscures 
their roles in the Holocaust. Following a March 2011 commemoration in 
Latvia, a notorious neo-Nazi made blatantly anti-Semitic statements, 
including incitements to violence against Jews, on a television talk 
show. In Austria, Carinthian Freedom Party Councilor Gerry Leitmann 
resigned in May after his ``Blood and Honour'' tattoo, the motto of the 
Hitler Youth, was seen in public. And in the Netherlands in March, 
soccer fans in The Hague chanted, ``Hamas, Hamas, all Jews be gassed,'' 
during a soccer match. No less, in August, London Regional Secretary 
Chris Hurst was expelled from the far-right British National Party for 
shouting ``sieg heil'' and giving the right-arm salute at a far-right 
rally in Hungary. Satellite TV is also a concern, as it is an 
accessible means for the propagation of anti-Semitic views. Some Middle 
Eastern satellite channels integrate anti-Semitic rhetoric into 
programming that reaches into Europe. Such broadcasts can have a 
negative impact on European citizens and residents who are already 
predisposed to anti-Semitic beliefs. Truly bone-chilling.
    A fourth concern is Holocaust relativism--where some governments, 
museums, academic research and the like are conflating the Holocaust 
with other terrible events that entailed great human suffering, like 
the Dirty War or the Soviet regime.
    No one, least of all myself, wants to weigh atrocities against each 
other, but to group these horrific chapters of history together is not 
only historically inaccurate, but also misses opportunities to learn 
important lessons from each of these historic events, even as we 
reflect on universal truths about the need to defend human rights and 
combat hatred in all of its forms.
    Other examples of trivializing the Holocaust and the Nazis, are 
examples of overuse and misuse of comparisons, for example spiteful 
politicians have compared their opponents to Hitler: In August, London 
Mayoral candidate Ken Livingstone said that next year's mayoral race, 
``[is] a simple choice between good and evil--I don't think it's been 
so clear since the great struggle between Churchill and Hitler.'' And 
in September at a meeting of the EU's finance ministers, Austrian 
Finance Minister Maria Fekter compared criticism of the banking 
industry to the Nazis' persecution of Jews, a remark she later 
apologized for. History must be precise--it must instruct, it must 
warn, and it must inspire us to learn the particular and universal 
values as we prepare to mend this fractured world.
    The fifth trend is the blurring of the lines between opposition to 
the policies of the State of Israel and anti-Semitism. What I hear from 
our diplomatic missions, and from non-governmental organizations alike, 
is that this happens easily and often. I want to be clear--legitimate 
criticism of policies of the State of Israel is not anti-Semitism. We 
do record huge increases in anti-Semitic acts whenever there are 
hostilities in the Middle East. This form of anti-Semitism is more 
difficult for many to identify. But if all Jews are held responsible 
for the decisions of the sovereign State of Israel, this is not 
objecting to a policy--this is hatred of the collective Jew or anti-
Semitism. It is anti-Semitism when a right-wing group distributes 
posters depicting a doll with peyote, a yarmulke, wrapped in an Israeli 
flag, and with an arrow through its head-as we saw in Switzerland in 
June of this year. It is anti-Semitism when posters say, ``Committed 
every war crime in the book yet the world remains silent, death to 
Israel,'' and ``Israel, your days are numbered,'' and ``For world peace 
Israel must be destroyed,''--as we saw during London's Al Quds rally in 
August of this year. When individual Jews are effectively banned or 
their conferences boycotted, or are held responsible for Israeli 
policy--this is not objecting to a policy--this is aimed at the 
collective Jew and is anti-Semitism.
    Natan Sharansky identified three cases that he believes cross the 
line: It is anti-Semitic when Israel is demonized, held to different 
standards or delegitimized.
    In June, the German Left Party issued a resolution which 
specifically excludes the 3-Ds from the definition of anti-Semitism. 
While condemning traditional forms and manifestations, this resolution 
ignores the E.U.'s working definition of anti-Semitism, which includes 
hatred of Israel. Similarly, in the United Kingdom, the University 
College Union recently passed a resolution claiming that the E.U.'s 
definition of anti-Semitism is used to prevent criticism of Israel. But 
demonization, delegitimization, and holding Israel to different 
standards is not mere criticism, it is, in my view, clearly anti-
Semitism.
    The sixth trend is the growing nationalistic movements which target 
``the other''--be they immigrants, or religious and ethnic minorities--
in the name of protecting the identity and ``purity'' of nations.
    Extremist far-right parties have popular support throughout Europe. 
Far right groups have now entered parliaments in Austria, Bulgaria, 
France, Hungary, Italy, the Netherlands, and Switzerland. These 
extremist parties run and gain popular support through anti-immigration 
and racist platforms. In Germany, experts are concerned about the 
influence of these far-right ideologies on youth. In Hungary, the 
country's third largest party, Jobbik, mirrors the ideology of the 
Arrow Cross Party, which came to power at the end of World War II and 
collaborated with the Nazi regime in the Holocaust. And in Sweden, the 
extremist neo-Nazi ``Swedes Party,'' organized a camp this summer 
called ``Nordic Vision'' to attempt to spread its racist views. 
Although the neo-Nazi ``Swedes Party'' is not a member of parliament, 
their existence and assent is disturbing.
    When this fear or hatred of the ``other'' occurs or when people try 
to find a scapegoat for the instability around them, it is never good 
for the Jews, or for that matter, other traditionally discriminated 
against minorities. The history of Europe, with pogroms, Nazism, and 
ethnic cleansing, provides sufficient evidence. And when public figures 
talk about protecting a country's purity, we've seen that movie before.
    We appreciate, and indeed praise, the good work of the OSCE in 
focusing on issues of tolerance generally, and anti-Semitism 
specifically. The OSCE has repeatedly provided an excellent forum for 
discussing issues of religious tolerance including in June 2010 in 
Kazakhstan, in February 2011 in Vienna where Farrah Pandith and I made 
a presentation, and in March 2011 where the OSCE specifically focused 
on anti-Semitism in the public discourse.
    The State Department monitors these trends and activities and 
reports on them in all 198 countries and territories--in two major 
annual reports: The International Religious Freedom Report and the 
Human Rights Report. I am now involved in developing a major training 
initiative for State Department employees so they can better monitor 
what is happening in their countries, and be sensitized to the various 
forms of anti-Semitism. This will make our annual reports more 
comprehensive, and allow us to do an even better job of monitoring and 
confronting anti-Semitism in all its forms. These reports tell us that 
many countries are pushing hard to advance human rights and fight 
discrimination. It also tells us that there is so much more work to do. 
If we do not chronicle it, if we do not name it, we cannot fight it.
    Of course, it is not enough to study and monitor these deeply 
troubling trends. It is critical that we act to reverse them.
    My approach to combating anti-Semitism is not just to preach to the 
choir, so to speak, but to join in partnership with non-Jews in 
condemning it--government, civil society, international institutions, 
business leaders, labor unions, and media.
    Last summer, Secretary Clinton launched an initiative to strengthen 
civil society across the globe and she instructed all of us in the 
State Department and all our overseas posts to treat civil society 
organizations as strategic partners. Partnering with opinion leaders 
from civil society as well as government--and building bridges among 
ethnic and religious groups--is the way to change a culture from fear 
and negative stereotyping to acceptance and understanding, from narrow 
mindedness to an embrace of diversity and pluralism, from hate to 
tolerance.
    Educating our young is a priority--they are the future; their 
values and opinions form at a very early age.
    No government should produce materials that are intolerant of 
members of any religious, racial, or ethnic group, or teach such 
intolerance as part of its educational curriculum. The Department of 
State continues to focus on this important issue. We sponsor teacher 
training on the Holocaust through the OSCE--focusing on its uniqueness 
and its universal lessons.
    The United States provides training to foreign law enforcement 
officials, which covers crimes against vulnerable groups, including 
Jews, because these issues are of great concern to the U.S. We use old 
and new technologies to communicate with the public about human rights, 
tolerance and democracy. We strongly support the freedom for all people 
to express their views, even distasteful ones, both offline and 
online--but we also work to promote tolerance and to eradicate 
ignorance. We are enhancing our cultural and educational exchanges to 
showcase our civil society organizations, and to learn from the 
successes of other countries in confronting and combating hate in all 
of its forms.
    I want to note two examples of efforts I am engaged in to encourage 
Jews and non-Jews to take action against anti-Semitism.
    To combat Holocaust denial, I went with eight leading imams--two of 
whom had been deniers--to Dachau and Auschwitz last summer. My goal was 
to have them issue a statement condemning Holocaust denial.
    When we arrived at Dachau, Germany's first concentration camp, the 
imams were overcome with the pictures they saw and immediately went to 
the ground in prayer at the sculpture commemorating the six million 
Jews exterminated. At that moment, I knew I was watching history being 
made. All of the passers-by, tourists, and docents stopped in their 
tracks to witness the spontaneous prayer of these leading imams. And at 
Auschwitz, it was as overwhelming for them, and, for some, 
transformational. We were walking amidst ash and bone fragments from 
the 1.5 million Jews exterminated there--solely because of who they 
were. We were facing the fact that unfettered and unanswered hatred can 
indeed create an Auschwitz. The imams produced a statement strongly 
condemning Holocaust denial and all other forms of anti-Semitism.
    They are now urging colleagues and schools to join their statement. 
Some are planning to take their youth on the same trip, bear witness 
and bear the burden, to teach the destructive power of unanswered 
hatred, and the positive power that condemnation can have to stop 
hatred.
    At the February OSCE Parliamentary Assembly, my colleague Farah 
Pandith, the Special Representative to Muslim Communities, and I 
launched a virtual campaign called 2011 Hours Against Hate, using 
Facebook. We are asking young people around the world to pledge a 
number of hours to volunteer to help or serve someone who may look 
different, or pray differently or live differently. For example, a 
young Jew might volunteer time to read books at a Muslim pre-school, or 
a Russian Orthodox at a Jewish clinic, or a Muslim at a Baha'i food 
pantry. We want to encourage them to walk a mile in another person's 
shoes. And while our goal was to get 2011 hours pledged, we have 
already had over 16,000 hours pledged.
    Farah and I began meeting with hundreds of young people earlier 
this year--students and young professionals--in Turkey, Azerbaijan, and 
Spain--countries that in their histories celebrated Jews and Muslims 
co-existing and thriving together. They expressed strong interest in 
the campaign--and we have already surpassed our goal of 2011 hours 
pledged against hate. More recently, Farah and I met with youth and 
interfaith leaders in Saudi Arabia, Jordan, and Lebanon, discussing 
reaching out to others and increasing tolerance and understanding among 
different religious groups. In Malmo, Sweden a group called Young 
Muslims Against anti-Semitism is touring schools to teach tolerance and 
combat anti-Semitism. Really, we have just begun.
    So while I fight anti-Semitism, I am also aware that hate is hate. 
Nothing justifies it--not economic instability and not international 
events.
    When history records this chapter I hope it will reflect our 
efforts to build a peaceful, fair, just, free world where people defend 
universal human rights and dignity. This is not a vision to be 
dismissed as naive idealism--it is a real goal that should never be far 
from our thoughts.
    Since the beginning of humankind, hate has been around, but since 
then too, good people of all faiths and backgrounds have striven to 
combat it. The Jewish tradition tells us that ``you are not required to 
complete the task, but neither are you free to desist from it.''
    Together, we must confront and combat the many forms of hatred in 
our world today. Where there is hatred born of ignorance, we must teach 
and inspire. Where there is hatred born of blindness, we must expose 
people to a larger world of ideas and reach out, especially to youth, 
so they can see beyond their immediate circumstances. Where there is 
hatred whipped up by irresponsible leaders, we must call them out and 
answer with our full strength--and make their message totally 
unacceptable to all people of conscience.
    Thank you Mr. Chairman and members of the Commission for your 
efforts to do just that. Once more, I would like to thank you for the 
invitation to testify before you, and I look forward to our future 
collaboration. I am happy to answer any questions you may have.

    Hannah Rosenthal was sworn in as Special Envoy to Monitor and 
Combat Anti-Semitism on November 23, 2009. Sparked by the work and 
experience of her father, a rabbi and Holocaust survivor, and her own 
experience studying to become a rabbi, Hannah Rosenthal has led a life 
marked by activism and a passion for social justice.
    Before joining the State Department, Ms. Rosenthal was Executive 
Director of the Chicago Foundation for Women, where she led one of the 
largest women's funds in the world. Prior to that, she was Executive 
Director of the Jewish Council for Public Affairs for five years, where 
she worked on domestic and international policy for the organized 
Jewish community in North America.
    Ms. Rosenthal served as Midwest regional director of the U.S. 
Department of Health and Human Services during the Clinton 
Administration. She was involved in community organizing, and the 
antiwar and civil rights movements in the 1960s.
    Ms. Rosenthal attended graduate school for rabbinical studies at 
Hebrew Union College in Jerusalem and Los Angeles, and holds a 
bachelor's degree in religion from the University of Wisconsin. Ms. 
Rosenthal has two grown daughters who are busy mending the world with 
their mom.

                Prepared Statement of Rabbi Andrew Baker

Introduction

    At the outset, let me express my appreciation to the Chair of the 
Commission, Representative Chris Smith, and to the Co-Chair of the 
Commission, Senator Ben Cardin. Your long-standing attention to the 
problem of anti-Semitism has been unswerving and your leadership has 
been central to marshaling efforts to combat it both in the US and 
abroad. We thank you.
    A decade ago in the immediate aftermath of the ill-fated UN 
Conference in Durban, we sought effective means to alert the public to 
the resurgence of anti-Semitism in Europe, which included a dramatic 
increase in attacks on Jewish targets, frequently triggered by events 
in the Middle East. We also witnessed the beginnings of what would 
become a new problem of anti-Semitism in public discourse.
    And we turned to you.
    It was this Commission on Security and Cooperation in Europe that 
pushed and prodded a reluctant diplomatic bureaucracy here in 
Washington to press the OSCE to take up the problem. And much to the 
surprise of some those skeptics, a first OSCE conference on anti-
Semitism took place in Vienna in 2003, which led in turn to the seminal 
high level conference and declaration on anti-Semitism in Berlin in 
2004. It included a commitment by governments to monitor and collect 
data on anti-Semitic and other hate crimes, to promote Holocaust 
education and effective legislation. It was followed by the 
establishment of a department on tolerance and non-discrimination in 
ODIHR and further conferences and expert meetings including the March 
conference in Prague this year focused on anti-Semitism in public 
discourse.
    These efforts also included the appointment of a special envoy at 
the OSCE, a Personal Representative of the Chair-in-Office on Combating 
Anti-Semitism, a position which I now hold.
    My message to you today is a simple one: The problem remains and we 
still need your help.

Anti-Semitism in Public Discourse

    The Prague Conference on anti-Semitism in public discourse was 
itself recognition of one of the most difficult current challenges we 
face. Opinion surveys in many European states reveal anti-Jewish 
sentiments are still held by significant numbers of the population. 
These percentages may fluctuate over time and are certainly not uniform 
from country to country. But the overall picture remains a distressing 
one, and it has direct and immediate consequences for Jewish 
communities.
    The Jewish population in OSCE participating states ranges from a 
high of two percent (in the United States) to fractions so small they 
barely register. And yet the presence of Jews is not the determining 
factor in the presence of anti-Semitism. For the most part popular 
attitudes toward Jews are not formed from personal encounters, which 
are rare, but rather from the images and rhetoric of public discourse--
in mainstream media, in political debate and on the Internet. 
Conspiracy theories of Jewish world domination and economic prowess are 
no less evident today than they were a century ago. But a new 
phenomenon has been the identification of the State of Israel as a 
source for anti-Jewish prejudice. Frequently Jews and Israel are 
conflated, and those harboring antagonistic views of Israel ascribe the 
same attributes to Jews and local Jewish communities. The OSCE 
recognized this phenomenon in 2004, in its Berlin Declaration, which, 
``declare[d] unambiguously that international developments or political 
issues, including those in Israel or elsewhere in the Middle East never 
justify anti-Semitism.''
    While governments still fall short in monitoring and reporting 
physical incidents of anti-Semitism, fewer still have any systematic 
process of monitoring and recording let alone responding to incidents 
on the Internet or in the media. Governments can and should do much 
more, and in the interim practical steps can be taken to help civil 
society groups develop the capacity to do their own monitoring.
    Because of constitutional protections, the United States especially 
recognizes that ways must be found to address this growing problem 
without constraining freedom of speech and the press. The laws in 
European states vary, with some countries having the ability to 
prosecute and punish hate speech. Such laws may serve to articulate an 
important societal value, but even this can be undercut when the 
prosecution is arbitrary or infrequent or when punishment is minimal or 
long-delayed. Participants in Prague stressed the importance of 
political and community leaders responding loudly and swiftly as a way 
of fostering a taboo culture when it comes to anti-Semitism.

Holocaust Education

    Holocaust education has long been identified as an important 
contribution to combating anti-Semitism, and it is among the 
commitments that Participating States made at the OSCE Berlin 
Conference in 2004. We should bear in mind that even where the subject 
is included in the secondary school curriculum, that still may mean 
only a day or less over the course of the school year. There are also 
special challenges when teaching the subject. Some students from 
immigrant Arab and Muslim communities have voiced resentment or sought 
to bring the Middle East conflict into the discussion, which draws 
attention away from the subject itself and subverts its intention. Some 
governments have recognized this problem and sought ways to address it. 
One notable example is a project in the Netherlands that teams young 
Jewish and Arab peer teachers to present the subject in public school 
classrooms with a particular focus on vocational school students. In 
Germany the House of the Wansee Conference has developed special 
teaching materials aimed at students of Turkish descent.
    There are increasing calls to apply a ``human rights focus'' to 
Holocaust education, which in the process of drawing universal lessons 
may lose sight of the important particular one: This is where prejudice 
against Jews can lead. Recent efforts in some Eastern European 
countries to focus attention on the legacy of Communist oppression and 
to seek support for education and remembrance efforts have also caused 
confusion. Although a worthy endeavor in its own right, some proponents 
draw false equivalencies to the Holocaust.

Muslim-Jewish Relations

    When the European Monitoring Centre (EUMC) conducted its survey on 
anti-Semitism in European Union countries in 2004, it learned that a 
new and growing source of anti-Semitic incidents could be traced to 
Arab and Muslim communities. This remains a matter of concern and is 
still reflected in the available data. In some cities or in some 
neighborhoods visibly identifiable Jews--i.e., those in Orthodox garb 
or wearing Jewish symbols--may be fearful of physical or verbal attack 
when they are on the streets. Enhanced security measures and more rapid 
and serious responses to complaints provide some relief to these 
problems. Some communities have helped foster Muslim-Jewish dialogues 
and cooperative projects. Although the actual numbers of individuals 
who participate in such activities may be small, they are symbolically 
important, and positive media coverage can help amplify their reach.
    More and more countries are developing educational programs to 
promote tolerance and combat racism and xenophobia. By and large such 
efforts are commendable and reflect the goals established by the OSCE 
and ODIHR. But in conversations with European Jewish leaders there are 
also some warnings. Such general programs do not necessarily address 
the problems of anti-Semitism stemming from individuals who themselves 
may also be the victims of racism.

Demonization of Israel

    It has become almost commonplace to find mainstream media coverage 
of the Middle East conflict particularly in Western Europe demonizing 
the State of Israel. It is manifest in news, in cartoons and in 
commentary. Some observers have described this as a new form of anti-
Semitism, but it also contributes to prejudice against Jews who are 
seen as Israel's friends, supporters or surrogates. We also see that 
the term ``Zionist'' is increasingly used in a pejorative way and 
frequently substitutes for ``Jew'' in written or oral discourse. This 
may at first appear to be accidental or just reflecting the growing 
tendency of conflating Jews and Israel in public rhetoric, while 
demeaning an honorable movement. But there may be more to it. French 
law, for example, has legal provisions for prosecuting certain hate 
speech directed at particular nationalities or ethnic groups. Thus, a 
verbal attack on ``Jews'' or a call to boycott ``Israelis'' could land 
someone in jail, but not so if the targets are ``Zionists'' which makes 
finding a solution to such changes in terminology particularly 
important.In 2005 the EUMC adopted a ``working definition'' of anti-
Semitism, which offered examples of how anti-Semitism can manifest 
itself with regard to the State of Israel. It was endorsed by 
Parliamentary Conferences in London and Ottawa. The State Department 
Special Envoy has adopted it for her work and analysis. I share it and 
recommend its use when I travel in my OSCE capacity. But it still meets 
with some opposition including from the EUMC successor agency, and thus 
bears repeating wherever possible.

Security

    Despite their small numbers, European Jewish communities have 
shouldered an outsized burden in providing security for their members 
and their institutions. From the 1970s some have been--and remain--the 
targets of international terrorism. The corrosive impact of increased 
anti-Semitic rhetoric in more recent years has meant that synagogues, 
religious schools, community centers and cemeteries face physical 
attacks ranging from graffiti to arson. Community leaders in turn must 
decide how much of their limited resources can be diverted from 
educational and religious needs to provide for their own protection. At 
its essence it restricts the Jewish community's ability to exercise the 
full freedom of religious practice, a bedrock principle of the OSCE.
    Governments approach this problem differently. Some have accepted 
the responsibility to assist, while others have not. During my country 
visit to Sweden in 2010 this problem was identified as a priority issue 
by the Jewish Community of Stockholm which was spending a quarter of 
its overall budget on security. In recent months the Swedish government 
has come forward with financial grants to assist the Jewish community 
to meet these security needs. It should be commended for this action, 
and I hope it will serve as a model for other states to follow.

The Banning of Ritual Slaughter

    A growing number of countries have adopted laws which require the 
stunning of animals before they are slaughtered, thus effectively 
banning ritual (kosher) slaughter.
    Jewish communities have adapted by importing kosher meat. But 
discussions of this topic during OSCE visits this year to the 
Netherlands (where a law is pending) and in Switzerland (where a ban 
was imposed over a century ago) reveal a more troubling situation. The 
Dutch legislation is spearheaded by animal rights advocates and has 
received support from nationalist MPs who may believe--mistakenly as it 
turns out--that this law would also prohibit halal meat. Meanwhile, 
Dutch Jewish leaders are cautious in marshaling arguments in 
opposition. They are reluctant to assert the basic principles of 
religious freedom, which they believe would not have popular appeal. 
Instead they look to expert testimony that maintains there is no 
conclusive scientific evidence proving one method is more humane than 
the other.
    In Switzerland even government officials acknowledge that their law 
banning kosher slaughter, coming as it did in the wake of the Dreyfus 
trial in the 1890s, was anti-Semitic by intent. They say it is likely 
that an appeal to Swiss courts to overturn the law as a violation of 
religious freedom would succeed. But successive Jewish community 
leaders have decided not to do so. They long ago accommodated 
themselves to the ban with imported meat from France and believe that 
challenging it could generate an anti-Semitic backlash. Better then, to 
keep a low profile. This is understandable, but surely an outdated 
prescription for averting anti-Semitism.

Role of the OSCE and the Helsinki Commission

    When the OSCE Permanent Council agreed to support a conference on 
anti-Semitism in June 2003, I am sure that some members imagined that 
this would be one event, one time and then attention could turn 
elsewhere. We remember how international declarations would frequently 
condemn a long litany of evils--``racism, xenophobia, prejudice, 
intolerance, racial discrimination, etc., etc.''--without ever actually 
uttering the word ``anti-Semitism.'' (It led one friend, a long-time 
senior staff member at the Council of Europe and a child survivor of 
the Holocaust to quip, ``Anti-Semitism is always left to the `et 
ceteras.' '')
    There has been significant progress in focusing the OSCE to address 
the problem of anti-Semitism and in educating people to its unique 
manifestations and its stubborn persistence. Monitors have generally 
recorded a decline in anti-Semitic incidents since early 2009, but we 
are still far, far higher than the baselines of previous years. We also 
know that turmoil in the Middle East could again trigger a new wave of 
incidents. And it is still far from clear what repercussions there 
might be if Europe's economic crisis still worsens.
    The U.S. and the Helsinki Commission have been the primary driving 
force to keep the OSCE focused on the problem of anti-Semitism, a 
necessary and constant reminder that it is still with us and that it 
can always again turn deadly.
    When Secretary of State Clinton and the U.S. Delegation take their 
seats at the OSCE Ministerial Meeting in Vilnius next week, I very much 
hope they will include this message in their remarks.

Ambassador Stephan Minikes

    In closing let me also pay respects to Ambassador Steve Minikes who 
died earlier this autumn. He was the U.S. Ambassador to the OSCE during 
the critical period when we witnessed the resurgence in anti-Semitism 
in 2002. It was in significant measure due to his personal efforts that 
there was that first conference on anti-Semitism in 2003 and the 
following meetings in Berlin and Cordova, along with the various other 
measures that were adopted. Those of you here who worked with him knew 
of his dedication. I still vividly recall one evening at his residence 
in Vienna early on in this process when he showed me a postcard sent to 
him by his grandmother sixty years ago. It was a brief note written in 
pencil telling her grandson that everything was fine. But the postmark 
belied the message. It was sent from Therezienstadt, and only a short 
time afterward she was deported to Auschwitz. I understood then why 
this effort was personal and not just one concern among many in an 
ambassador's portfolio. We have all benefited as a result, and he will 
be missed.

Rabbi Andrew Baker is Director of International Jewish Affairs for the 
American Jewish Committee. He has been a prominent figure in 
international efforts to combat anti-Semitism. In January 2009 he was 
first appointed the Personal Representative of the OSCE Chair-in-Office 
on Combating Anti-Semitism, and he was reappointed in 2010 and 2011.

He has played an active role in confronting the legacy of the 
Holocaust. He is a Vice President of the Conference on Jewish Material 
Claims against Germany, the Jewish umbrella organization that has 
worked on restitution issues for half a century. In 2003 he was awarded 
the Officer's Cross of the Order of Merit (First Class) by the 
President of Germany for his work in German-Jewish relations. He was a 
member of Government Commissions in both the Czech Republic and 
Slovakia that were established to address the claims of Holocaust 
Victims.

He was a founding member of the National Historical Commission of 
Lithuania and involved in restitution negotiations there. In 2006 the 
President of Lithuania presented him with the Officer's Cross of Merit 
for his work. For similar work he was awarded the Order of the Three 
Stars by the President of Latvia in 2007. He helped the Romanian 
Government establish a national commission to examine its Holocaust 
history and served as one of its founding members. For this work he was 
awarded the National Order of Merit (Commander) by the President of 
Romania in 2009.

Rabbi Baker directed AJC efforts in the development and construction of 
the Belzec Memorial and Museum, a joint project of the AJC and the 
Polish Government on the site of the former Nazi death camp in 
Southeastern Poland. In May 2006 he was appointed by the Prime Minister 
of Poland to a six year term on the International Auschwitz Council, 
the official governmental body that oversees the work of the Auschwitz 
State Museum.

A long-time resident of Washington, DC, Rabbi Baker has served as 
President of the Washington Board of Rabbis, President of the 
Interfaith Conference of Washington and Commissioner on the District of 
Columbia Human Rights Commission.

A native of Worcester, Massachusetts, Rabbi Baker received a B.A. from 
Wesleyan University and a Masters Degree and Rabbinic Ordination from 
Hebrew Union 
College-Jewish Institute of Religion in New York City. He is the father 
of four children.

                Prepared Statement of Dr. Shimon Samuels

    Mr. Chairman,
    I opened the European office of the Simon Wiesenthal Centre in 
Paris, in 1988, to focus on three challenges:
    1) In Western Europe, the second religion demographically was 
already Islam--inter-faith outreach was necessary--as was the 
monitoring of incipient extremism.
    2) tremors in Eastern Europe, since the fall of the Berlin Wall, 
signalled a neo-nationalism redolent of past phantoms--monitoring was 
required.
    3) flea markets across Europe sold under the counter floppy disks 
of neo-Nazi games (for Amiga and Commodore 64 proto-computers)--hate 
would advance exponentially with that technology and had to be 
monitored.
    By the Millennium, the year 2000: our first focus was now 
characterized by the Durban process, which in turn inspired a Jihadist 
antisemitism-terrorism nexus, with Middle East satellite television and 
website inculcation and recruitment in Europe.
    The second focus was marked by the EU enlargement. In April 2004, a 
Warsaw welcome party focussed on the challenges facing the East 
European new members. I was invited to speak on antisemitism in the 
West and scapegoating in the East, the latter as a result of painful 
withdrawal from the central Soviet to the capitalist market economy. 
That same month, the OSCE Berlin Declaration on Antisemitism was 
enunciated, setting a new threshold of standards for the region.
    I addressed the States Parties, noting that ``You are the same 
nations we meet at Geneva in the UN Human Rights Commission (now 
Council). Yet, here, at the OSCE, the language is different, perhaps 
due to the absence of the tyrannies and NGO's whose vested agenda is to 
perpetuate the Middle East conflict''.
    I viewed the OSCE as the answer to the stultification of the UN 
system, even today exemplified only last week by the appointment of 
Syria to a human rights role in UNESCO.
    What forms of antisemitism did the Berlin Declaration not foresee?
    That which, at the 2010 Astana OSCE High-level Meeting, I called 
supercessionism. Just as the early Church first viewed itself as 
``Israel non in carne sed in spiritum'' (not in the flesh but in the 
spirit), so today, we witness an identity theft of the Jewish narrative 
among several OSCE parties.
    In Eastern Europe, the Baltics and Ukraine--a seemingly innocent 
conflation is made between the Holocaust and the atrocities of Stalin. 
It's political instrument, ``The Prague Declaration'' seeks, through 
the European Parliament, to replace the 27 January ``Holocaust 
Commemoration Day'' (Auschwitz liberation day) with a ``Double Genocide 
Day'' on 23 August (which marks the Molotov-Ribbentrop Pact that 
resulted in the 1939-1941 Soviet occupation of the countries 
concerned).
    In Western Europe, the ongoing ``Durban process'' has redefined 
``Holocaust'' as ``Naqba'' (the 1948 catastrophe of Israel's birth); 
antisemitism according to Teheran University, ``until 1948 victimized 
the Jew. Due to the victory of Zionism, since 1948 it targets the other 
Semite--the Arab. In Orwellian doublespeak, it concludes that `if 
antisemitism is Arabophobia then Zionism is antisemitism' ''.
    Add into the mix the terms ``apartheid'' and BDS (Boycott, 
Divestment, Sanction), which are misappropriated from South African 
victimology to castigate the State of Israel
    The Norwegian Foreign Minister specialises in Holocaust imagery to 
depict the Palestinian predicament. He does not appreciate the 
dangererous consequences of his allusions for, if Gaza is Auschwitz, 
then Auschwitz is but a lie.
    The antisemitic backlash in Europe to this historical gangrene, or 
gangreening of history, is to be exacerbated further via the World 
Heritage Committee of UNESCO. In that context, supercessionism aims to 
cut the Jewish link to the Holy Land.
    The Cave of the Patriarchs and Rachel's Tomb have been rebaptised 
as mosques. Now, laid out in the volume ``Buraq Wall''--which I 
purchased at the Frankfurt Book Fair--Islam contends that Buraq, the 
winged-steed, carried Muhammad from Mecca, via Jerusalem, on a night 
flight pilgrimage to heaven and back. The mount was tethered during the 
stopover at the Wailing or Western Wall of the Temple Mount. Hence, 
``The Buraq Wall'' calls Judaism's holiest site: ``a Jewish heresy of 
aggression against a Muslim heritage shrine''.
    Last week, ``Travel Palestine'' (a film clip found on YouTube), 
funded by the UN Development Programme (UNDP), expunges all Jewish 
roots in the Holy Land.
    Jews also have a trinity: the People, the Book, the Land. Eliminate 
one leg of the triangle, delete all.
    Not perceived in the Berlin Declaration and even more dangerous, is 
the demonstration that ``the enemy of the good is indifference''--there 
we encounter a new phase of antisemitism--
    Ahmadinejad stated: ``the Holocaust is a lie'', and was answered by 
a wave of international condemnation.
    A little while later, he continued: ``Wipe Israel off the Map'', 
this passed with muted indignation.
    His repeated: ``Jews are vermin, bacilli, a tumour'' are met with 
fatigue.
    By a numbing-effect, he tests the limits of Western timidity. 
Voila, the ``antisemitism of indifference''.
    This week, 5,000 Tahrir Square demonstrators in Cairo, screeching 
``Death to the Jews'', created no global expression of outrage.
    The bar has been raised on antisemitism.
    After eight assaults on the Rabbi of Malmo, Sweden--a community of 
700 Jews and 70,000 Muslims--the Wiesenthal Centre during a visit in 
January 2011, imposed a ``travel advisory'' on the city. Our campaign 
resulted in the Swedish government finally subsidizing community 
security. Faced with the Mayor's total indifference, the Rabbi was 
further subject to 15 assaults since our visit. Indeed, the Muslim 
community has now joined us in criticizing Malmo's inattentiveness to 
hate-crimes.
    Next month, January 20, we will mark the 70th anniversary of the 
Wannsee Protocol, which was drafted at a meeting of fifteen Nazi 
bureaucrats in Berlin, to coordinate the extermination of 11,000,000 
Jews as the final solution of the Jewish question. I stress that the 
Protocol lists 11,000,000.
    Six million were murdered--Eleven million were the intent.
    I have always respected the power of water, 30 miles of British 
Channel saved my family and the 330,000 Jews of England on that list.
    Today, 30 miles of Channel are as defensible as 3,000 miles of 
Atlantic waters. Zero! We are all tripwires criss-crossing the OSCE 
region.
    Recently discovered documentation of Nazi Germany's strategic 
designs on Persia's oil wealth, includes a Wannsee-style memorandum of 
Adolf Eichmann, the architect of the Holocaust: Therein he consigns up 
to 100,000 Iranian Jews to extermination. The current President of Iran 
persists in his intentions to finish the job.
    Simon Wiesenthal said, ``what starts with the Jews never ends with 
them''. On the Venezuelan coast, Iran is building a Shahab-3 missile 
base with a range of 2,000 miles facing these United States.
    Twice--in two World Wars--you have invoked the Monroe Doctrine to 
redress the balance of the Old World. Indeed, as we speak, under your 
inspiration, in Panama, the 28th General Assembly of the Latin American 
Parliament (PARLATINO) has adopted a Wiesenthal Centre drafted 
Resolution to Combat Antisemitism in the Americas: ``Conspiracy 
Theories, Holocaust Denial and Delegitimization of the Jewish 
Sovereignty are Contributing Factors to Antisemitism.''
    Mr. Chairman, through this Commission, which I consider an early-
warning system, we call on the US government to maintain that balance 
in the OSCE region. For if antisemitism is indeed a benchmark, then 
this session must be replayed at a purpose-built High-Level OSCE 
meeting under the forthcoming Irish Presidency, perhaps to be called, 
``Berlin II: Stocktaking and Counteracting Antisemitism in the OSCE 
Region''.
    Thank you, Mr. Chairman,

    Dr. Shimon Samuels was born in England. He came to Israel in 1963 
and received a B.A. in Political Science and History from the Hebrew 
University of Jerusalem, returning to England for his second degree, an 
M.Sc. (Econ.) in International Relations from the London School of 
Economics. He earned his doctorate in a combined program with the 
University of Pennsylvania and the Sorbonne, Paris, and then served as 
Deputy Director of the Leonard Davis Institute for International 
Relations at Hebrew University. Dr. Samuels then was appointed European 
Director of the Anti-Defamation League based in Paris, and later became 
Israel Director of the American Jewish Committee. He is the Director 
for International Liaison of the Simon Wiesenthal Center, based in 
Paris, and also serves as Honorary President of the 
Europe-Israel Forum. 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Prepared Statement of Mark B. Levin

    Good morning, Mr. Chairman, Senator Cardin, and Members of the 
Commission. My name is Mark Levin. I am the Executive Director of NCSJ: 
Advocates on behalf of Jews in Russia, Ukraine, the Baltic States & 
Eurasia. Since 1971, we have represented nearly 50 national Jewish 
organizations, including the Anti-Defamation League, B'nai B'rith 
International, Hadassah, and AIPAC, and hundreds of local Jewish 
community councils, committees, and Federations across the country, 
including a number partnering with the OSCE.
    Mr. Chairman, I welcome today's hearing on combating anti-Semitism. 
NCSJ has worked closely on this important issue for 40 years with 
officials and organizations in the United States, Europe, and the 
former Soviet Union, including OSCE.
    This is a good time to reflect on progress made on this issue. 
Seven years have passed since the Second OSCE Conference on Anti-
Semitism in Berlin condemned all acts motivated by anti-Semitism and 
required participating states to take specific and practical 
countermeasures. Since then, we have seen an uneven response in the 
area that we cover: the former Soviet Union.
    I would like to give a brief overview of current anti-Semitism 
across the former Soviet states. Official, state-sponsored anti-
Semitism is virtually non-existent, but popular anti-Semitism, both 
non-violent and violent, appears to be on the rise, and official 
response across the region has been inconsistent. Much has been done by 
national governments, but more work remains. My remarks will focus on 
Russia, Ukraine, Moldova, Belarus, and the Baltic states, traditional 
centers of Jewish life in the former USSR.
    I'll start with Russia, home to the world's fourth-largest Jewish 
community. Russians and Russian Jews share a long and complex history 
that includes both official and popular anti-Semitism. Since the last 
two mass emigrations in the 1970s and the 1990s, Jewish emigration from 
Russia has leveled off, and we have welcomed a renaissance of Jewish 
communities across Russia. The Russian Jewish community's relationship 
with the current Russian government under both Putin and Medvedev has 
been generally good and often better than the historical norm. However, 
we remain concerned both by the rise of popular anti-Semitism in Russia 
and by the inconsistent official response to this movement.
    Anti-Semitism in Russia today is most often political and street-
level, and increasingly features a rising number of attacks by young 
skinheads and nationalists. Incidents most often involve vandalism 
against and firebomb attacks on synagogues, cemeteries, and Jewish 
community centers, but have also included outright physical assaults on 
Jews and attempted bombings of Jewish buildings.
    More alarming is the fact that Russian human rights monitoring 
groups have reported a steady rise over the last ten years in the 
number of overall attacks by skinheads and extremists on minorities, 
migrant workers, and foreigners across Russia. Leading Russian human 
rights groups estimate that Russian far-right extremists now number in 
the tens of thousands, and warn that nationalist movements are gaining 
strength across Russia. A Russian nationalist riot took place in 
central Moscow next to the Kremlin itself just one year ago, on 
December 11, 2010, and massive and widespread Russian nationalist 
rallies on Hitler's birthday on April 20th have become annual events.
    We are concerned by the strong potential for violence, including 
anti-Semitic violence, inherent in this movement, and urge the Russian 
government to strengthen its enforcement of existing commitments, 
including to the OSCE Charter, and to take stronger legal action 
against incitement of racial hatred and overt calls for violence.
    The Russian government has publicly denounced nationalist ideology 
and expressed support for legal action against anti-Semitic acts, but 
follow-through has been uneven. Some anti-Semitic attacks in recent 
years have in fact been successfully prosecuted as hate crimes, but 
many others continue to be dismissed as mere ``hooliganism'' or random 
violence. NCSJ will continue to engage the Russian government on this 
issue, and will continue to press for expanded prosecution of hate 
crimes against Jews and other targeted minorities in Russia, for 
enactment of more effective hate crime and hate speech legislation by 
Russian authorities, and for expansion of training programs to give 
Russian law enforcement the know-how to confront violent extremists.
    I next turn to Ukraine, home to another vibrant Jewish community, 
the second largest in the former Soviet Union. Although popular anti-
Semitism has persisted in recent years, the Ukrainian government has 
demonstrated a strong commitment to combating this trend, and has in 
fact achieved some successes.
    Anti-Semitic vandalism and other incidents occur regularly, and 
have included physical assaults on Ukrainian Jews and visiting Israelis 
with at least two known fatalities, as well as firebomb attacks on and 
vandalism of synagogues and monuments, cemetery desecrations, and 
publication and distribution of anti-Semitic literature and leaflets. 
Inconsistent official response to many of these attacks showcases the 
reluctance of some local officials to prosecute racist and anti-Semitic 
crimes in Ukraine. Several prominent public figures, including 
Ukrainian parliamentarians and independent candidates for President, 
have also voiced anti-Semitic views in public venues in recent years.
    A positive step in Ukraine's fight against anti-Semitism has been 
the marginalization of the Interregional Academy of Personnel 
Management, better known by its Ukrainian acronym, MAUP. This is 
Ukraine's largest private university, with over 50,000 students and 
many campuses. Until recently, it was also one of the leading purveyors 
of anti-Semitic and xenophobic material in Ukraine, publishing a large 
volume of virulent anti-Semitic publications, and inviting white 
supremacist and former KKK leader David Duke to lecture at the 
university. Starting in 2006/2007, the Ukrainian government began to 
take concerted action against MAUP, in part due to the rising concern 
shown by the international community, including by NCSJ. I am happy to 
report that both MAUP's influence and anti-Semitic output seem to have 
been halted in recent years, a clear victory for the Ukrainian 
government and for international human rights organizations.
    Similarly, the Ukrainian government in 2011 has moved to toughen 
punishments for anti-Semitic acts, and has stepped up security for the 
annual pilgrimage by thousands of Hassidic Jews to Jewish sites for the 
High Holidays. Earlier, during President Yushchenko's administration, 
Ukraine's Security Service created a Special Operative Unit on Fighting 
Xenophobia, and the Ukrainian Foreign Ministry created the office of 
Special Ambassador on Racism, Xenophobia, and Discrimination. Likewise, 
deputies in the Ukrainian parliament introduced bills designed to 
punish hate crimes and displays of racial and religious intolerance, 
although actual implementation of this legislation has been slow. We 
welcome these efforts by Ukrainian authorities to recognize and 
confront the problems of extremism and anti-Semitism, and continue to 
work with the current government to build on this foundation and make 
progress on these issues.
    I next turn to Moldova, home to an estimated 30,000 Jews, but once 
hosting a much larger community that has been significantly reduced by 
the Holocaust and, more recently, by high rates of emigration. As in 
Russia and Ukraine, Moldova's Jewish community has been reborn in the 
last twenty years, with synagogues, schools, and community centers 
opening across the country. However, popular anti-Semitism continues 
there today, despite the government's condemnation of racial and 
religious intolerance.
    Jewish cemeteries and buildings have been vandalized, and Moldovan 
and Romanian nationalists regularly make anti-Semitic statements. Two 
years ago, in December 2009, a radical Orthodox priest led his 
congregants to tear down a menorah on public display in the capital 
city of Chisinau during Hanukkah, in a particularly egregious example 
of intolerance. He was later charged with a misdemeanor and was fined a 
small amount.
    The Moldovan government officially condemns anti-Semitism and has 
taken steps to combat it, including supporting Holocaust education in 
local schools and partnering with Jewish groups from Moldova and 
elsewhere in the former Soviet Union. NCSJ will continue working with 
the Moldovan government to craft a more systematic approach to 
combating anti-Semitism.
    Anti-Semitism is an especially complex issue in Belarus. Once at 
the center of Eastern European Jewry, the Belarusian Jewish community 
today numbers no more than 70,000. As in neighboring Ukraine and 
Russia, Belarusian Jews today have access to a wide range of religious, 
educational, and community resources and organizations. Belarus is also 
home to the only official Soviet-era Holocaust memorial in the former 
USSR, dedicated in 1946.
    Incidents of popular anti-Semitism, such as vandalism of synagogues 
and community buildings and cemetery and monument desecrations, have 
occurred. Openly anti-Semitic publications have also appeared in recent 
years, in local newspapers and in books published by local publishing 
houses affiliated with the Minsk Orthodox Diocese.
    Belarusian authorities have often shown themselves unresponsive to 
official complaints against anti-Semitic hate literature, and have 
inconsistently investigated or prosecuted perpetrators of anti-Semitic 
actions.
    President Lukashenko himself has made on the record anti-
Semitic comments in the recent past, and members of his administration 
have published openly anti-Semitic books and articles. However, 
relations between the Belarus Jewish community and the Belarusian 
government are generally stable despite evidence of periodic official 
involvement in popular anti-Semitism and official support for policies 
insensitive toward Jews and other minorities. Since Belarus is a 
signatory to OSCE commitments, NCSJ will continue to engage the 
government in an attempt to promote a more positive official attitude 
towards religious and ethnic tolerance in that country. I note that 
instances of productive cooperation with local officials have been 
possible on the ground in Belarus in recent years, and we hope to build 
on these successes.
    Finally, I would like to address the situation with regard to anti-
Semitism in the Baltic states. Estonia, Latvia, and Lithuania are the 
most Westernized of the former Soviet states, and are to date the only 
post-Soviet countries accepted into NATO and the European Union. 
Despite this impressive achievement and despite the small size of their 
native Jewish communities--approximately 20,000 members in all three 
states--we have seen anti-Semitic episodes there as well. Especially in 
Latvia and Estonia, local nationalists and veterans of World War II-era 
Nazi-sponsored auxiliary units continue to generate anti-Semitic hate 
speech and stage annual marches with anti-Semitic and Nazi displays. 
The Prime Minister of Latvia stated last month that any member of his 
government attending these annual marches of Waffen SS veterans would 
be fired, which, while commendable, also highlights the persistence of 
these difficult World War II-era divisions in Baltic society.
    Perhaps most disturbing has been the shameful prosecution in recent 
years by Lithuanian authorities of several aged Jewish Holocaust 
survivors for their wartime anti-Nazi resistance activities as somehow 
anti-Lithuanian. Although it appears that prosecutors are no longer 
actively pursuing a case against these individuals, the instigation of 
their prosecution certainly sent a troubling signal.
    NCSJ and other leading Jewish organizations have maintained a 
steady, productive dialogue with Baltic officials on these issues of 
concern. We will continue to press for their resolution, and for the 
governments to address issues such as community restitution and 
Holocaust education.
    Mr. Chairman, the fight against anti-Semitism in the former Soviet 
Union today presents a complex picture, with both bright and dark 
spots, and requires a careful and calibrated approach. Unfortunately, 
anti-Semitic incidents continue across the region, and official 
response to these hate crimes is too often inconsistent. At the same 
time, all governments in the region officially oppose anti-Semitism, 
and local Jewish communities are in general far better organized, 
resourced, and internationally connected than at any time in the recent 
past.
    I would like to offer the following recommendations to all the 
governments in the former Soviet Union, in the spirit of the 2004 OSCE 
Berlin Declaration. All countries must:

    1) Strongly condemn hate: Incidents of anti-Semitism, political and 
religious leaders that polarize society, and media outlets which 
propagate intolerance, must be strongly condemned to send a clear 
message that incitement to and acts of ethnic, religious, and racial 
hatred will not be tolerated;

    2) Enact adequate hate crimes legislation: To create an environment 
in which Jews and other minorities can live without fear, the successor 
states must enact hate crime and hate speech legislation and enforce 
existing laws for all citizens, including elected officials;

    3) Train local law enforcement: To properly combat anti-Semitism 
and extremism, government must empower local police forces. Police must 
be able to delineate between ordinary hooliganism and a crime motivated 
by bias or hate. A well-trained police force will better follow through 
on hate crime enforcement and investigations, leading to an increase in 
prosecutions, data collections, and dealing more sensitively with 
victims;

    4) Monitor and catalogue incidents: Cataloguing and reporting anti-
Semitic, xenophobic and bias-motivated activities enables prompt 
condemnation of such acts, increasing the chances that perpetrators 
will be apprehended swiftly.

    5) Implement region-wide programs on interethnic understanding and 
Holocaust education: This is the most effective way to combat the roots 
of popular or ``street'' anti-Semitism. Teaching children the values of 
tolerance and basic human rights from a very young age begins to stop 
the perpetuation of ignorance and negative stereotypes of Jews and 
other minorities.

    6) Reform the message of religious and media outlets throughout the 
region: Beyond the classroom and the government, the two other major 
sources of information in the FSU are the media and places of worship. 
Governments and non-governmental organizations need to work with 
leaders of these religious institutions and the editors of media 
outlets to ensure that they will spread a message of tolerance.

    NCSJ will keep engaging governments throughout this region strongly 
and persistently on these and other problematic areas in the human 
rights field. We will continue to make our position known in the United 
States, in the former Soviet Union, and in international fora.
    NCSJ and our member organizations are working hard to support the 
ongoing revival of former Soviet Jewish communities, and we look 
forward to continuing to work with Congress and the OSCE on these vital 
issues.
    Mr. Chairman, thank you for this opportunity and for the good work 
of this organization.

Mark B. Levin, Executive Director of NCSJ: Advocates on behalf of Jews 
in Russia, Ukraine, the Baltic States & Eurasia since 1992, is one of 
the organized Jewish community's leading experts on national and 
international political and legislative issues. Mr. Levin travels 
extensively throughout the former Soviet region on a frequent basis.

In 2008, Mr. Levin received the Soviet Jewry Freedom Award from the 
Russian Jewish Community Foundation, and the Order of Merit medal from 
Ukraine President Viktor Yushchenko. In 2006, Mr. Levin was honored for 
25 years of distinguished service with NCSJ.

Mr. Levin has served three times as a Public Member of the U.S. 
Delegation to meetings of the Organization on Security and Co-operation 
in Europe (OSCE), and served as a Public Advisor for the U.S. 
Delegation to the 2004 Berlin Conference on Anti-Semitism. He has also 
represented NCSJ at Democratic and Republican National Conventions 
since 1980.

Mr. Levin made his first trip to Russia in 1982, leading a 
Congressional delegation to meet with Soviet officials and Jewish 
activists. He organized the first International Parliamentary Spouses 
for Soviet Jews Conference in Washington, D.C. Mr. Levin was 
instrumental in creating the Congressional Coalition for Soviet Jews--
one of the largest Congressional caucuses ever formed.

In 1987, as a member of the Summit Task Force, Mr. Levin was a key 
figure in organizing the Washington Mobilization on behalf of Soviet 
Jews which brought more than 250,000 people to the nation's capital on 
for the December 6 ``Freedom Sunday'' rally. In 2002, he again worked 
closely with the Conference of Presidents of Major American Jewish 
Organizations and other NCSJ member agencies to organize the massive 
April 15 ``National Rally for Israel.''

From 1987 to 1989, Mr. Levin served as Director of the NCSJ's 
Washington office. He has been a member of the organization's 
professional staff since 1980. Prior to coming to NCSJ, he worked for 
the American Israel Public Affairs Committee (AIPAC). Mr. Levin is a 
graduate of the University of Maryland.

                  Prepared Statement of Eric Fusfield

    Mr. Chairman,
    I would like to thank you for the privilege and honor of addressing 
the Commission on behalf of B'nai B'rith International and its more 
than 200,000 members and supporters in over 50 countries, including 
many states in the OSCE region. B'nai B'rith would like to thank 
Chairman Smith, Co-Chairman Cardin, and the other Commissioners for 
convening this hearing and for their strong leadership in addressing 
the serious problem of anti-Semitism.
    It has been 11 years since the outbreak of the second intifada in 
the Middle East and, subsequently, the start of a new wave of anti-
Semitism throughout the OSCE region and around the world. This spread 
of hatred has resulted not only in widespread attacks against Jewish 
communities, but in a proliferation of anti-Semitic propaganda, much of 
which is directed against the State of Israel.
    Tragically, the demonization and delegitimization of the Jewish 
state has become a daily occurrence, as Israel's enemies repeatedly 
accuse it of being a Nazi-like occupier and an apartheid state that 
disenfranchises the Palestinians. Falsehoods about Israel are repeated 
so often that they become widely accepted in the popular culture and 
sometimes impact government policy. The effort by Israel's relentless 
critics to denigrate the Jewish state is not only evidence that anti-
Semitism is alive and well 66 years after the Holocaust--this new 
variation of the world's oldest social illness actually poses a 
security threat to the Jewish state by intensifying its international 
isolation.
    Over the past decade, the OSCE has taken up the urgent struggle 
against rising anti-Semitism. High-level conferences in Vienna in 2003 
and Berlin in 2004, as well as later conferences in Cordoba, Bucharest, 
Astana, and Prague have focused a needed spotlight on this and other 
forms of intolerance. One can feel encouraged by the many positive 
developments that have resulted from these gatherings, even though much 
more work remains to be done.
    The historic 2004 Berlin Declaration, which provided a series of 
important recommendations for governments to follow in combating anti-
Semitism, specifically addressed the growing problem of anti-Semitic 
attacks being committed by opponents of Israel's policies. The passage 
stating that ``international developments or political issues, 
including those in Israel or elsewhere in the Middle East, never 
justify anti-Semitism'' still represents a crucial stance by the OSCE 
against attempts by opponents of Jews or Israel to rationalize their 
hatred.
    Permanent Council Decision No. 607, which preceded the Berlin 
Conference, and Ministerial Decisions Nos. 12-04 and 10-05, which 
followed it, represent vital affirmations of the OSCE's commitment to 
fight anti-Semitism and related forms of racism and xenophobia. That 
pact has been bolstered by the creation of ODIHR's indispensable 
tolerance and non-discrimination unit, which carries out this important 
work each day and which includes an expert advisor on anti-Semitism, 
and by the appointment of the Chairman-in-Office's three personal 
representatives on combating intolerance.
    While much has been done to fight anti-Semitism in the past decade, 
much work remains. The need for practical and effective strategies to 
combat and defeat this pathology is still crucial. To this end,

    <bullet>  The OSCE's Ministerial Council should formalize the 
scheduling of conferences on anti-Semitism and other forms of 
intolerance at regular intervals. Over the next few years, we will have 
opportunities to mark the 10th anniversaries of landmark OSCE 
conference in Vienna, Berlin, and Cordoba. By scheduling review 
conferences at the appropriate intervals, we can take advantage of 
these anniversaries by challenging OSCE member-states to follow through 
on their commitments.
    <bullet>  We should widely promote, within the OSCE, the European 
Union Fundamental Rights Agency's comprehensive working definition of 
anti-Semitism. This document, whose principles have also been adopted 
by the U.S. State Department and the U.S. Civil Rights Commission, is 
tremendously useful in identifying current manifestations of anti-
Semitism to those who might not otherwise recognize them. It should be 
disseminated as widely as possible among public officials, educators, 
and journalists, among others.
    <bullet>  We must enhance the funding for ODIHR's Tolerance and 
Non-Discrimination unit, which has now become a fixed and integral part 
of the OSCE's work. We must enable the TND unit to sustain and expand 
its critical activities, which currently include educational programs 
on anti-Semitism in 14 countries. At least two more countries may soon 
be added to that list. TND would like to adapt those materials to an 
online format to make them more readily accessible, but this will 
require increased support from member-states.
    <bullet>  Security for Jewish communities must be enhanced. In some 
cases additional money has been allocated to make this possible. But 
even where funding is not available, much can be done through the 
exchange of best practices, facilitated by the OSCE.
    <bullet>  The U.S. has a critical role to play in ensuring that the 
OSCE maintains its focus on anti-Semitism as a distinct phenomenon, 
even as some of the remedies used to address anti-Semitism may have 
broader application. I hope that Secretary of State Clinton will attend 
the OSCE Ministerial Conference in Vilnius next week, as expected, and 
that when she does she will specifically reference the problem of anti-
Semitism and the importance of the work of the three Personal 
Representatives and ODIHR's Tolerance and Non-Discrimination unit. Her 
doing so will illustrate the importance of keep attention focused on 
anti-Semitism at the highest levels.
    <bullet>  We must extend, for the foreseeable future, the terms of 
the three personal representatives on intolerance.
    <bullet>  Member-states must fulfill their reporting requirements 
with respect to hate crimes data. Fewer than 20 governments have done 
so until now.
    <bullet>  Finally, we must strongly reinforce the crucial principle 
declared at the Berlin Conference--That no political position, cause or 
grievance can ever justify anti-Semitism--and make clear that the 
demonization and delegitimization of the Jewish state is often none 
other than a pretext for the hatred of Jews themselves.

    Among the many recommendations and commitments by OSCE member-
states that remained to be adequately implemented are government 
support for anti-hate programs; assistance in facilitating the 
prosecution of anti-Semitic crimes; and the promotion of academic 
exchange and educational programs. Furthermore, there must be follow-up 
in the areas of legislation; law enforcement; education; media; and 
general monitoring of anti-Semitic hate crimes. Progress in these 
spheres will require a continuation of the collaborative effort of 
friendly countries and NGOs in order for the promise of Berlin to be 
realized in a serious way. Education ministers and justice ministers, 
for example, should regularly meet in multilateral forums to develop an 
ongoing form of cooperation on matters related to anti-Semitism and 
hate crimes. And as OSCE member-states create legislation, they should 
increasingly call on the experience of NGOs to assist them in this 
effort.
    U.S. lawmakers have provided important leadership in these areas 
and their ongoing efforts should be strongly encouraged. The fact that 
we are joined at this hearing today by a U.S. Special Envoy for 
Monitoring and Combating Anti-Semitism is a positive result of the 
passage by Congress of the Global Anti-Semitism Review Act of 2004, 
which requires the State Department to report on acts of anti-Semitism 
around the world. Hannah Rosenthal is to be commended for her 
outstanding work in this post; Chairman Smith, Co-Chairman Cardin, and 
Representative Hastings should also be commended for their substantial 
contributions to the cause of combating global anti-Semitism through 
their participation in the OSCE process.
    Another significant development in this country occurred last year 
when the Department of Education issued a directive effectively 
applying Title VI of the Civil Rights Act of 1964 to the protection of 
Jewish students from anti-Semitism on campuses. This sent an important 
signal that some forms of even Constitutionally protected speech can 
amount to harassment and, when they do, the rights of the victims must 
be safeguarded. This action came at a time when Jewish students in this 
country are facing increased hostility related to virulent anti-Israel 
activism on university campuses; too often, the response from 
administrators and educators has been mere passivity.
    Last summer I had the opportunity to travel to Oslo with 
representatives of the Anti-Defamation League and the Simon Wiesenthal 
Center. In a meeting with leading Norwegian journalists, I confronted 
the editor of the daily paper Dagbladet with an editorial cartoon he 
had published depicting former Israeli Prime Minister Ehud Olmert as a 
concentration camp guard. His response was that the cartoon provoked a 
healthy public debate. Three months later, he ran a second piece by the 
same cartoonist, this one depicting Gaza as an Israeli-run 
concentration camp. When asked in an interview why he had used the 
flawed and inherently anti-Semitic Nazi analogy, the cartoonist 
replied, ``Because I think it fits.''
    Mr. Chairman, I think of my eight-month-old son Emanuel and imagine 
that he will graduate from college around the time that we mark the 
100th anniversary of the start of the Holocaust. With very few 
Holocaust survivors likely to be alive then, and with the lessons of 
history that much more faded, how much more difficult will it be for 
his generation to prevent such misuses of the Holocaust analogy and to 
promote an understanding that these distortions intensify the isolation 
of the Jewish state and undermine the security of the Jewish people?
    The implacability of the cartoonist and his editor is an unsettling 
reminder of the problem we continue to face and an illustration of why 
Elie Wiesel has described anti-Semitism as ``the world's most durable 
ideology.'' As we gauge the OSCE's progress in the struggle against 
anti-Semitism, we can draw reassurance from the positive accomplishment 
of the past eight years, even as we commit ourselves to sustaining and 
intensifying our focus.
    Mr. Chairman, thank you for your unstinting commitment to this 
issue. B'nai B'rith pledges its ongoing cooperation as we all confront 
the challenge of combating anti-Semitism together. The history of 
European Jewry in the past century is a tragic one. Let us be mindful 
of that history; let us speak out; let us use our influence; and let us 
act now. History demands nothing less from us.

    Eric Fusfield has served as Deputy Director of the B'nai B'rith 
Center for Human Rights and Public Policy since 2007 and as Director of 
Legislative Affairs for B'nai B'rith International since 2003. He is 
responsible for B'nai B'rith's policy advocacy and government 
relations, including formulating and promoting B'nai B'rith's agenda on 
Capitol Hill and representing the agency before Congress, the Executive 
branch, foreign governments, and international organizations. He also 
helps oversee B'nai B'rith's public policy operations in Washington, 
New York, Brussels, and its other offices abroad. He has met with 
numerous heads of government, foreign ministers, and ambassadors; has 
frequently been interviewed by radio programs and print publications; 
has testified before several government bodies in the United States and 
abroad; and has spoken at many conferences and other public events.
    Mr. Fusfield previously served as Assistant Director of European 
Affairs for the American Jewish Committee for five years. The 
international programs he coordinated in the agency's Washington, D.C. 
office involved diplomatic advocacy; outreach to international Jewish 
communities; research and analysis; and development of exchange 
programs. An attorney formerly in private practice, he holds degrees 
from Columbia University (B.A. in History), Oxford University (M.St. in 
Modern Jewish Studies), and American University (J.D./M.A. in Law and 
International Affairs). He also has studied in Sweden, Israel, and 
France. He has worked for several different law firms and Jewish 
organizations in Washington, and has written articles for various 
publications.
    Mr. Fusfield was born in Hamburg, Germany and raised in the 
Washington, D.C. area, where he still lives. In 1999 he was awarded a 
Nahum Goldman Fellowship by the Memorial Foundation for Jewish Culture 
and in 2005 was named a Young Leader by the Atlantik Bruecke Institute 
of Germany. He is a former President of Beth El House, Inc., a non-
profit organization providing transitional housing for formerly 
homeless families in Northern Virginia.

                  Prepared Statement of Stacy Burdett

    Let me offer special thanks on behalf of the Anti-Defamation League 
and its National Director, Abraham Foxman, to Chairman Smith and all of 
the Commissioners for holding this hearing today and for the many 
hearings, letters, and rallying cries that have kept this issue front 
and center. Your commitment to the fight against anti-Semitism and your 
determination to move from concern to action, inspires and energizes 
all of us.
    The history of the Jewish people in the OSCE Region is fraught with 
examples of the worst violations of human rights--forced conversions, 
expulsions, inquisitions, pogroms, and genocide. The struggle against 
the persecution of Jews was a touchstone for the creation of some of 
the foundational human rights instruments and treaties as well as the 
development of OSCE human dimension mechanisms.
    We focus today on anti-Semitism but we are mindful that in 
advancing the fight against anti-Semitism, we elevate the duty of 
governments to comply with broader human dimension commitments and to 
support ODIHR and its efforts. That is the core of ADL's mission: to 
secure justice and fair treatment for Jews in tandem with safeguarding 
the rights of all oppressed groups.
    Anti-Semitism is a primary concern for the Anti-Defamation League--
not just because we are a Jewish community organization, but because 
anti-Semitism, the oldest and most persistent form of prejudice, 
threatens security and democracy, and poisons the health of a society 
as a whole. The Anti-Defamation League was established in 1913 with its 
core mission to combat the then horrific discrimination against Jews in 
all facets of American life and the growth of anti-Jewish movements and 
organizations peddling their hate around the world. Over nearly a 
century, as part of the fight against anti-Semitism and all forms of 
bigotry, we have been at the forefront of the campaign to secure 
historic civil rights achievements, pioneered the development of model 
hate crimes laws, and developed anti-bias education models to address 
all forms of prejudice and to prepare each succeeding generation to 
live in an increasingly diverse society.
    As we have learned: where anti-Semitism flourishes, no minority 
group is safe.

    Nine years ago, we assembled in this hearing room and focused on 
three goals:

1. Identifying and calling attention to a stunning resurgence of anti-
Semitism.

2. Exposing the broad denial and inaction of too many Participating 
States.

3. Calling for measures to overcome the lack of awareness and to 
identify basic tools for the US and OSCE to respond.

    We came away from that hearing charged with re-engaging the 
Copenhagen Concluding Document's call for governments to confront a 
21st century anti-Semitism that crossed the globe in an instant. This 
hatred wore new masks and unfolded in a new era where taboos against 
anti-Semitism that existed after the Holocaust were eroded.
    You will hear today that the threat persists and follows the broad 
contours of the assessments in 2002. What we called then an ``upsurge'' 
proved to be more than a wave of incidents requiring emergency action, 
but an enduring reality that requires a comprehensive, 
institutionalized, and ongoing response.
    You will also hear today that the lack of political will by 
governments to take seriously their obligations is the single largest 
obstacle to progress.
    But the arsenal of tools to respond is starkly different than it 
was then. Think back to how we remarked that, in too many parts of the 
region, in the face of anti-Semitism, there was nowhere to call and no 
understanding of the problem. The gaps in the readiness and capability 
to quantify and to respond on the part of the OSCE institutions and---
even the US Government---were stunning.
    Terms like ``hate crime'' and ``data collection'' had hardly been 
uttered on the international stage until the 2003 Vienna conference on 
anti-Semitism, and they were incorporated into the Maastricht 
Ministerial Council Decision that year. Through that prism, the 
progress has been swift and the difference that nine years of continued 
advancement has made is very welcome.

OSCE: A Model IGO Approach to Fighting Anti-Semitism and Hate Crime

    When we first were confronted by the surge of anti-Semitic hate 
violence in the OSCE region, we were a community still scarred by the 
United Nations World Conference Against Racism in Durban and the 
realization that many in the international community did not view anti-
Semitism as a legitimate human rights issue. For Jewish communities 
targeted in ways they had not seen in decades, there was no one to 
call, no focal point of responsibility, and an international community 
largely in denial. Our groups came to Congress, and to the 
Administration with a simple request: if international bodies such as 
the U.N. could not address the human rights violation that is anti-
Semitism, let the OSCE, the largest regional security organization, 
with a body of commitments to fight anti-Semitism, convene a conference 
to address the racism and discrimination that is anti-Semitism.
    Since then, while progress in other international forums has been 
lagging and incremental, the OSCE has become a center of activity and 
progress. The OSCE has been a forum for forthright recognition of, and 
response to, anti-Semitism in what continues to be a poisonous and 
politicized environment. Key achievements include:

    <bullet>  Groundbreaking Ministerial Council Decisions, 
Parliamentary Assembly Resolutions and tolerance conferences recognized 
anti-Semitism and secured commitments for action by Participating 
States and for the OSCE institutions.

    <bullet>  The appointment by the Chair in Office of Personal 
Representatives on anti-Semitism, on Xenophobia and on Discrimination 
against Muslims has added political muscle to OSCE efforts to raise the 
profile of these issues.

    <bullet>  The creation of a specialized unit on tolerance which 
included a dedicated staff advisor on anti-Semitism

ODIHR Tools and Responses

    ODIHR has used the decisions and taskings in an expansive way to 
address challenges and expose gaps. ODIHR reports have examined 
critical questions:

    <bullet>  What are governments doing to combat hate crime? Where 
are the gaps?

    <bullet>  What are effective educational approaches to deal with 
anti-Semitism?

    <bullet>  How is the Holocaust commemorated across the Region?

    <bullet>  What role can governments, parliamentarians and public 
officials play in getting the most out of these commemorations?

    ODIHR has used its mandate and the findings of its reports to 
develop innovative approaches to fill those gaps. Today there is an 
impressive body of cutting edge program activity underway as part of 
the Tolerance and non-Discrimination program. The ODIHR's Toolbox for 
Combatting Hate Crime [Appendix I] is an impressive menu of tools that 
addresses directly precisely the problems, the policies, the target 
groups that we have identified repeatedly. Participating States can 
avail themselves of tools to:

1. Educate students about anti-Semitism, its past and present

    <bullet>  ODIHR teaching materials are adapted and customized to 
relate to the history, language and experience of students in nine 
countries--with four more versions under development now.

    <bullet>  Addressing Anti-Semitism: Why and How? A Guide for 
Educators givesteachers definitions and strategies they can use to 
tackle anti-Semitism in the classroom. It is available in 9 languages 
and currently being translated into Turkish.

    <bullet>  Make Holocaust education mandates and Holocaust Memorial 
Days an opportunity to recognize and address the reality that anti-
Semitism did not die with Hitler. Preparing Holocaust Memorial Days: 
Suggestions for Educators guides teachers on how to use remembrance 
days to address anti-Semitism today and underscore that anti-Semitism 
did not die with Hitler. It is available in 13 languages.

2. Help Governments Fulfill Commitments to Address Hate Crime

    <bullet>  The annual report on hate crime--Incidents and 
Responses--highlights the prevalence of hate and notes how governments 
and civil society are responding;

    <bullet>  Guide Participating States in drafting effective hate 
crime laws. Hate Crime Laws: A Practical Guide provides practical 
advice for lawmakers, community organizations and law enforcement for 
responding to bias crimes. Developed with input from an international 
team of judges, prosecutors, human rights officials, representatives of 
international non-governmental organizations, including ADL, the guide 
has already been used by ODIHR as the basis for legislative reviews and 
training sessions and has been translated into several languages.

    <bullet>  Train to build the capacity of Participating States' 
criminal justice systems and the law-enforcement officials, prosecutors 
and judges that staff them;

    <bullet>  Partner with and empower communities to respond and 
prevent hate crime. ADL was proud to work with OSCE's ODIHR in creating 
a resource guide for communities---``Preventing and Responding to Hate 
Crimes.'' The guide provides a menu of tools to help non-governmental 
organizations respond to hate crimes and to serve as a bridge between 
officials and the communities they serve.

    <bullet>  Support practical initiatives by civil society to monitor 
and report hate crimes and fill in the gap left by the unmet 
commitments of governments.

    So now, in the face of hate, there is a place to call, a locus for 
action, an intergovernmental partnership with civil society to 
spotlight and combat this problem. Institutions, including those of the 
United Nations, are partnering with ODIHR and using OSCE materials in 
areas like Holocaust remembrance and education.
    This is a model for how, in the relatively brief time of seven 
years, an organization can transcend a reticence to address the problem 
and catalyze a serious IGO initiative to combat not just anti-Semitism 
but also hate crimes and discrimination on a comprehensive basis.
    Through our engagement with the Helsinki Commission and the State 
Department and with ODIHR, the Anti-Defamation League has been 
gratified to be involved in putting the fight against anti-Semitism 
squarely on the OSCE human dimension agenda and to putting our 
experience to work in helping the OSCE develop a toolkit to fight anti-
Semitism that holds incredible promise and potential.
    The major challenge today is how to build more political will at a 
high level, so more governments are willing to use these tools to help 
meet their commitments.

What is Anti-Semitism?

    Anti-Semitism is a form of hatred, mistrust, and contempt for Jews 
based on a variety of stereotypes and myths, and often invokes the 
belief that Jews have extraordinary influence with which they conspire 
to harm or control society. It can target Jews as individuals, as a 
group or a people, or it can target Israel as a Jewish entity. 
Criticism of Israel or Zionism is anti-Semitic when it uses anti-Jewish 
stereotypes or invokes anti-Semitic symbols and images, or holds Jews 
collectively responsible for actions of the State of Israel. I have 
appended to my statement a brief description of anti-Semitism and the 
manifestations we are seeing today.

What is the Nature and Magnitude of the Problem?

    Appendix II of this statement notes the key themes of contemporary 
anti-Semitism, and Appendix III outlines select incidents that 
exemplify some of the trends discussed below. As a practical matter, 
anti-Semitism manifests itself in two primary areas: public discourse 
and incidents of harassment, vandalism and hate violence. As such, 
while anti-Semitism can require distinct responses, a number of the 
recommendations we have to fight anti-Semitism are also components of a 
comprehensive hate crimes response strategy.

The Data Deficit

    The first question you should have is: what is the scope and 
magnitude of anti-Semitism today? The answer to that question points to 
a key obstacle. There is a massive data deficit across dozens of 
countries that do not monitor or document anti-Semitic incidents.
    The obstacles to comprehensive data collection by police--and the 
disincentives to reporting for victims of these crimes--are 
significant. Some of the most likely targets of hate violence are the 
least likely to report these crimes to the police. But we have focused 
on data collection, because it is the essential jumping off point for 
prevention and response. Counting these crimes requires defining anti-
Semitic hate crimes and training police to recognize and understand 
them. Where there is data, there is awareness; where thhere is 
awareness, there is action.
    We first called for data collection on anti-Semitism in this room. 
Those calls, amplified by then New York Mayor Rudolph Giuliani at the 
first OSCE conference on anti-Semitism in Vienna in 2003, culminated 
that same year in ODIHR being tasked by the Maastricht Ministerial 
Council with serving as a ``collection point'' for incidents of anti-
Semitism and responses.

What ODIHR's Report Shows

    ODIHR has done a great service by fulfilling a charge that is 
essentially passive in nature and using it to highlight challenges and 
create tools advocates can use to urge progress.
    The annual report, Hate Crimes in the OSCE: Incidents and 
Responses, is a straightforward presentation of available information 
on anti-Semitic incidents and the actions governments are taking in 
response. While compiling available data on incidents provides only a 
limited view of the actual prevalence of anti-Semitism, presenting hard 
information about current government policies and actions is a useful 
measure of how governments are responding and how seriously they are 
addressing problems.
    The ODIHR report lays bare for us to see which countries are 
fulfilling their commitments, beginning with the first step of 
monitoring anti-Semitism in their country. The report documents whether 
and how their laws and policies address crimes motivated by anti-
Semitism and which governments share this information with ODIHR and 
with the public.
    While the ODIHR effort is not aimed at judging governments and 
their performance, it lifts the veil on what governments are doing and 
allows advocates to make their own assessment. For the last three 
years, the Anti-Defamation League has partnered with Human Rights First 
to convert ODIHR's information into a scorecard which rates the 
performance of OSCE Participating States in specific areas of 
monitoring and addressing hate crimes. The report assesses the 
performance of Participating States not based on where incidents occur, 
but by the policies and procedures they use to respond---for which they 
have direct responsibility.
    This is an important barometer by which we measure the performance 
of governments. So, seven years after Ministers stood in Berlin with 
great fanfare and committed to gather data on anti-Semitism and hate 
crime, only four of the 56 OSCE Participating States actually submitted 
information to ODIHR on anti-Semitic incidents for this year's hate 
crime report.
    While monitoring efforts by non-governmental organizations may only 
provide a limited picture, it is meaningful that the ODIHR augments the 
government-supplied data with information provided from NGOs and 
documented in the media. So the ODIHR report makes clear that the 
absence of official data certainly does not signify a lack of anti--
Semitic incidents in a given country. The ODIHR report noted that, in 
26 of the countries where no data on anti-Semitism was submitted, a 
number of anti-Semitic incidents were reported by media, Jewish 
communities, or other non-governmental sources like the Tel Aviv 
University's Stephen Roth Institute.

The Increase of US Reporting

    We worked together, Congress and NGOs, to strengthen US reporting 
to fill the data deficit, because we understood that, regardless of 
What the OSCE and other governments might do, US reporting on anti-
Semitism as a human rights and religious freedom issue is an 
indispensable tool in spotlighting the problem and a tool for US 
diplomacy. As with any reporting which originates in embassies around 
the world, US reporting on anti-Semitism has varied from place to 
place. We were enthusiastic about the introduction of the Global Anti-
Semitism Awareness Act of 2004 to call for State Department efforts to 
improve their reporting and their engagement.
    As a result of the enactment of the law, first introduced by 
Chairman Smith and others, US embassies are mandated to seek out 
information on trends in anti-Semitism as part of their core human 
rights and religious freedom monitoring function. The increased 
reporting is accompanied by increased awareness and enhanced engagement 
by America's diplomats.
    The impact of this routinized and required scrutiny is evident in 
the reports themselves. The number of countries in which the State 
Department is documenting incidents of anti-Semitism has more than 
doubled. You see a similar jump in reporting when you look just at OSCE 
Participating States as a group.

 
------------------------------------------------------------------------
                 Country Reports
Country Reports   Citing  Anti-     Incidents of        Anti-Semitism
   on  Human     Semitism or its   Anti- Semitism     Reported in  OSCE
     Rights          Absence          Reported      Participating States
------------------------------------------------------------------------
      2002               30                30                  30
------------------------------------------------------------------------
      2010              192                62                  38
------------------------------------------------------------------------

    But mandating reporting is not sufficient to make a difference. The 
reports are only one indicator of how the issue of anti-Semitism has 
growing recognition and presence across the private and public 
diplomacy instruments in the State Department. The Special Envoy 
position, also created by the law, provides an invaluable platform to 
strengthen the reporting as well as the US response. ADL has 
consistently pressed for the fight against anti-Semitism to be a part 
of US policy and for the response to employ the full array of US policy 
and diplomacy mechanisms. Continued support for a strong Special Envoy 
will ensure that the US maintains a specialized focus on anti-Semitism 
and a dedicated effort to mobilize the arsenal of US diplomatic tools 
to respond.
    The Special Envoy has instituted expanded training on anti-Semitism 
in the State Department's Foreign Service Institute to give diplomats 
the understanding and tools to recognize anti-Semitism and the 
contemporary forms it takes. The Foreign Service Institute course on 
``Promoting Human Rights and Democracy'' now includes training, led by 
ADL and the Special Envoy which is being integrated into the Foreign 
Service Institute's future courses, including in a new curriculum on 
religious freedom launched this summer. The ability to integrate 
training on the ODIHR definition, how to spot anti-Semitism and what 
the indicators mean for American diplomats serving in places as diverse 
as Saudi Arabia, Khartoum, Oslo, Kigali, Bogota, Tbilisi, Madrid, and 
Jakarta is a very meaningful step.
    ADL has been proud to partner with the State Department to share 
our training and subject matter expertise. This program models the best 
of what a public-private partnership can achieve.
    Indeed, the growth of the reporting reflects a greater awareness of 
what anti-Semitism is and how it threatens human rights. The State 
Department Country Reports on Human Rights have been increasingly 
attentive to the issue of how anti-Semitism in the public discourse 
puts Jews at risk, as well as how hostility toward Israel and Jews is 
intertwined. The importance of this kind of reporting also demonstrates 
the need for sustained FSI training on what is a delicate and nuanced 
issue.
    The enactment of the Global Anti-Semitism Awareness Act did more 
than create a position or ask for a report. It launched a process that 
is dynamic and evolving.
    For NGOs and communities, the Special Envoy and her staff have 
established their office as a real listening post and a focal point for 
bringing issues forward for high-level attention by Regional Bureaus or 
the Secretary herself. At a very practical level, the Envoy's office is 
a hub for information and advocacy inside the State Department and for 
Jewish communities as well through quarterly NGO strategy meetings and 
the regular flow of information back and forth through the Envoy's 
newsletter and new media tools.

Overview and Trends

    Violence against Jews and Jewish institutions has been documented 
mostly in Western Europe and North America--with large concentrations 
of reported incidents in the UK, France, the US, and Canada. These are 
also countries with large Jewish communities and also better government 
and NGO monitoring.

Everyday Insecurity, Harassment, Vulnerability

    The Anti-Defamation League is deeply involved in fighting 
discrimination today and, during our century of work, discrimination 
had been a major barrier for Jewish participation in the life of the 
countries in which they live, including the United States.
    Today, overt anti-Jewish discrimination is not the law of the land 
anywhere in the OSCE Region, nor is it the chief barrier to the full 
realization of the rights of Jews. Today, a Jew's right to live in 
security with dignity and freedom to express his/her identity is 
threatened by an atmosphere of intimidation and ugly acts of hatred. It 
manifests in the form of violent hate crimes, which target Jews and 
visible Jewish sites such as schools, synagogues, and cemeteries. It is 
the everyday harassment that prevents Jews in so many places from being 
able to express who they are, to freely wear yarmulkes, Stars of David, 
or even T-shirts bearing Hebrew lettering or slogans. Rabbis, parents, 
and students live with the knowledge that walking the streets bearing 
an identifiable Jewish symbol could put you at risk of violence, 
intimidation, and harassment. This is the unwritten rule many Jews are 
forced to live by.
    Stroll through some Jewish neighborhoods around Brussels and you 
will find bearded Jewish men wearing baseball caps instead of 
yarmulkes. Ask yourself what it would mean if in Baltimore or in 
Elizabeth NJ, your Orthodox Jewish constituents were forced to hide 
their traditional religious garb or symbols just to avoid harassment 
that has become commonplace.
    In so many communities, when we ask Jewish leaders about the nature 
and levels of threats, they discount stunning incidents of bias or 
harassment as simply a fixture of the landscape in which they live. 
Incidents and situations that would be scandalous in any American city 
often go unreported or are ignored.
    In Latvia, for example, during an interview in March on a major TV 
station, a neo-Nazi called for Jews to be shot and hanged from 
lampposts. The police opened an investigation, but inexplicably closed 
it several months later without bringing any charges.
    Just last week in Belgium, a 13 year-old Jewish girl was attacked 
and severely beaten by five schoolmates of Moroccan origin, who 
repeatedly called her a ``dirty Jew'' and told her to ``go back to her 
country.'' According to the Central Council of Jewish Organizations of 
Belgium, the police did not consider it an anti-Semitic incident. 
Except for one Jewish member of parliament, no public figure condemned 
the attack.
    This is part of the routine calculus of trepidation and caution 
that Jews must navigate. This is impossible to measure, but it is 
possible, indeed vital, to address. Governments must meet their 
commitment to keep Jews and all their inhabitants safe from 
discrimination and hate violence.
Anti-Semitic Hate Linked to Demonization of Israel
    Expressing disagreement with Israeli action through violence 
against one's Jewish neighbor or the Jewish community is untenable and 
a violation of rights. Yet, successive reports by both Inter-
Governmental and Non-Governmental Organizations note that there is a 
direct link between flares of Israeli-Palestinian tensions and a spike 
in anti-Semitic hate violence.
    When Israel has taken action to defend its citizens from attacks 
from Gaza or Lebanon, we have witnessed Jews around the world also 
coming under attack. Following events like Operation Cast Lead in Gaza, 
we saw anti-Israel rallies and demonstrations in Europe and the US 
become scenes of anti-Semitic rhetoric and imagery. Jews were beaten on 
the street. Synagogues were fire-bombed. The OSCE's Office for 
Democratic Institutions and Human Rights first documented this 
phenomenon during the 2006 conflict between Israel and Hezbollah: 
``Analyses and investigations of these incidents show that the 
projection of anti-Israel sentiment onto Jewish communities throughout 
Europe was a widespread pattern in 2006, with the conflict between 
Israel and Hezbollah frequently being used as a justification for anti-
Semitism.''

Anti-Zionism as a Mask for Anti-Semitism

    Not only are events in the Middle East a catalyst for anti-Semitic 
incidents, but anti-Zionism and anti-Israel animus are used as a thin 
disguise for anti-Semitism. The European Union's Fundamental Rights 
Agency in its Working Paper on anti-Semitism (April 2011) notes ``the 
use of anti-Zionism as a way to circumvent prevailing taboos that still 
exists around using old anti-Semitism.'' \1\ This follows on other FRA 
reports like one in 2008 that observed: ``Anti-Semitic activity since 
2000 is increasingly attributed to a `new anti-Semitism' characterized 
primarily by the vilification of Israel as the Jewish collective, and 
perpetrated primarily by members of Europe's Muslim population.'' \2\
---------------------------------------------------------------------------
    \1\  European Union Agency for Fundamental Rights, Antisemitism, 
Summary Overview of the situation in the European Union from 2001-2010, 
Apri1 2011, page 4.
    \2\  European Union Agency for Fundamental Rights, Antisemitism, 
Summary Overview of the situation in the European Union from 2001-2007, 
Jan. 2008, page 19.
---------------------------------------------------------------------------
    A prime example of this is playing out in Sweden where, in January 
2009, Malmo's mayor Ilmar Reepalu said ``we accept neither Zionism nor 
antisemitism'' in Malmo and that the Jewish community could help reduce 
tensions in the city by condemning Israeli actions. He then criticized 
the Jewish community for organizing a pro-Israel demonstration, since 
that ``could send out the wrong signals.'' \3\
---------------------------------------------------------------------------
    \3\  Cnaan Lipshiz, Swedish mayor calls both Anti-Semitism and 
Zionism forms of'unacceptable extremism', Ha'aretz, Jan. 29,2010, 
http://www.haaretz.com/hasen/spagcs/1146123.html.
---------------------------------------------------------------------------
    These incidents are more than just one day stories. Two and a half 
years after the Malmo incident--just this week--ADL received a report 
from the Swedish Committee Against Anti-Semitism (SKMA) that 
Palestinians continue to harass Swedish Jews in front of Malmo's 
synagogue. According to SKMA, neither the police nor the politicians 
have reacted adequately.
    Rabbi Menno ten Brink of Amsterdam summed up this sentiment: 
``Their reasoning goes something like this: Israelis are Jews, 
Palestinians are Arabs, so we Moroccan `Arabs' in the Netherlands are 
going to take on Dutch Jews.'' \4\
---------------------------------------------------------------------------
    \4\  Karel Berkhout, Anti-Semitism on the rise in Amsterdam, NRC 
Handelsblad (Netherlands), Jan. 26, 2010,http://www.nrc.nl/
international/article2468489.ece/Anti-
Semitism_on_the_rise_in_Amsterdam.

---------------------------------------------------------------------------
Equating Israel with Nazism and Jews with Nazis

    The use of Nazi imagery to portray the Jewish state is a perversion 
of memory, an insult to those who perished in the Holocaust, an affront 
to those who survived the horrors of Nazi Germany and to those who 
fought to defeat the Nazis.
    This widespread use of Holocaust and Nazi analogies goes well 
beyond legitimate criticism of Israel. Particularly dangerous and 
disturbing is the use of Nazi imagery to depict Israelis and 
comparisons of Israel's actions to the absolute evil perpetrated by the 
Nazis in the Holocaust. These comparisons and imagery are modern 
incarnations of the age-old myths of Jews as a satanic and conniving 
force which endeavors to take over the world.
    Caricatures that depict Israelis as Nazis appear with alarming 
frequency in the Arab press, on the web, and even in some mainstream 
European newspapers. ODIHR first documented this in its 2006 report 
which noted that, as part of organized and spontaneous anti-Semitic 
violence, ``direct reference to the Third Reich was often made, with 
Holocaust imagery being used as a rhetorical device to threaten Jews or 
to equate them with the perpetrators of the Holocaust.'' \5\
---------------------------------------------------------------------------
    \5\  OSCE Office for Democratic Institutions and Human Rights, Hate 
Crimes in the OSCE Region: Incidentsand Responses, Sept. 18, 2007, 
http://www,osce.org/publications/odihr/2007/09/26296_931_en.pdf.

---------------------------------------------------------------------------
    European media have also included clearly anti-Semitic caricatures.

    <bullet>  In Norway, one of the largest mainstream dailies, 
Dagbladet, published a cartoon in October that compared Gaza and 
Buchenwald.

    <bullet>  In Belgium, a major Flemish paper, De Morgen, published a 
cartoon of a Jew carrying two suitcases bursting with cash and the 
caption, ``Switzerland, the Promised Land.''

(See illustrations on following pages.)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Conspiracy Theories Gaining Acceptability in Public Discourse

    One of the constant themes of anti-Semitism is that, in every 
generation, conspiracy theories emerge that appeal to people from the 
fringes of society to the mainstream. In Sweden in 2009, a false and 
malicious report in a Swedish newspaper that Israeli soldiers abducted 
and killed Palestinians, including children, to harvest their internal 
organs mushroomed into a global conspiracy theory. Within months, the 
story generated several conspiracy theories about Jewish plots to 
harvest organs from victims around the globe, including from kidnapped 
Algerian and Ukrainian children and from Haitians pulled from the 
rubble of the earthquake that devastated their nation.
    The false conspiracy theory related to the Israeli rescue teams in 
Haiti reached all the way to the British House of Lords, where Baroness 
Jenny Tonge called on Israel to launch an investigation into the 
conduct of its military in Haiti. Tonge made the comment after an 
English-language Palestinian newspaper, The Palestine Telegraph, 
published an article that cited a report by Hezbollah's Al-Manar TV 
regarding the organ trafficking allegations. The Palestinian paper 
lists Tonge as one of two members of a ``board of patrons.'' Following 
the story, Tonge apologized. However, Nick Clegg, the leader of the 
Liberal Democrat party, called Tonge's comment ``unacceptable'' and he 
subsequently removed her from her position as party spokeswoman on 
health issues.
    The conspiracy theories have been reported as fact by Iranian and 
Arab media, including Syrian TV, Press TV, a state-funded Iranian TV 
news channel, and leading pan-Arab satellite news networks Al Jazeera 
and Al-Arabiya. In addition, newspapers in Jordan, Oman, Qatar, and 
other Arab countries published a series of editorial cartoons that 
depicted Israelis as vicious butchers who were gleefully cutting off 
the body parts of Arabs and trading in Palestinian organs.

Anti-Semitism in Politics and Political Discourse

    Of great concern is the return of political anti-Semitism in 
Hungary and Ukraine, home to two large Jewish communities. Jobbik is a 
major Hungarian party, Which won over 15 percent of the vote in the 
2010 parliamentary election. Its leaders have a long history of anti-
Semitic statements and used anti-Semitic campaign materials. In 
Ukraine, the anti-Semitic Svoboda party came in first place with 30-40% 
of the vote in the last regional elections in three western oblasts--
Lvov, lvano-Frankivsk, and Ternopil. In September, Svoboda's leaders 
organized an anti-Jewish protest, ``Uman without Hasidim,'' against the 
annual Rosh Hashanah pilgrimage of Hasidic Jews from around the world 
to a famous rabbi's grave in city of Uman.
    Complacency in the face of anti-Semitism by politicians is another 
concern. In Belgium, Laurent Louis, a member of parliament from the 
small MLD party, said that the Parti Populaire (PP) ought to change its 
name to ``PJB'' for ``Parti Juif de Belgique'' (Jewish Party of 
Belgium) for having Jewish members and for its support of Israel. Louis 
has stated on many occasions that Israel is no different from the Nazi 
regime. No major political figure denounced Louis' statement. Last 
year, European Union's Trade Commissioner Karel de Gucht, a former 
Belgian Foreign Minister, said in a radio interview, ``It is not easy, 
even with a moderate Jew, to have a rational conversation.'' The 
European Commission only said that it was a personal comment and took 
no action against de Gucht. He remains a member of the EU's highest 
political body.
    In Greece, the anti-Semitic LAOS party was invited into the current 
coalition government, despite past statements by its leaders that 
denied the Holocaust, blamed 9/11 on the Jews, and asserted that ``Jews 
have no legitimacy to speak in Greece and provoke the political 
world.''

Anti-Semitic Incidents in the US

    The good news is that we in the United States have continued to 
enjoy a period of relative calm, where the overall numbers are mostly 
unchanged and the incidents are isolated. But the bad news is that for 
all our efforts to educate, to raise awareness, and to legislate, anti-
Jewish incidents remain a disturbing part of the American Jewish 
experience.
    The FBI's just released annual report Hate Crime Statistics 2010, 
found that in 2010, the number of reported anti-Jewish crimes decreased 
slightly, from 931 in 2009 to 887 in 2010. However, the data revealed a 
very disturbing and persistent fact: two-thirds of the reported 
religion-based crimes in 2010 were directed against Jews and Jewish 
institutions--consistent with data over the past decade. The report 
details hate crimes by states, cities, towns, and colleges and 
universities. A chart which compiles and compares the FBI data from 
2010 to 2000 is included as Appendix IV at the end of this statement.
    Reporting is a challenge in the US as well. Eighty of the largest 
cities in the United States--all over 100,000 in population--either did 
not report data to the FBI in 2010 or affirmatively reported zero hate 
crimes to the FBI in 2010. The fact that law enforcement agencies in 80 
major cities either did not report hate crime data or affirmatively 
reported zero hate crimes in their jurisdiction should prompt questions 
and/or concern about the seriousness of their response to hate 
violence.
    The ADL Audit of Anti-Semitic Incidents, released last month, found 
that the number of anti-Semitic incidents increased slightly in 2010, 
to a total of 1,239 incidents, compared to 1,211 incidents reported in 
2009. This is the first increase reported by ADL since the numbers hit 
a record high in 2004, when the U.S. experienced 1,821 incidents of 
anti-Semitism. Since 2004, the total number of anti-Jewish incidents 
had declined incrementally each year.
    The 2010 Audit comprises data from 45 states and the District of 
Columbia, including official crime statistics as well as information 
provided to ADL's Regional Offices by victims, law enforcement 
officers, and community leaders and members. The Audit encompasses 
criminal acts, such as vandalism, violence and threats of violence, as 
well as non-criminal incidents of harassment and intimidation.
    Continuing a longtime trend, the states with the highest totals 
were those with large Jewish populations. The top four states were 
California, with 297 incidents in 2010, up from 275 in 2009; New York, 
with 205 incidents, down from 209; New Jersey, with 130 incidents, down 
from 132; and Florida, with 116 incidents, up from 90.
    According to the Audit, other states with double-digit totals in 
2010 include Massachusetts (64, up from 55 in 2009); Pennsylvania (42, 
down from 65 in 2009); Colorado (38, up from 14); Connecticut (38, up 
from 24); and Texas (37, up from 28).

Addressing Anti-Semitism and Anti-Israel Activity on College Campuses

    As both a civil rights and Jewish community organization, the Anti-
Defamation League works to address anti-Semitism and anti-Israel 
activity on American college campuses in a nuanced and thoughtful 
manner. The rights to free speech and academic freedom are sacred and 
deserve protection. At the same time, when anti-Israel activity crosses 
the line into anti-Semitism and expressions of support for terrorism, 
or when the Israel activity is so pervasive and severe that it creates 
a hostile environment for Jewish students, it is imperative to expose 
these incidents, speak out strongly in opposition, and urge university 
officials to issue condemnations. ADL also works with Hillel 
professionals and students to address these issues.
    ADL strongly welcomed the October 26, 2010 Dear Colleague 
guidelines issued by the U.S. Department of Education's Office for 
Civil Rights (OCR) to address bullying in schools.
    We believe members of the Helsinki Commission should be aware that 
the OCR Dear Colleague letter made clear that anti-Semitic harassment 
on campus can be prohibited by federal civil rights law. ADL had called 
for clarification of this issue in a March 2010 letter that the League 
helped coordinate with 12 other Jewish organizations. That letter 
called on the Department to interpret Title VI of the Civil Rights Act 
of 1964 to protect Jewish students from anti-Semitic harassment, 
intimidation and discrimination--including anti-Israel and anti-Zionist 
sentiment that crosses the line into anti-Semitism.
    Specifically, the OCR guidance makes clear that Title VI of the 
Civil Rights Act of 1964--which bars schools receiving federal dollars 
from discriminating based on ``race, color or national origin''--
protects Jewish students from anti-Semitism on campuses ``on the basis 
of actual or perceived shared ancestry or ethnic characteristics.'' The 
OCR guidance defines Title VI coverage as follows:

        While Title VI does not cover discrimination based solely on 
        religion, groups that face discrimination on the basis of 
        actual or perceived shared ancestry or ethnic characteristics 
        may not be denied protection under Title VI on the ground that 
        they also share a common faith. These principles apply not just 
        to Jewish students, but also to students from any discrete 
        religious group that shares, or is perceived to share, ancestry 
        or ethnic characteristics (e.g. Muslims or Sikhs).

    This clarification is particularly welcome in conjunction with 
ADL's continuing work to combat anti-Semitic bullying, harassment and 
bigotry on campus--including anti--Semitic intimidation of pro-Israel 
activists. At times, anti-Semitic conduct amounting to intimidation, 
harassment, and discrimination is manifested not by overt anti-Semitic 
expression, but instead by anti-Israel and anti-Zionist sentiment that 
crosses the line into anti-Semitism. The OCR guidance covers harassment 
that is ``sufficiently serious that it creates a hostile environment 
and . . . is encouraged, tolerated, not adequately addressed or ignored 
by school employees.''
    While a complete examination of the parameters of the Title VI 
coverage of anti-Semitic, anti-Israel, or anti-Zionist activities on 
campus is beyond the scope of this statement, it is critically 
important to distinguish between anti-Semitic activities on campus and 
anti-Israel activities. We certainly do not believe that every anti-
Israel action is a manifestation of anti-Semitism. But the League is, 
obviously, concerned about organized anti-Israel activity which can 
create an atmosphere in which Jewish students or faculty members feel 
isolated and intimidated.
    In addition, importantly, in recent years both the US Commission on 
Civil Rights (USCCR) and the State Department have tailored their own 
responses to the spread of this new stream of anti-Semitism that 
manifests itself as vilification of Israel. Both use definitions 
similar to the EUMC Working Definition of Antisemitism.
    In its short April 2006 ``Finding and Recommendations of the United 
States Commission on Civil Rights Regarding Campus Anti-Semitism,'' the 
USCCR stated:

        On many campuses, anti-Israeli or anti-Zionist propaganda has 
        been disseminated that includes traditional anti-Semitic 
        elements, including age-old anti-Jewish stereotypes and 
        defamation. This has included, for example, anti-Israel 
        literature that perpetuates the medieval anti-Semitic blood 
        libel of Jews slaughtering children for ritual purpose, as well 
        as anti-Zionist propaganda that exploits ancient stereotypes of 
        Jews as greedy, aggressive, overly powerful, or conspiratorial. 
        Such propaganda should be distinguished from legitimate 
        discourse regarding foreign policy. Anti-Semitic bigotry is no 
        less morally deplorable when camouflaged as anti-lsraelism or 
        anti-Zionism.

    As previously mentioned, ADL recognizes that much vehemently anti-
Israel and anti-Semitic speech can--and should--be protected First 
Amendment activity. This is as it should be in a nation that values 
freedom of speech. There is a high bar before any speech or conduct can 
amount to legally actionable harassment. Nevertheless, conduct that 
threatens, harasses, or intimidates particular Jewish students to the 
point that their ability to participate in and benefit from their 
college experience is impaired should not be deemed unactionable simply 
because that conduct is couched as ``anti-Israel'' or ``anti-Zionist.'' 
It is also the case that harassment or intimidation that holds Jewish 
students responsible for the acts of other Jews, or of Israel, is 
better understood as ethnic or ``national origin'' discrimination than 
as religious discrimination.
    Here are four examples of campuses on which a climate of persistent 
anti-Israel activity is concerning:

University of California--Irvine

    In recent years UC Irvine has become a center for anti-Semitic 
activity, much of it organized by the Muslim Student Union (MSU) which 
has been responsible for staging large events every spring featuring 
virulently anti-Semitic speakers. One such speaker, Amir Abdul Malik 
Ali, gave a speech in May 2010 titled ``Death to Apartheid'' in which 
he compared Jews to Nazis, expressed support for Hamas, Hezbollah, and 
Islamic Jihad (groups designated as Foreign Terrorist Organization by 
the United States Department of State) and called for the destruction 
of the ``apartheid state of Israel.'' MSU has also distributed radical 
and anti-Semitic literature through Al Kalima, UCI's Muslim student 
paper. This activity has created an environment in which many Jewish 
students do not feel safe to openly express their Jewish identity on 
campus. ADL has worked closely with UCI Chancellor Michael Drake to 
address this situation and create a more inclusive environment on 
campus, with moderate success so far.

Evergreen State College, Washington

    Jewish students and faculty have reported, both to ADL and to the 
media, that Evergreen State College does not always feel like a safe 
place for Jewish students. A November 2010 news article on 
MyNorthwest.com quoted Josh Levine (then president of the campus Hillel 
Foundation) saying, ``There are days I feel uncomfortable walking 
across campus alone because I wear a yarmulke on my head.'' In 2008-
2009, a pro-Israel organization was created that was almost immediately 
met with opposition, including students who set up ``mock checkpoints'' 
designed to imitate the Israel Defense Forces and forced students to 
show identification in order to continue onto campus. Five Jewish 
students reportedly left the college at the end of the school year 
because of this and other related harassment. Akiva Tor, Israel's 
Consul-General for the Pacific-Northwest region, has expressed his 
concern about this situation, noting that pro-Israel students do not 
feel comfortable expressing their opinion ``without being harassed.'' 
In May 2010, graffiti featuring hate messages and ``depicting the Star 
of David . . . and epithets and a Nazi `SS' symbol,'' were found near 
the school's library, according to the university's Bias Incident 
Response Team. The college notified ADL of the incident. In June, the 
student body passed a resolution supporting divestment from companies 
that profit from Israel. The decision passed with 79.5% of the vote.

Hampshire College, Massachusetts

    In the last several years, students at Hampshire College have 
reached out to the ADL to express their fears about the climate on 
campus. They have reported feelings of intimidation and of being 
silenced. In 2007-2008 when Jewish students on campus declined to sign 
a petition calling for divestment from the State of Israel, they were 
shouted at and called ``killers'' and ``murder lovers.'' In 2009, 
students reported feeling consistently intimidated, marginalized, and 
unwelcome on campus. Former College President Ralph Hexter was fairly 
responsive to the concerns of the Jewish students on campus. In 
February 2009 he attended a discussion with Jewish students to provide 
a forum for them to share their concerns and the following September, 
the ADL conducted a training for the administration on how to create 
and support an open environment on campus that is safe for all 
individuals and points of view. When President Hexter stepped down from 
his position in the fall of 2010, ADL again began to receive reports of 
students being harassed, bullied, and silenced on campus, including one 
student who received an anonymous death threat via e-mail. Following 
these incidents, ADL has continued to work with the university 
administration to address the situation.

Rutgers University, New Jersey

    Over the past couple years, allegations of a hostile environment 
for Jewish students at Rutgers have been raised. We believe university 
officials have been insufficiently attentive to this issue to date. For 
example, since May 2011, the Anti-Defamation League has been 
corresponding with Rutgers President Richard L. McCormick concerning 
anti-Semitic remarks attributed to a staff member. In December, 2010, 
this individual posted a comment on Facebook in response to a column 
written by a student in the student newspaper. In her Facebook posting, 
the staff member referred to the student as a ``Zionist pig'' and 
encouraged others to post comments on Facebook and write letters to the 
student newspaper. We believe that it is simply unacceptable for a 
university employee to publicly use such hurtful, derogatory, and 
poisonous language when referring to a student. We had called on 
President McCormick to initiate an investigation and pursue appropriate 
disciplinary action if the allegations are verified. To our knowledge, 
neither action has been taken. We are not aware of any investigation or 
follow up. In fact, it is our understanding that university officials 
have yet to interview the student involved or even attempted to contact 
him about the posting and its impact on him.

Incubator, Broadcaster: The Arab and Muslim World

    For decades, the Anti-Defamation League has focused on monitoring 
and exposing the anti-Semitism that has pervaded the Arab and Muslim 
print media. Since this Commission met in 2002 to examine the 
resurgence of anti-Semitism, there has been a growing awareness and 
understanding of the role that demonizing Israel and Zionism plays in 
fomenting hatred of and violence against Jews. This section focuses on 
examples of more traditional anti-Semitism but it is vital to recognize 
that anti-Zionism and the vitriolic hatred of Israel promoted in the 
Arab world draws on traditional anti-Semitic themes, fosters hatred of 
Jews and often veers into anti-Semitism itself.
    Our particular monitoring focus has been editorial cartoons, where 
we have found that the exaggerations intrinsic to caricatures all too 
often propagate age-old anti-Jewish stereotypes and myths.
    In Arabic newspapers across the Middle East one can find a steady 
stream of images depicting Jews and Israelis drawing on a series of 
incendiary themes:

    <bullet>  Jews and Israelis as stooped, hook-nosed and money-
hungry, as snakes (a particularly nefarious figure in the Arab world) 
bent on world domination.

    <bullet>  Israeli leaders are regularly depicted as Nazis, at the 
same time that other articles deny or diminish the Holocaust.

    <bullet>  Jewish caricatures shown manipulating the United States 
government, as the puppeteers behind the President, the Secretary of 
State and Congress.

    <bullet>  Other caricatures show the US and Israel as partners 
plotting to dominate the world, the United Nations, the Arabs, the 
Palestinians.

    <bullet>  Anti-Jewish conspiracies blaming Jews and Israel for 
things like the H1N1 virus outbreak, criminal organ harvesting from 
Palestinians, Algerians and Haitians (depending on the conspiracy 
theory).

    <bullet>  Jews are subtly scapegoated, depicted as fomenting and 
benefiting from internal conflict in the Arab world.

    Anti-Semitism is also broadcast on television across the Arab and 
Muslim world. Among the most infamous examples are two dramatic, multi-
part, mini-series which were broadcast during the Muslim holy month of 
Ramadan--the major ``sweeps'' period for Arab television. The Egyptian-
produced Horseman Without a Horse--aired on Egyptian state television 
in 2002, and the Syrian-produced Ash-Shatat--aired in 2003 on the 
Hezbollah owned Al-Manar satellite network. \6\
---------------------------------------------------------------------------
    \6\  Al-Manar has a long record of incendiary anti-Jewish, anti-
Israel and anti-American programming. It appears to be the source of 
the conspiracy theory that claimed that 4,000 Israelis were absent from 
their jobs at the World Trade Center on September 11, 2001, thereby 
implying that Israel was in some way behind the attack. The story was 
posted on its Web site on September 17, 2001 and picked up by 
extremists around the world. It has been banned from broadcasting 
several European countries and the United States.
---------------------------------------------------------------------------
    Horseman featured base stereotypical depictions of Jews living in 
nineteenth century Egypt plotting to take over Palestine, the Middle 
East, and the entire world, guided by the infamous anti-Semitic 
forgery, The Protocols of the Elders of Zion. Ash Shatat was saturated 
with horrifying stereotypes of Jews, references to the Protocols, and 
included a shocking dramatization of a rabbi slitting a Christian 
child's throat to drain blood to make matzah. In both dramas, Jews were 
presented as conspiring, violent, evil, and manipulative characters who 
would quickly betray their native country and even their community for 
their own interest.
    Organizations monitoring major Arab satellite and state-run 
television networks and television stations affiliated with the 
Palestinian Authority and Hamas, have documented anti-Jewish statements 
and characterizations permeating news programs, religious broadcasts 
and documentaries. Recent examples include:

    <bullet>  Iranian television regularly broadcast speeches by 
Iranian leaders, such as President Ahmadinejad, questioning the 
Holocaust, and talk shows featuring infamous Holocaust deniers.

    <bullet>  MEMRI (The Middle East Media Research Institute) released 
video of a January 2010 program on Syrian Television alleging that 
Israeli rescue workers in Haiti were harvesting the organs of 
earthquake victims for trafficking. In the panel discussion, Dr. Jassem 
Zakariya, Professor of International Relations, Damascus University, 
states:
        ``Of course, when we watch the scenes in this fine report, 
Shakespeare immediately comes to mind . . .
        Moderator: Shylock . . .
        Dr. Jassem Zakariya: Shylock, yes. As we see, the Jew has not 
changed--especially the Zionist Jews, who are now gathered in the so-
called `Israel,' which is the largest concentration in history of war 
criminals, who committed crimes against humanity. This is how they will 
be remembered if they continue with this.'' \7\
---------------------------------------------------------------------------
    \7\  The Middle East Media Research Institute, Syrian TV and Organ 
Transplant Experts: Israel Reminiscent of Shylock, Engages in Organ 
Trafficking in Haiti and Worldwide, Jan. 27, 2010, http://
www.memritv.orglclip/en/2370.htm.

    <bullet>  Al Aqsa TV, the Hamas-run television station, incites 
hatred of Jews and Israelis. The station, directed by Palestinian 
Legislative Council member Fathi Ahmad Hammad, began broadcasting in 
the Gaza Strip in January 2006. Much of Al Aqsa TV programming that 
glorifies violence is geared towards children, including music videos. 
In April 2007, the show ``Tomorrow's Pioneers'' featured a Mickey 
Mouse-like character, Farfour, promoting a message of radical Islam, 
anti-Semitism and hatred for the West. Farfour encouraged comments from 
children such as a call to ``annihilate the Jews.'' On April 3, 2009, 
Hamas' Al Aqsa TV broadcast a play that included the ancient blood 
libel of Jews using blood for religious rituals. The play, ``The House 
of Sheikh Yassin'' was performed at the Hamas-affiliated Islamic 
University in Gaza City, featured the character of an ultra-orthodox 
Jewish father. According to a translation by the Intelligence and 
Terrorism Information Center at the Israel Intelligence Heritage & 
Commemoration Center, the father declares: ``We Jews hate Muslims. We 
like to kill Muslims. We Jews drink the blood of Muslims and Arabs.'' 
He then turns to the audience and asks, ``Are you Arabs? Are you 
Muslims? I hate you. I hate you for the sake of [our] God's will.'' 
Later, the father says to his son, ``Shimon, I want to teach you some 
things: first of all, you have to hate Muslims.'' Shimon answers, ``I 
don't like them, I hate them.'' The father continues, ``You have to 
drink Muslim blood. We have to wash our hands in Muslim blood'' [in the 
context of Jewish ritual hand washing before prayer], and adds, ``We 
have to conspire against Arabs and Muslims to satisfy God. We will 
destroy the Arabs and the Muslims.'' \8\
---------------------------------------------------------------------------
    \8\  Intelligence and Terrorism Information Center at the Israel 
Intelligence Heritage & Commemoration Center, Thehate industry: Hamas 
incorporates crude anti-Semitism into its battle for hearts and minds, 
Apr. 8, 2009, http://www.terrorism-info.org.il/malam_multimedia/
English/eng_n/html/hamas_e069.htm

    <bullet>  Sermons by Muslim clerics broadcast on stations across 
the region are peppered with anti-Semitic accusations and references. 
For example, a MEMRI transcript of a speech by Egyptian cleric, Ahmad 
'Eid Mihna, broadcast in January 2010 on Egypt's Al-Shabab TV in which 
he stated: ``The history of the Jews shows that they are against any 
reform movement in the world. Any reformer, 
Muslim or not, will be attacked by the Jews. The Jews are like that. 
They thrive only on civil strife, on the selling of arms, on usury, on 
whorehouses, and so on . . . Jews will be Jews--everywhere and always. 
Their innate characteristics include lying, deceiving, the practice of 
usury, and the selling of arms. 
Even when it comes to our brothers in Hamas--may Allah grant them 
victory--their number one source of weapons is the Jews. They buy 
weapons from Jewish traitors.'' \9\
---------------------------------------------------------------------------
    \9\  The Middle East Media Research Institute, Egyptian Cleric 
Ahmad 'Eid Mihna: The Jews Are Behind Misery, Hardship, Usury, and 
Whorehouses, Jan. 10,2010, ht1Jl://www.memritv.org/clip/en/0/0/0/0/0/0/
2409.htm.

    <bullet>  The most recent State Department Country Report on Human 
Rights in Saudi Arabia noted the anti-Semitism propagated by imams like 
the broadcast on Al Jazeera of Saudi cleric Khaled Al-Khlewi referring 
to Jews as ``treacherous, disloyal, deceitful, and belligerent by 
---------------------------------------------------------------------------
nature.''

The Arab Spring Climate

    The impact of decades of these demonizing depictions on generations 
of Arabs cannot be discounted. While reading the morning newspapers or 
watching television with their family, many in the region have only 
encountered Jews as images of evil, threatening, subhuman figures to be 
feared, hated and fought against.
    Compounding this problem is the instantaneous, global transmission 
of these images via the internet and satellite television, from the 
Middle East to Europe, Africa, Asia, and the United States, reaching 
and potentially radicalizing a much larger audience.
    In the era of the ``Arab Spring,'' we have seen new manifestations 
of anti-Jewish demonization. In Egypt, the Muslim Brotherhood, and its 
political party, the Freedom and Justice Party, which is expected to 
play a major role in the country's political future, has espoused 
militant anti-Semitic and anti-Israel messages at political rallies, 
and in their media. For example, a November 24, 2011 article in in the 
Brotherhood's Arabic language newspaper, Risalat al Ikhwan reads: 
``[Muhammad] held treaty after treaty with the Jews . . . which the 
prophet and the Muslims adhered to faithfully, while the Jews breached 
all treaties. Then began the epic stories of jihad and fighting to 
protect the message [Islam] from the enemies . . . ''
    Anecdotally, we have heard of Western journalists being physically 
attacked on Cairo streets and accused of being Jews and Israelis.
    We know well the connection between charged rhetoric and violent 
action. Incitement can create an environment conducive to, and 
accepting of, violence and terrorism. We have also seen that where Jews 
are scapegoated and demonized, incendiary anti-American rhetoric 
flourishes as well, inviting extremists to step in with violent action.
    An Egyptian born in 1979 at the time of the signing of the Camp 
David Accord, the peace treaty between Israel and Egypt, and going to 
the polls this week, has lived an entire life in the era of peace 
between Israel and Egypt. Yet, given the images in the media and other 
influences in society, it is more likely than not that this Egyptian 
has incorporated the age-old anti-Semitic canards about Jews and 
Judaism into his or her world view. He or she has also been educated to 
believe anti-Semitic conspiracy theories--told that Jews introduced 
AIDS to Egypt; that Israel developed a special gum sold in Egypt that 
promotes promiscuity among young Egyptian girls; even a claim in the 
Egyptian weekly Al-Usbu' that Israel was responsible for a tsunami as a 
result of an Israeli nuclear underground test that was conducted in the 
Indian Ocean. Given these ingrained prejudices, this Egyptian, more 
likely than not, does not understand or support Egypt's diplomatic 
relationship with the Jewish state, which has brought stability to the 
region, and great benefits to both countries. Particularly at this time 
of turmoil and transition in Egypt, when rejecting the peace treaty 
with Israel has become an obligatory political position and the 
messages from the dominant political force, the Muslim Brotherhood, 
demonize Jews and Israel, these attitudes will undoubtedly have great 
consequences Egypt's policies towards, Israel and the United States, 
and thus on regional stability.

Official Responses Across OSCE: Fear, Denial, and Ambiguity

    As a community, we have had meaningful access and opportunity to 
raise the issues with leaders at the highest levels in most places 
where Jews are targeted and there are examples of leadership that have 
made a difference. In both France and the UK, anti-Semitic attacks 
reached all-time highs in 2009, yet we commended both governments for 
their serious and sustained responses, including unambiguous 
condemnations by President Nicolas Sarkozy and then-Prime Minister 
Gordon Brown. However, all too often, even where there are documented 
cases or examples of systemic public incitement, leaders at the highest 
levels of government often dismiss them as ``isolated.'' Other times, 
when a case is being investigated, we are told that since a process is 
underway, the leadership must not comment on an ongoing investigation 
or trial. While prosecution of anti-Semitic crimes is vital, the 
minority of cases that make it to prosecution are resolved many months 
or even years after the community has suffered the impact of the 
incident. Further, even where there are such laws, the lack of faith of 
targeted groups in the police or judicial system makes victims reticent 
to even initiate action.
    In many places there are laws prohibiting anti-Semitic violence or 
discrimination, but a law is not enough if the political leadership 
does not lay down a marker affirming that anti-Semitic accusations and 
conspiracy theories have no place in a country that respects Jewish 
rights, minority rights, human rights. We in the U.S. attach great 
importance to the value of leaders condemning anti-Semitic hate speech 
and believe that it can help protect vulnerable communities more than 
some legal remedies available in other countries.
    Even where hate speech is prohibited by law, judicial remedies in 
no way substitute for a swift statement from a political leader that 
sends an unequivocal message to extremists, reassuring the community 
that they are a valued part of their country, and that their rights 
enjoy the support and backing of the government.
    The key is to overcome the denial and defensiveness that prevents 
solution
-oriented action. Time and again, governments respond to ADL reports 
and even our polling data with one reflexive response: ``The data is 
flawed because my country is not an anti-Semitic country.'' We remind 
governments that the real measure of a society is not the presence of 
anti-Semitic attitudes or the documentation of incidents but rather how 
robust a response and prevention mechanism is in place to help the 
victims, to ensure that these incidents are investigated and 
prosecuted, and that the attitudes and rhetoric are rejected by the 
leaders.

Recommendations for Action:

    Governments bear the primary responsibility to ensure that Jews are 
afforded the same rights as others to live in security and with dignity 
in their communities. If, in the past, the challenge was to combat 
state-supported anti-Semitism, the challenge now lies in the need for 
states to make good on their pledges to fight anti-Semitism, by 
mobilizing political will and utilizing the human rights and anti-
discrimination instruments related to anti-Semitism and intolerance.
    Below are recommendations for governments to institutionalize a 
systemic, comprehensive strategy.

What OSCE Participating States Can Do

    Start by using your own bully pulpit to speak out. Political 
leaders have the most immediate and significant opportunity to set the 
tone of a national response to an anti-Semitic incident. Nothing gives 
a greater sense of security than seeing anti-Semitism publicly 
rejected. This signals that the government takes seriously the right to 
live free of harassment. Even without hate crimes laws, where there is 
political will, where the police know anti-Semitism when they see it, 
when local and national officials marginalize and reject it, people are 
more secure.

    Lead by example and set a tone of civility. Political leaders 
should lead by examplein their own country and must never engage in 
divisive appeals that demonize any member of society based on race, 
ethnicity, sexual orientation, gender, gender identity, or religion. 
When political leaders are determined to build consensus across party 
lines to demonstrate that some behaviors are beyond the pale, we see 
real change. We know in our own country the power that words have to 
shape, not just our political debate, but the environment in which 
targeted communities live.

    Zero tolerance for anti-Semitism in international forums. The 
action in the OSCE has shown that leaders can use international forums 
to marginalize instead of to ``tolerate'' anti-Semitism.

    Support the reappointment of the Personal Representative of the CiO 
on Anti-Semitism.

    Support ODIHR focus on anti-Semitism and ask for other countries to 
join the effort. The US should support the specialized work of the OSCE 
Office for Democratic Institutions and Human Rights (ODIHR) Tolerance 
and non-Discrimination Unit. But what does it say when most governments 
will come to an OSCE conference to condemn anti-Semitism, yet only the 
same two or three delegations come forward each time with support for 
education programs and other tools to combat anti-Semitism and hate 
crime?

    Enact inclusive hate crimes laws. The OSCE has developed guidance 
to establish a common framework for improving responses to hate crimes.

    Partner with communities and empower them to help address hate 
crime.

    Educate about anti-Semitism and empower students to reject and 
combat it. Anti-bias lessons which focus on the specific nature of 
anti-Semitism should be integrated into the curriculum and into after-
school activities. Education ministries should establish anti-bias 
teaching standards and model policies to protect students from school-
based anti-Semitic incidents and harassment. Schools should adopt 
formal written policies governing how teachers, administrators and 
security professionals identify and respond effectively to bias-
motivated bullying, violence, and harassment. The policy should include 
formal reporting and complaint procedures and facilitate cooperation 
between educators and law enforcement officials.

    Promote effective Holocaust remembrance and education. There is 
increased recognition that Holocaust education alone does not counter 
anti-Semitism and that effective programs must also address 
contemporary anti-Semitism as a separate subject.

    Utilize parliamentary forums. Many of the initiatives we have 
described were the product of Congressional hearings and inquiries like 
this one. The OSCE Parliamentary Assembly has mobilized some of the 
OSCE efforts. The All-Party Parliamentary Inquiry Into Antisemitism in 
the UK is also a model other parliaments could follow. Parliamentarians 
from different countries gathered in London in February 2009 for the 
founding Conference and Summit of the Inter-parliamentary Coalition for 
Combating Antisemitism, issued a ``London Declaration on Combating 
Antisemitism'' which any parliamentarian can endorse. A follow-up 
conference was held in Ottawa in November 2010, which led to the Ottawa 
Protocol on Combating Antisemitism of September 2011.

What the US Can Do

    Prioritize combating anti-Semitism on bilateral agendas. The US 
should let our allies know that addressing anti-Semitism and hate crime 
is part of our bilateral agenda. Special Envoy Rosenthal can play a 
role in putting a country's lack of compliance on the US agenda. 
Congress has a central role to play in promoting this emphasis both 
within the State Department and in your own bilateral contacts and 
outreach to foreign officials.

    Sustain support for the Office of Special Envoy. One of the primary 
reasons it is so important that Presidents Bush and Obama appointed 
Special Envoys to Monitor and Combat Anti-Semitism is because anti-
Semitism is a continuously mutating phenomenon that is not always easy 
to discern. As this testimony has set out, it sometimes must be 
addressed in unique ways and it requires the attention of someone 
experienced to have a particular focus on crafting a strategy to 
address it.

    Congress and the Administration should have visible contact with 
Jewish communities. While many embassies have deep and longstanding 
relationships with Jewish community activists, there are many 
communities which have never had contact with their local US mission. 
Outreach to Jewish communities is one way to facilitate data collection 
and connect Jewish communities with US resources and efforts.
    Elevate the Role of the US National Point of Contact on Hate Crime. 
The US is well poised to lend expertise and put forward programming 
initiatives as part of the OSCE discussion on hate crime. But that 
effort should engage hate crime experts who can put forward practical 
tools and initiatives. Although the US drove the creation of the OSCE 
hate crime initiative, the current list of the 56 National Points of 
Contact shows that the US is the only country that has designated an 
officer of its OSCE mission as its National Point of Contact on hate 
crime. While diplomats play a vital role in safeguarding and advancing 
our agenda on a day-to-day basis in Vienna, there is no question that 
the US would be well served by putting our best hate crime experts into 
this mix as so many of the other countries do.

    Combating anti-Semitism should be part of the full array of human 
rights and democracy programming, funding, and public diplomacy 
efforts. For example, the State Department's International Visitor 
Programs and other US-funded exchange and public diplomacy programs 
should reflect the growing US and international recognition of anti-
Semitism and of the problem of hate crime broadly. US assistance 
programs should fund prevention as well as response efforts. While part 
of the challenge is to institute legal norms and protections for 
victims of anti-Semitism, we also know that prevention efforts can head 
off tension, conflict, and violence that can erupt when anti-Semitism 
goes unanswered. US assistance programs could focus on public education 
campaigns to promote tolerance.

    The US must not demur from addressing anti-Semitism with Muslim and 
Arab leaders. In his Cairo speech, President Obama spoke directly to 
the Arab World about the centuries of persecution and anti-Semitism 
endured by the Jewish people. The President understood the challenge, 
that hatred of Jews is deeply rooted there and is poised to be part of 
the landscape for generations if it is not addressed. The instruments 
of US public diplomacy and President Obama's emissary to the 
Organization of the Islamic Conference should actualize the spirit of 
the President's statement in Cairo and seek ways to address the issue 
of anti-Semitism where it is needed most.

    Provide training and assistance to improve the policing and 
prosecution of anti-Semitism. US training and technical assistance 
programs, such as rule of law and judicial assistance programs and 
police training delivered through US International Law Enforcement 
Academies, are prime vehicles to reach governmental and law enforcement 
audiences around the world. We should not miss an opportunity to 
provide training on hate crime response, including legal tools, model 
policies, and training on investigating and prosecuting anti-Semitic 
crimes.

    Strengthen the fight against anti-Semitism and intolerance at home. 
Congress has been instrumental in advancing the fight against global 
anti-Semitism on the international stage. As legislators, each of you 
has the ability to also strengthen America's efforts to address and 
prevent anti-Semitism and hate crime here at home. The federal 
government has an essential role to play in helping law enforcement, 
communities, and schools implement effective hate crimes prevention 
programs and activities. We know of no federal anti-bias or hate crimes 
education and prevention programming that is currently addressing youth 
hate violence. Members of Congress should authorize federal anti-bias 
and hate crimes education programs to help schools and communities 
address violent bigotry. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Appendix II: What is Anti-Semitism?
Anti-Semitism is a form of hatred, mistrust, and contempt for Jews 
based on stereotypes and myths. It can invoke the belief that Jews have 
extraordinary influence with which they conspire to harm or control 
society. It can target Jews as individuals, as a group or a people, or 
it can target Israel as a Jewish entity. Criticism of Israel or Zionism 
is anti-Semitic when it invokes anti-Jewish stereotypes, symbols and 
images, or holds Jews collectively responsible for actions of the State 
of Israel.

Anti-Semitism has existed over many centuries and the negative 
stereotypes it draws on have taken hold in the popular culture and 
thought of many societies. It can take the form of hate speech, 
discrimination, or violence against people or property. It may target 
individuals or communities on small or large scales. The most extreme 
example of this was the Nazi's organized plan to exterminate the Jews 
through the Holocaust.

Various forms of intolerance--racism, xenophobia, anti-Semitism--share 
many elements in common. Stereotyping, seeing the victim as the other, 
are among these common elements. On the other hand, there are core 
characteristics unique to each type of hatred. In the case of anti-
Semitism, it resides in a matrix of three beliefs about Jews:

    1. They have almost mythical, overwhelming power;

    2. They are more loyal to an outside party than they are to their 
own country;

    3. They approach work or involvements, not merely as individuals, 
but rather in a cabal, in a conspiracy to achieve some sinister, 
Jewish-centric end.

This matrix is insidious and provides the fuel for a lethal form of 
hatred, political anti-Semitism. This belief system, when running 
rampant, created the justification for large-scale murders of Jews on 
the grounds that Jews were so poisonous that society had a right to 
defend itself in any way against this poison.

There is sometimes confusion around the term ``Semitic,'' which 
historically has referred to a language group that includes Arabic, 
Amharic, and Hebrew. ``Semite'' was a term that described a person who 
spoke one of these languages. Notwithstanding the traditional meaning 
of the word ``Semite,'' anti-Semitism in conventional English refers 
specifically to hatred of Jews.

The word ``anti-Semitism'' is generally attributed to Wilhelm Marr, who 
used the German term ``Antisemitismus'' in a book entitled ``The Way to 
Victory of Germanicism over `Judaism,' '' in 1879. Marr claimed that 
``scientific'' research into the characteristics of the Jewish ``race'' 
justified hatred for Jews. The same year his book was published, Marr 
founded a political party, ``The League of Antisemites,'' which 
campaigned for the expulsion of Jews from Germany. Just over half a 
century later, Adolf Hitler and the Nazi Party took this racial hatred 
for Jews a deadly step further when they exterminated six million Jews 
in what they called ``The Final Solution.''

There are two key points to understanding the origins of the word 
``anti-Semitism.'' The first is that ``anti-Semitism'' was popularized 
as a term not by Jews themselves, but by individuals and political 
groups who openly proclaimed hatred of the Jewish people. The second is 
that ``anti-Semitism'' in modern English refers solely to hatred 
directed against Jews. Some who express prejudice or hatred toward the 
Jewish people claim that they cannot be anti-Semites because they too, 
as speakers of a Semitic language, are technically ``Semites.'' This 
semantic argument that a speaker of a certain language cannot by 
definition hold prejudice against Jews detracts from the real issue and 
undercuts the potential for dialogue about ways to end hatred of all 
kinds.

Today, it is all too common to find anti-Semitism under the guise of 
extreme criticism of Israel or of Zionism, the founding nationalist 
ideology of the Jewish state. In these cases, criticism of Israel 
crosses the line into anti-Semitism when such criticism invokes age-old 
anti-Jewish stereotypes, or when Israel is singularly demonized.

Holocaust denial is a form of anti-Semitism that minimizes or denies 
the Nazi regime's systematic mass murder of six million Jews in Europe 
during World War II. Holocaust deniers suggest that Jews pulled off a 
scam of monumental proportions, compelling governments, media, and 
academia around the world to acknowledge a catastrophe that never 
really happened.

The most vexing issue raised by anti-Semitism is its constant presence 
throughout history, across different societies and cultures, as well as 
its continued existence in our own time. It's important to note that 
the presence of a substantial Jewish community is not a necessary 
condition for anti-Semitism to emerge. An anti-Semitic campaign 
launched by Poland's communist regime in the late 1960s was described 
by one scholar as ``anti-Semitism without Jews,'' because Poland's 
Jewish community, which numbered over 3 million before World War II, 
had already been decimated by the Nazi Holocaust and further depleted 
by the emigration of survivors. Today, the Arab and Islamic world is a 
major incubator of anti-Semitism towards Jews individually or as a 
collective, even though the Jewish population in these countries is 
nearly invisible.

The existence of anti-Semitism in societies where there are few or no 
Jews, and its evolution throughout history, demonstrates how deeply 
embedded anti-Semitism has been across different cultures and also why 
persecution has been a constant fear in Jewish life for centuries. 
Anti-Semitism has been compared to a virus which adapts to different 
conditions. As with a virus, when it comes to anti-Semitism, it is 
possible to identify both consistent elements and elements which, while 
borrowing from previous eruptions, are updated to suit a particular 
environment. Many of these elements--conspiracy theories, myths, mob 
violence and much else--recur throughout the history.

Raul Hilberg, an eminent historian of the Holocaust, telescoped the 
history of anti-Semitism like this: ``The missionaries of Christianity 
had said in effect: You have no right to live among us as Jews. The 
secular rulers who followed had proclaimed: You have no right to live 
among us. The German Nazis at last decreed: You have no right to live. 
The German Nazis, then, did not discard the past; they built upon it. 
They did not begin a development; they completed it.''
   Appendix III: Examples of Anti-Semitic Incidents Across the OSCE 
                           Region, 2010--2011
2010 Incidents
Austria
    July 30, 2010--Villach--Five teenagers between 17 and 19 years old 
vandalized a memorial for Nazi victims. The five were known by police 
to be members of a neo-Nazi group. The memorial, with the names of 
residents who were killed by the Nazis, has been repeatedly damaged 
since it was unveiled in 1999.
    March 5, 2010--Upper Austria--Vandals defaced the walls of the 
former Nazi concentration camp Mauthausen with anti-Jewish and anti-
Turkish slurs.
Belgium
    May 21, 2010--Brussels--An identifiably Jewish rabbi was walking 
down the street when a bucket of water was dumped on him from an 
apartment balcony.
    April 13, 2010--Brussels--A Molotov cocktail was thrown at a 
synagogue in the Anderlecht neighborhood. Neighbors put out the fire, 
resulting in only superficial damage.
    April 5, 2010--Antwerp--According to a complaint to the police, 
three women around 20 years old and of Arab descent yelled insults at 
Jewish pedestrians from a car. One woman reportedly got out of the car, 
grabbed a young Jewish girl by the throat, and threatened to kill her. 
When a young man tried to separate them, the other two women got out of 
the car, shouting anti-Semitic insults, and one hit the young man. The 
police arrived and restored order.
    April 1, 2010--Antwerp--A visibly identifiable Jew was accosted as 
he approached his car, parked on a street near a mosque, and told ``If 
we see you again, we'll kill you.''
    January 15, 2010--Antwerp--A Molotov cocktail was thrown at the 
main entrance of the Bouwmeester synagogue. Some burn marks were left 
on the wall near the door, but no other damage was reported. Police are 
investigating.
Bulgaria
    May 14, 2010--Sofia--A memorial to Soviet World War II soldiers was 
spray-painted with Stars of David and the phrase ``Occupiers from 
distant lands.''
Canada
    April 5, 2010--Gatineau, Quebec--Two students at Carleton 
University, including the vice-president of the Carleton University 
Students' Association, were allegedly harassed and chased by a group of 
men brandishing a machete and screaming anti-Semitic remarks in English 
and Arabic. The victims said they were assaulted outside of a bar by a 
group of ten men, who threatened and hit them. After running to a 
nearby parking lot, the assailants allegedly reappeared in a car, 
calling the students ``F***ing Jews'' and wielding a machete. As the 
students ran from the parking lot, one of the attackers threw the 
machete, narrowly missing them.
Czech Republic
    August 30, 2010--Prague--A swastika was drawn on the front stoop of 
the Jubilee Synagogue.
Denmark
    June 15, 2010-- Copenhagen--Tombstones were broken in the Jewish 
cemetery.
France
    October 11, 2010--Paris--A Jewish high school student had a sticker 
put on his back that read, ``I boycott the Israeli occupier.''
    October 3, 2010--Strasbourg--Swastikas and anti-Semitic graffiti 
were painted on the house of a Jewish doctor.
    September 29, 2010--Aubervilliers--A Jewish teenager on his way to 
a synagogue was attacked and robbed by several individuals, who said 
``Dirty Jew, I'm going to take out my knife'' and ``We Algerians are 
going to kill you.''
    September 13, 2010--Toulouse--A synagogue in a suburb of Toulouse 
was burglarized and ``dirty Jews'' was written on the ark housing the 
Torahs.
    August 24, 2010--Paris--An anonymous letter with a death threat and 
nine bullets was sent to the synagogue in Draney (a suburb of Paris 
where the Vichy government established a transit camp and from where 
65,000 Jews were deported to death camps). The death threat read, 
``dirty Jew, we're going to put nine bullets in each of you.'' 
According to reports, the letter also contained a swastika and an 
allusion to the Gaza flotilla, and a similar letter was received by a 
synagogue in Stains, another Paris suburb.
    August 17, 2010--Toulouse--A Jewish woman was accosted on a plaza 
by two men, who reproached her for buying food and not respecting the 
Ramadan fast. When the woman responded that she was Jewish, the two men 
called her a ``dirty Jew'' and hit her in the head, causing her to fall 
to the ground. A security guard who was present did not intervene. When 
police investigators later asked the guard why he did nothing, he 
responded that he was in a hurry to get home to break the Ramadan fast 
at sundown. The attack reportedly occurred at 7:30 p.m. Sundown on that 
day was at 8:55 p.m.
    August 3, 2010--Marmande--A Holocaust memorial in the town of 
Marmande, near Bordeaux, was vandalized. The monument, which lists the 
names of camps to which French Jews were deported, was spray-painted 
with ``lies,'' ``Zionism,'' and dollar signs. Nearby the same red paint 
was used to draw swastikas and ``France for the French!''
    July 29, 2010--Paris--Swastikas were spray-painted on several 
kosher shops and a Jewish school in the center of Paris.
    July 22, 2010--Melun--Anti-Semitic graffiti and swastikas were 
spray-painted on the front of the town's only synagogue and over the 
entire surrounding wall. The public prosecutor of the town, southeast 
of Paris, said that highest priority would be given to the 
investigation, as this was the first such attack in Melun.
    July 21, 2010--Wolfisheim--Twenty-seven graves were desecrated at a 
Jewish cemetery near Strasbourg.
    June 13, 2010--Nice--A group of young men of North African descent 
threw rocks at a Chabad rabbi while shouting, ``Jew murderers.''
    June 7, 2010--Paris--A man of North African origin walked up the 
aisle of a train, shouting, ``Are you a Jew? Are you a Jew?'' When he 
came upon a man whom he took for a Jew, he shouted, ``I don't like 
Jews! I'm going to beat you. Did you see what your cousins did in 
Gaza?'' He punched him in the face and threw him to the ground. The 
victim was hospitalized.
    June 4, 2010--Paris--Five students, ages 14 to 21, were subjected 
to anti-Semitic taunts and threats at a subway station in the Paris 
suburb of Bruney. Two men reportedly insulted them, yelled ``Death to 
you,'' ``Jews, we'll kill you all,'' and ``Fofana, Fofana'' (the name 
of the leader of the Gang of Barbarians who tortured and murdered llan 
Halimi in 2006). One reportedly showed a knife and made a sign of 
throat-cutting. After a student called the police, the men were 
arrested in a nearby supermarket.
    June 7, 2010--Metz--A Molotov cocktail was thrown at a Jewish elder 
care home; no damage was reported.
    June 6, 2010--Nice--A rabbi was insulted on the street and rocks 
were thrown at him, injuring his leg.
    April 30, 2010--Nimes--Three men, described as being of Arab 
descent, assaulted an 80-year-old Jewish man with tear gas in front of 
the town's synagogue and spray-painted ``F----the Jews'' on the wall. 
As of May 5, police have one suspect in custody and are searching for 
the two others. The attack was widely condemned, including by the 
Muslim Council of France.
    March 18, 2010--Marseille--``Jews are whores'' was spray-painted on 
the Ohel Yaacov synagogue.
    January 26, 2010--Strasbourg--Swastikas and anti-Semitic phrases 
such as ``Juden Raus'' (Jews out) were painted on more than 30 
headstones in a local Jewish cemetery. Some of the headstones were also 
damaged or overturned.
Germany
    August 28, 2010--Dresden--The door of a Jewish funeral home was set 
on fire, but quickly extinguished by firefighters after being alerted 
by a passing cyclist.
    August 4, 2010--Bocholt--Ten gravestones were vandalized at a 
Jewish cemetery with swastikas and other anti-Semitic slogans.
    June 22, 2010--Sahlkamp, Hanover--Members of a Jewish dance troupe 
were forced off stage during a neighborhood street festival, after a 
group of children and teenagers pelted the dancers with stones and used 
a bullhorn to scream anti-Semitic remarks. One of the dancers was 
injured. The dance group of the Liberal Jewish Congregation in Hanover 
ended their performance. The assailants were reportedly of Lebanese, 
Palestinian, Iraqi, Iranian and Turkish origin. Politicians and local 
associations responded in outrage and disbelief to the incident.
    June 15, 2010--Babenhausen--Swastikas were spray-painted on 
tombstones in the town's Jewish cemetery.
    June 1, 2010--Hessen--``Free Gaza--long live global intifada'' and 
``Stop the offense against the Gaza-flotilla'' were spray-painted on 
the door of the Jewish Council.
    May 16, 2010--Worms--A synagogue was doused with flammable liquid 
and set on fire during the night, resulting in a blackened exterior but 
no major damage. Police found eight copies of a note that stated, ``So 
long as you do not give the Palestinians peace, we are not going to 
give you peace.'' Kurt Beck, premier of the German state of Rhineland-
Palatinate, said, ``The perpetrator should know that such an act 
against a Jewish house of God is a travesty that we will pursue with 
all legal means.''
    March 26, 2010--Berlin--A man and two women, all in their 20's, 
were beaten on a subway station platform. The three were approached by 
a man who asked if they were Jewish. He reportedly returned some time 
later with a group of youths who attacked the three, physically beating 
and kicking them and hitting them over the head with beer bottles.
Greece
    June 22, 2010--Athens--Red swastikas were painted on the walls of 
the Jewish Museum of Greece.
    June 13, 2010--KavaIa--``Jews Murderers'' was spray-painted on a 
wall of the local Jewish cemetery.
    June 6, 2010--Komotini--A man was arrested after he allegedly 
spray-painted a swastika on a Holocaust Memorial.
    May 17, 2010--Rhodes--The Holocaust monument on the island of 
Rhodes was vandalized. A heavy object was used to damage the granite 
facade in several places.
    May 13, 2010--Thessaloniki--Gasoline-soaked rags and were used to 
set fire to a tomb in the Jewish cemetery. Swastikas and anti-Semitic 
graffiti reading ``Fire to the Jews'' and ``Juden raus'' appeared on a 
number of tombstones and on the wall of the cemetery. Three Greek neo-
Nazi activists were arrested on suspicion of writing Nazi slogans on 
the cemetery walls. The Greek Government strongly condemned the 
vandalisms.
    January 6, 2010--Crete---Unknown vandals broke into the island's 
only synagogue and set fire to the building using an improvised 
firebomb. The perpetrators also threw a bar of soap at the building, to 
illustrate the common Greek anti-Semitic expression ``I'll make you 
into a bar of soap.'' The building sustained significant water and 
smoke damage.
Italy
    August15, 2010--Trani--``Juden Raus'' (Jews out) and a swastika 
were spray-painted on the exterior wall of an apartment building in 
Trani, a town of 50,000 in southern Italy.
    May 13, 2010--Rome--Graffiti mocking Anne Frank and a swastika were 
spray-painted on a wall near an old fort where Nazis shot anti-fascists 
during World War II and which in 2009 was dedicated to victims of 
Nazism and fascism. The graffiti used a play on words in Italian to 
read, ``Anne Frank didn't get away with it.'' Rome Mayor Gianni 
Alemanno denounced the incident as ``obscene and shameful.''
Kyrgyzstan
    September 8, 2010--Bishkek--A pipe bomb was thrown at the synagogue 
an hour before services began for the Jewish New Year.
Latvia
    December 7, 2010--Riga--Swastikas were spray-painted on more than 
100 tombstones at the New Jewish Cemetery. At a news conference, 
Latvian President Valdis Zatlers said, ``We absolutely condemn 
vandalism in Jewish cemeteries and call for everything to be done to 
find those responsible and repair the damage.''
Lithuania
    August 21, 2010--Kaunas--A pig's head, costumed with a hat and 
sidelocks, was placed outside a synagogue.
    January 20, 2010--Vilnius--A statue commemorating Dr. Tsemakh 
Shabad, a near-legendary figure in Vilna Jewish lore, was defaced with 
paint.
Poland
    July 15, 2010--Warsaw--Vandals desecrated the grave of a Polish 
woman who saved about 2,500 Jewish children from death during World War 
II. The words "Jews out" were spray--painted on the Warsaw grave of 
Irena Sendler, who was recognized as one of the Righteous Among the 
Nations by the Yad Vashem Holocaust Museum in Israel.
    May 8, 2010--Rzeszow--During a soccer match fans of a local team 
displayed a large banner showing a caricature of a hook-nosed 
stereotypical Jew with a blue and white yarmulke---the colors of the 
opposing team---and the phrase, ``Death to the Crooked Noses.''
    March 13, 2010--Krakow--A former concentration camp, Plaszow, was 
defaced with anti--Semitic slogans such as ``Juden Raus'' (Jews out) 
and ``Hitler Good.'' The vandalism was discovered on the 67th 
anniversary of the Nazi liquidation of the Krakow ghetto.
Romania
    April 2010--Miercurea Ciuc-Three young ethnic Hungarians were 
arrested in a Transylvanian town for placing a poster on the wall of a 
supermarket that said, "Be ashamed. You have bought from Jews again." 
The three are members of the local Hungarian Guard that is affiliated 
with the radical Jobbik party in Hungary. The phrase on the poster was 
used in Hungary during World War II.
Russia
    October 6, 2010--Barnaul--``The Holocaust is a myth,'' ``Adolf was 
right'' and ``Death to the Jews'' were spray-painted on the city's 
synagogue.
    June 21, 2010--Tver--A homemade bomb exploded outside a Russian 
synagogue, causing property damage. Police officials have characterized 
the incident as ``malicious hooliganism,'' and believe it was motivated 
by anti-Semitism. Terrorism experts from the Moscow office of the 
Federal Security Service have begun a criminal investigation.
    March 17, 2010--Tver--Leaflets with photos of Russia's Chief Rabbi 
Berl Lazar were hung on lampposts with the phrases: ``Remember, our 
main enemy is the Jew. If you see him, beat him!''
Spain
    June 16, 2010--Torremolinos--A swastika was spray-painted near the 
local synagogue.
    February 1, 2010--Madrid--A young Hasidic Jew was stopped on the 
street in the center of Madrid by a woman who slapped him and 
repeatedly hurled insults, including ``Dirty Jew,'' ``You Jews are 
responsible for all the evil in the world,'' and ``You Jews are 
thieves.'' Bystanders called the police, who arrived while the woman 
was still there and are investigating.
Sweden
    October 10, 2010--Malmo--About 10 teenagers threw eggs and trash 
cans at building where a weekend retreat for Jewish children was taking 
place. The teenagers also reportedly shouted, ``Heil Hitler'' and 
``Jewish pigs'' during the attack.
    July 23, 2010--Malmo--A small explosion early in the morning 
blackened the entrance to the synagogue and broke three windows. A note 
with a bomb threat had been put on the synagogue door the day before.
    July 7, 2010--Stockholm--A rabbi was walking home from Stockholm's 
central train station when four young rnen of Arab descent yelled, 
``You will die, f---- Israeli, f----- killer, you will be beaten.'' The 
four then ran towards the rabbi, who escaped by jumping into a nearby 
taxi.
    June 2, 2010--Stockholm--A bomb threat was made when someone called 
the Jewish community center in and said, ``the Jewish center will blow 
up today.''
    March 14, 2010--Stockholm--Rocks were thrown at the Jewish 
community center, breaking a window.
Turkey
    June 25, 2010--Istanbul--Police arrested a man on suspicion of 
planning to murder rabbis in Istanbul. According to media reports, the 
20-year old had sent an anonymous threat to a synagogue in Istanbul.
Ukraine
    October 27, 2010--Evpatoria--``Die dirty kikes'' and swastikas were 
spray-painted on a synagogue.
    April 21, 2010--Kyiv--``Death to the Jews'' and ``The Holocaust 
Continues'' were painted on walls of a Jewish school.
    April 19, 2010--Ternopil--Twenty-six graves in the town's old 
Jewish cemetery were vandalized with anti-Semitic and other graffiti.
United States
    Illinois: Two suspicious packages, later determined to be explosive 
devices, that were intercepted on cargo planes were addressed to 
Chicago-area Jewish institutions. The packages were thought to have 
originated in Yemen as part of a terror plot by Al Qaeda on the Arabian 
Peninsula.
    California: At a high school party in someone's home, one boy said 
to another, ``you kike'' and punched him in the face, breaking his jaw.
    New York: A man was approached by another man on the street who 
pushed him and yelled ``Go back to Aushwitz.''
    Florida: On the day before Yom Kippur, a group of students said to 
a Jewish student, ``Jews starve themselves because they hate G-d.'' The 
victim was struck six or seven times in the head and suffered a 
concussion.
    New Jersey: Two identifiably Jewish individuals were walking down a 
street when a pick-up truck drove past them and approximately five 
paintballs were fired from the driver-side window.
    Indiana: One campus saw a spate of incidents where a rock was 
thrown into the window of a Jewish facility, a menorah was vandalized, 
a display case in the Jewish studies department was smashed and several 
Hebrew-language texts (including some sacred texts) were stolen and 
were urinated on.
    California: Vandals spray painted anti-Semitic graffiti on the wall 
of a Jewish institution's parking lot. Vandalism included a swastika 
with ``88,'' which is a commonly used number symbol meaning ``Heil 
Hitler.''
    Massachusetts: A 10th grade student found a swastika, ``F--- the 
Jews'' and ``Hitler was right'' written on a bathroom stall.
    Connecticut: Graffiti written on stone in Jewish section of a 
cemetery, stating ``Damn right you kikes aren't gonna forget,'' with a 
swastika below the words.
    New York: Eight posts were defaced with blue magic marker reading: 
``Down with Jews (3 times)... ,'' ``Down with the racist Jews, 
exterminate them all the world will be a cleaner place,'' and ``Down 
with racist Jews.''
    Georgia: Someone posted ``stupid Jewish bitch'' on a teenager's 
social networking page.
    Florida: A cantor received a threatening phone call that said, ``Be 
careful Hitler's behind you, and he's going to put an axe in your 
neck.''
    Colorado: 3 Boulder Jewish communal organizations had their 
websites hacked and language including ``Jews are terrorists. Child 
Organ Smugglers. F--- The Jews! and F--- Israel'' was posted.
    New Jersey: A father and 12-year-old son, both identifiably Jewish, 
were walking to synagogue when a driver stopped and shouted anti-
Semitic comments.
    New York: Slips of paper with the words ``kill Jews'' were found 
scattered across New York City and Nassau County.
    California: Complainant received an anonymous letter at her work 
address that said ``F--- you kike, too bad Hitler didn't finish the 
job.''
2011 Incidents
Belgium
    November, 2011--13 year-old Jewish girl was attacked and severely 
beaten by five schoolmates of Moroccan origin, who repeatedly called 
her a ``dirty Jew'' and told her to ``go back to her country.''
    February 22, 2011--Antwerp--A Jewish man riding a bicycle was 
punched in the face. When he asked the attacker why he hit him, the 
assailant said, ``Because you're a Jew.''
    March 1, 2011--Antwerp--When three Orthodox Jews entered a cafe, 
the barman shouted at them, ``No Jews.'' When they insisted that he 
repeat his comment, he said the cafe was closed, despite numerous 
clients being served.
Canada
    August 4, 2011--Toronto--A swastika with the words ``Islam will 
rule'' was spray painted on the exterior of the Beth Tikvah synagogue.
    January 15, 2011--Montreal--Vandals hurled rocks through the 
windows of five synagogues and a Jewish day school.
France
    June 20, 2011--Paris--A 40-year-old Jewish man was attacked by two 
assailants who grabbed his bag with his tallit (prayer shawl) and 
tefillin (phylacteries). The attackers punched and kicked him in the 
head and body, while shouting anti-Semitic insults. The victim suffered 
deep bruises on his face, head lacerations that required suturing, and 
a fractured wrist.
    June 18, 2011--Villeurbane--A 21-year-old identifiably Jewish man 
was assaulted in a suburb of Lyon. He was accosted by an individual who 
said, ``turn around and go back, you son-of-a-bitch Jew.'' The attacker 
left, then returned with a hammer and hit the victim on the head. A 
dozen other assailants joined in, kicking the victim and hitting him 
with a nightstick. The victim was hospitalized with head and other 
injuries.
    May 7, 2011--Marseilles--An 11-year-old Jewish girl on her way to a 
synagogue was accosted by a teenager who demanded to know if she was 
Jewish. The assailant threatened the girl with a knife and reportedly 
said, ``You are going to dirty meeting.'' Another teenager rescued the 
girl, who took refuge inside the synagogue.
    May 7, 2011--Marseilles--Three Jewish boys were beaten during a 
soccer match by a dozen attackers, who shouted ``dirty Jews, we're 
going to f--- your corpses.'' One boy sustained a serious eye injury; 
the other two were only slightly injured.
    May 7, 2011--Nancy--A Jewish school was vandalized with anti-
Semitic slogans and, evidence at the scene suggested, attempted arson. 
Minister of Education Luc Chatel denounced the attack as an attack on 
France.
    April 7, 2011--Lyon--A 21-year-old Jewish student was shot four 
times with a pellet gun in an attack involving two unidentified 
assailants. The incident started when one of the perpetrators asked the 
student's name. After he responded, the perpetrator reportedly said, 
``You don't look like an Antoine, you look like a Jew, you're 
definitely a Jew.'' When the victim confirmed he was Jewish, one of the 
assailants shot him. The student was also beaten on his head and body 
with the butt of the gun. He was hospitalized with wounds to the head, 
neck, abdomen, and arm.
    March 19, 2011--Garges-les-Gonesse--A rock was thrown through a 
window of a synagogue during an evening Purim celebration.
    March 17, 2011--Pont de Heruy--A 15-year-old Jewish boy was beaten 
by a group of about a dozen teenagers. The attackers threw him to the 
ground and beat him while yelling anti-Semitic insults.
Germany
    March 30, 2011--Aachen--A swastika was spray-painted on the 
synagogue.
    January 24, 2011--Goshen--A country house owned by an identifiably 
Jewish man was the target of an arson attack. A Star of David had been 
painted on the wall, together with the word ``Out,'' and police found 
evidence of arson.
Greece
    May 15, 2011--Volos--``Jews you will die'' and ``Jewish 
(expletive), the gallows are coming'' were among numerous anti-Semitic 
threats scrawled on the Volos synagogue and Jewish community center. 
Ultra-nationalist slogans, ``Greece,'' and crosses were also spray-
painted on the synagogue's exterior walls.
    February 8, 2011--Athens--Mikis Theodorakis, the composer of 
``Zorba the Greek,'' said in a television interview that he is an 
``anti-Semite and anti-Zionist.''
Hungary
    January 23, 2011--Marcali--Three teenagers toppled 75 tombstones in 
a Jewish cemetery and admitted to police that they were ``showing off'' 
for one another. Prime Minister Orban's spokesman condemned the 
incident, saying, ``vandalism triggered by anti-Semitism'' is 
``offensive to the Hungarian Jewish community and to all Hungarians.'' 
He added that ``the government condemns vandalism and will punish such 
acts.''
Netherlands
    May 14, 2011--Leek--``C18,'' a neo-Nazi slogan, and a swastika were 
spray-painted on the door of a Jewish school, which also houses a 
museum to the Jews of Leek who were deported and murdered during the 
Holocaust.
    February 10, 2011--Amsterdam--During an interfaith walk by two 
rabbis, two Muslim scholars, a bishop and a pastor in an area where 
several anti-Semitic incidents have occurred, a young man made a Hitler 
salute and yelled, ``Cancerous Jews.''
Poland
    August 10, 2011--Orla--``Jews to the gas,'' ``Jude raus,'' ``All of 
Poland for the Poles,'' and ``White power'' were spray-painted on a 
historic synagogue.
Russia
    July 11, 2011--Moscow--Following the conviction of 12 neo-Nazis for 
murdering at least 20 non-Slavic people (mostly from Central Asia and 
the Caucasus), six Molotov cocktails were thrown at a Moscow synagogue. 
The synagogue did not catch fire and no one was injured.
    January 31, 2011--St. Petersburg--Swastikas, anti-Semitic slogans, 
and threats were spray-painted on the gate and wall of the Jewish 
community center. The logo of a neo-Nazi group, NSWP, was also drawn.
Serbia
    February 28, 2011--Belgrade--On a popular reality TV show, Serbian 
pop star Maja Nikolic said, ``I don't like Jews.'' The Minister of 
Justice denounced the hate speech and the Public Prosecutor has opened 
an investigation.
Switzerland
    February 23, 2011--Lausanne--Upon leaving a synagogue, a rabbi's 
assistant was attacked by three individuals. The assailants asked if he 
was Jewish. When he responded positively, the three shouted anti-
Semitic epithets, beat him with their fists and kicked him. Passers by 
intervened and called the police, who managed to arrest two of the 
assailants.
UK
    January 29, 2011--Manchester--The head of the National Union of 
Students had to be led to safety by police from a tuition fees rally he 
had been due to address after being surrounded by protesters chanting 
anti-Semitic insults at him.

Compiled by the Anti-Defamation League's Washington Office: More 
information about ADL's resources on hate crimes can be found at the 
League's Web site: http://www.adl.org and http://
www.partnersaqainsthate.org/

c 2011 Anti-Defamation League


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Selected Resources on Hate Crime Response and Counteraction

Anti-Defamation League
Matthew Shepard and James Byrd, Jr. Hate Crimes Prevention Act (HCPA): 
What You Need to Know: http://www.adl.org/combating_hate/What-you-need-
to-know-about-HCPA.pdf
This document provides an outline of HCPA--why it was needed and how 
the law works to protect the rights of all citizens.

An Introduction to Hate Crime Laws: http://www.adl.org/combating_hate/
Introduction-to-Hate-Crime-Laws.pdf
A primer on the purpose and utility of federal and state hate crime 
laws.

How to Combat Bias and Hate Crimes: an ADL Blueprint for Action: http:/
/www.adl.org/blueprint.pdf
A compilation of the best ADL resources, programs, and education 
initiatives designed to combat bias and hate crimes.

Hate Crime Laws: http://www.adl.org/99hatecrime/intro.asp
A comprehensive overview of the history of hate crime legislation, 
including the ADL Model Hate Crime Law and an interactive map of the 
nation's state hate crime laws.

Hate Crime Laws: Punishment to Fit the Crime: http://
www.dissentmagazine.org/article/?article=3278
A robust defense of hate crime laws by the League's Washington Counsel.

Bullying/Cyberbullying Prevention Law: Model Statute and Advocacy 
Toolkit: http://www.adl.org/civil_rights/Anti-
Bullying%20Law%20Toolkit_2009.pdf
This resource includes ADL's Model anti-bullying law and an online 
chart of the nation's existing anti-bullying statutes.

http://www.adl.org/Civil Rights/letter_bullying_cyberbullying_201O.asp
The League's recommendations for anti-bullying policies and programs, 
sent in advance of the August, 2010 Federal Bullying Summit in 
Washington, DC
FBI
Hate Crime Statistics, 2010: http:1/www.fbi.gov/about-us/cjis/ucr/hate-
crime/2010
The FBI's most recent annual hate crime report, with data collected 
from more than 13,000 state and local police departments.

Hate Crime Data Collection Guidelines: http://www.fbi.gov/about-us/
cjis/ucr/hate-crime/hcguidelinesdc99. pdf
The FBI's guidelines for law enforcement agencies regarding the 
classification and collection of hate crime data.

Hate Crime Data Collection Training Guide: http://www.fbi.goviabout-us/
cjis/ucr/hate-crime/trainguidedc99.pdf
The FBI's training manual for law enforcement agencies, with model 
reporting procedures and training examples.
Department of Education
Preventing Youth Hate Crime: http://www.ed.gov/pubs/HateCrime/
start.html
A resource that describes effective school-based hate crime prevention 
programs.

Department of Education Office of Civil Rights October 26, 2010 
Guidance on School Bullying andHarassment: http://www.ed.gov/news/
press-releases/guidance-targeting-harassment-outlines-local-and-
federal-responsibility
Department of Education/National Association of Attorneys General
Protecting Students from Harassment and Hate Crime: http://www.ed.gov/
offlces/OCR/archlves/Harassmentlharassment.pdf
A detailed guide designed to help schools develop a comprehensive 
approach to protecting students from harassment and hate-motivated 
violence.
Department of Justice
Addressing Hate Crimes: Six Initiatives That Are Enhancing the Efforts 
of Criminal Justice Practitioner: http://www.ncjrs.gov/pdffiles1/bja/
179559.pdf
This Bureau of Justice Assistance report highlights six Innovative law 
enforcement Initiatives to respond to violent hate crime.

Hate Crime Training: Core Curriculum for Patrol Officers, Detectives, 
and Command Officers: http://www.usdoj.govlcrs/pubs/hct.pdf
A comprehensive hate crime training curriculum prepared by the 
International Association of Directors of Law Enforcement Standards and 
Training, the National Association of Attorneys General, the Justice 
Department, and the Treasury Department.

A Policymaker's Guide to Hate Crimes: http://
www.ncjrs.govlpdfflles11bja/162304.pdf
This resource highlights the use of hate crime laws and problems that 
impede reporting hate crime Incidents.
National District Attorneys Association
A Local Prosecutor's Guide for Responding to Hate Crimes: 
http:llwww.ndaa.org/pdflhate_crimes.pdf
The single best resource designed to assist local prosecutors handling 
hate crime Investigations and prosecutions.
Organization of Chinese Americans
Responding to Hate Crimes: A Community Action Guide, 2nd Edition: 
http://www.ocanatlonal.orgl/images/stories/docscenter/
ocahatecrlme2006.pdf
The best guidebook for community organizing and response to hate 
violence, with step-by step guidelines, checklists, internet resources, 
and best practices.

     Selected Resources on Bullying, Cyberbullying, and Harassment

ADL
1) Educational Strategies To Respond To Bullying And Cyberbullying
ADL Curriculum Connection: ``Cyberbullying: Understanding and 
Addressing Online Cruelty'': http://www.adl.org/educatlon/
currlculum_connections/cyberbullying/default.asp

ADL Tools for Responding to Cyberbullying: http://www.adl.org/
combatbullying/

Committing to Respect: Lessons for Students to Address Bias: http://
www.adl.org/educatlon/9-11_committing_to_respect.pdf

Words That Heal: Using Children's Literature to Address Bullying: 
http://www.adl.org/educatlon/currlculum_connections/winter_2005

Understanding and Addressing Cyberbullying: half-day or full-day 
training programs for middle and high school educators, Administrators 
and youth service providers: http://www.adl.org/education/
cyberbullying/workshops.asp
http://www.adl.org/education/cyberbullying/program-cyberbullying-
flyer.pdf

CyberALLy<SUP>TM</SUP>: a half or full-day Interactive training for 
middle and high school students: http://www.adl.org/education/
cyberbullylng/cyberally-student-flyer.pdf

What Can Be Done About Name-Calling: http://www.adl.org/combatbullying/
pdf/what-can-be-done-bullying-handout.pdf

Take a Stand: A Student's Guide to Stopping Name-Calling and Bullying: 
http://www.adl.org/combatbullying/pdf/taking-a-stand-bullying-quide.pdf

Internet Safety Strategies for Students: http://www.adl.org/education/
curriculum_connections/cyberbullying/
internet%20Safety%20Strategies%20for%20Students.pdf

Confronting Hate Speech Online: http://www.adl.org/main_internet/
hatespeechonline2008.htm
2) Advocacy Resources To Prevent And Respond To Bullying And 
        Cyberbullying
ADL Bullying/Cyberbullying Advocacy Toolkit for state anti-bullying 
laws: http://www.adl.org/civil_rights/Anti-Bullying%20Law%20Toolkit 
2009.pdf

Responding to Cyberhate: Toolkit for Action: http://www.adl.org/
internet/Binder_final.pdf

In advance of the August 11-12 Federal Bullying Summit, ADL submitted 
to a trio of federal agencies (Health and Human Services, Department of 
Education, Department of Justice) recommendations for programs, 
training initiatives, and researchproposals: http://www.adl.org/
Civil_Rights/letter_bullying_cyberbullying_2010.asp
ADL statement at the May 13 2011 United States Commission on Civil 
Rights briefing on Federal Enforcement of Civil Rights Laws to Protect 
Students Against Bullying, Violence and Harassment: http://www.adl.org/
combatbullying/ADL-USCCR-statement-on-bullying-prevention.pdf

Updated November 2011

    Stacy Burdett is ADL's Washington Director and heads the Government 
and National Affairs Office which represents the Anti-Defamation 
League(ADL) to the Federal government and foreign embassies on the full 
range of policy issues on ADL's agenda.

    As the lead lobbyist on international issues, Ms. Burdett reaches 
out to Congress, the Administration and foreign diplomats to mobilize 
leadership and support on issues such as global anti-Semitism, securing 
fair treatment for Israel, and broader human rights issues like 
international religious freedom. Stacy is also the ADL's point person 
on advocacy for comprehensive immigration reform and the fight against 
anti-immigrant bigotry.

    During her 18 years of service at ADL, Stacy has led efforts to 
advance the fight against anti-Semitism in international human rights 
fora such as the Organization for Security and Cooperation in Europe 
and the United Nations. She has testified before the US Congress and 
represented the Anti-Defamation League at numerous inter-governmental 
conferences to share ADL's experience and strategies for countering 
anti-Semitism and hate crime, and for promoting anti-bias and Holocaust 
education.
                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================

       ODIHR Backgrounder on Anti-Semitism Activities--Hate Crime

Hate Crime Report--Information received from participating States and 
        civil society
    Information from participating States submitted to ODIHR from 2008 
to 2010 demonstrates that anti-Semitic crimes and incidents continue to 
occur across the OSCE region undermining personal, neighbourhood and 
regional security. These incidents include attacks against Jews or 
Jewish institutions and attacks against Jewish property, including the 
vandalism of Jewish cemeteries and synagogues.
    In 2010, twenty States reported to ODIHR that they collect data on 
anti-Semitic hate crimes. These include Austria, Belgium, Canada, 
Croatia, Czech Republic, Finland, France, Germany, Greece, Italy, 
Liechtenstein, Moldova, Netherlands, Poland, Serbia, Spain, Sweden, 
Switzerland, United Kingdom and the United States. However, out of this 
number only three, namely France, Germany and the United Kingdom 
provided data in 2010. Data for the United States was released in 
November and documented 921 anti-Semitic offenses in 2010.

    <bullet>  France reported 125 convictions for crimes committed with 
an anti-Semitic motive. French authorities also reported on an 
individual case that involved an attempted homicide resulting in 
serious injury, in which the perpetrator admitted that the motive was 
anti-Semitic. The crime was categorized as ``racial, ethnic or 
religious''; the court case is still pending.
    <bullet>  In Germany, there were 1,268 anti-Semitic hate crimes, of 
which 37 were categorized as violent. The non violent crimes reported 
by the German authorities refer to the production and dissemination of 
anti-Semitic speech, including Holocaust denial. The German officials 
reported two instances of arson, one at a synagogue and one at a Jewish 
cemetery.
    <bullet>  In the United Kingdom, official figures recorded 488 
anti-Semitic hate crimes in England, Wales and Northern Ireland.

    Austria, Czech Republic, Germany, Italy, Sweden, United Kingdom 
provided data for 2008 and 2009. Additionally, Belgium and France 
submitted data for 2008; meaning that that eight States submitted 
information to ODIHR in 2009 and six in 2008.
    The lack of data on anti-Semitic crimes remains a serious issue 
throughout the region. Additional efforts need to be invested to ensure 
that clear, reliable and detailed data are available on anti-Semitic 
crimes as they can enable States to assess the extent of hate crimes 
and to develop appropriate policies to address them. While in 2010, 
eight participating States provided information on new activities 
launched to combat hate crimes, none of these initiatives had a 
particular emphasis on anti-Semitism.
    Data on hate incidents are a significant source of information for 
ODIHR. In 2010, 21 civil society organizations from 31 participating 
States reported anti-Semitic incidents. Information from civil society 
included assaults, and damage or desecration of property, including 
places of worship, cemeteries, schools, the buildings of Jewish 
organizations and private homes.
Hate Crime Report--activities in 2012
    ODIHR is currently developing a web-based interface to present the 
data and information on hate crimes submitted by governments and civil 
society. This web presentation will be user friendly, allowing users to 
upload easily the data submitted in previous years, on specific target 
groups or in selected countries. This will in particular respond to one 
of the shortcomings of the current Hate Crime Report: participating 
States with comprehensive data collection systems such as the United 
States or Canada have a different reporting cycle than ODIHR and thus 
relevant data is not published in the annual report. Given the fact 
that this is a pilot project for ODIHR and the sensitive nature of the 
data, the exact date of the publication of the web interface can not be 
determined with certainty. ODIHR expects a completion within the next 
12 to 24 months. The development of the interface will include 
consultation with key actors, including representatives of 
participating States.
Activities to improve government response to hate crimes
    Legislation--ODIHR continues to distribute the publication Hate 
Crime Laws: A Practical Guide. Approximately 5,500 copies of the Guide 
have been distributed so far. It is available in x languages.
    Police training--Following the independent evaluation of the Law 
Enforcement Officers Programme (LEOP), ODIHR reviewed the methodology 
of the programme and revised the content of its curriculum. The review 
process included the consultation of a broad group of police experts 
from throughout the OSCE region in May 2011. The methodology and the 
curriculum of the programme, renamed Training against Hate Crime for 
Law Enforcement (TAHCLE), are finalized. It is currently being piloted 
in Kosovo with the support of the OSCE Mission.
    TAHCLE is a short, compact and flexible training. It is designed to 
be integrated with other training efforts, drawing on existing 
resources and curricula of police training institutions. TAHCLE can be 
delivered as a training for police or as a training of trainers (ToT) 
for pre-service or in-service training. It can be delivered to 
commanders, police cadets/trainees, uniformed officers and 
investigators. TAHCLE is tailored to the needs and experiences of each 
country or region in which it is adopted.
    In order to address identified shortcomings in the evaluation, 
ODIHR defined TAHCLE's methodological principles as follow:

Interactive and motivational
    <bullet>  The training is interactive because learning by doing is 
more effective.
    <bullet>  The training is motivational as hate crime training 
should focus simultaneously on: acquiring technical skills and 
knowledge, as well as recognizing the adverse impact prejudice has on 
society and motivating police to address the issue.

Human rights based
    <bullet>  The programme endorses a rights-based approach because 
the promotion and respect of fundamental human rights principles, such 
as the right to equality, are essential elements to guaranteeing the 
security of individuals and communities.

Experts oriented
    <bullet>  The training team is composed of professional trainers 
and police, as well as prosecution experts, with comprehensive 
experience dealing with hate crimes. Ideally, experts will have 
understanding and experience with the local context.

Inclusive
    <bullet>  Consultation with civil society and community 
representatives is crucial: they offer significant intelligence and 
information in relation to the nature of hate crime and are important 
partners in effective responses to hate crime.

Transparent and Accountable
    <bullet>  The programme's implementation is monitored in order to 
identify difficulties that need to be overcome, to recognize good 
practices that can be replicated and to help authorities make informed 
decisions on the next steps.
    <bullet>  The programme is evaluated upon its completion to ensure 
its sustainability, and to integrate this initiative in comprehensive 
policy efforts aimed to address hate crimes.
Activities to improve government response to hate crimes--2012
    The predecessor of TAHCLE was delivered in Poland and Croatia and 
has been used since then in the national police academies. In Poland 
20,000 police officers were trained. Authorities in both countries 
expressed interest in a delivery of TAHCLE to their police trainers to 
give them the opportunity to refresh their skills and to amend the 
national curriculum as they see fit. ODIHR will present the TAHCLE 
curriculum in Poland and Croatia and seek the opportunity to gather 
informed feedback.
    Following the signature of a Memorandum of Understanding in 
Bulgaria in 2011, the implementation of TAHCLE will start in March 
2012. The implementation plan includes the delivery of a training of 
trainers, the inclusion of TACHLE in the national curriculum for police 
cadets and for investigators. A crucial part of ODIHR's role in the 
implementation of the programme includes providing support to the 
authorities to identify, develop and enforce policies necessary for 
police to use the skills acquired during the training. The 
implementation of this multi-year programme includes monitoring the 
delivery of training and evaluating the impact of the training 
programme.
    Additional five participating States have manifested interest in 
implementing TAHCLE. ODIHR will seek to sign a Memorandum of 
Understanding with at least two of them in 2012.

    Prosecutors --ODIHR is currently developing a Practical Guide for 
Prosecutors on Hate Crimes in close cooperation with the International 
Association of Prosecutors. The publication of the Guide is foreseen in 
the first half of 2012. The dissemination of the Guide is accompanied 
with the delivery of workshops for prosecutors on how to use 
legislation to prosecute hate crimes. Pilot seminars for prosecutors 
are being held in Kosovo and in Ukraine (Crimea) in December 2011.

Activities to Combat Anti-Semitism and to Promote Holocaust Remembrance 
        and Education
    Participating States have committed to support programmes on 
education on anti-Semitism and on education of the Holocaust. 
Participating States have also committed to promote remembrance of the 
Holocaust. In this regard, participating States were encouraged to draw 
on ODIHR's expertise. ODIHR has developed technical-assistance 
programmes in co-operation with a number of partners, including the 
Task Force for International Cooperation on Holocaust Education, 
Remembrance and Research, the Yad Vashem International School of 
Holocaust Studies in Israel, and Anne Frank House in Amsterdam.

    The following materials have been prepared by ODIHR:

    <bullet>  Teaching Materials to Combat Anti-Semitism--developed in 
co-operation with the Anne Frank House; they aim to raise awareness 
among students on stereotypes and prejudices against Jews. (available 
at http://tandis.odihr.pl/?p=ki-as,tm);
    <bullet>  The Guide Addressing Anti-Semitism: Why and How? A Guide 
for Educators, developed with Yad Vashem; the Guide provides educators 
with facts, background information and good practices regarding how to 
address anti-Semitism in the classroom. (available at http://
www.osce.org/odihr/70295);
    <bullet>  Preparing Holocaust Memorial Days: Suggestions for 
Educators is a set of recommendations for teachers on how to plan 
commemoration activities connected with annual Holocaust Remembrance 
Days. The Guide will be updated in 2012 (available at http://
www.osce.org/odihr/17827).

    The following is the overview of education activities on combating 
anti-Semitism:

    <bullet>  In Austria, ODIHR's main implementing partner is the 
organization Erinnern associated with the Austrian Federal Ministry for 
Education. Educational materials have been translated and are currently 
being tested on focus groups in youth clubs and schools. The Guide on 
addressing anti-Semitism and publication on preparing Holocaust 
Memorial Days are translated and disseminated.
    <bullet>  In Croatia, education authorities adapted, tested and 
implemented the teaching materials. Approximately, 7,500 copies have 
been printed in 2008 and 2009. Dissemination of materials is carried 
out during teacher training seminars and online. In 2010, Croatia 
translated a teachers' guide that assists teachers in lesson delivery. 
The Guide on addressing anti-Semitism and publication on preparing 
Holocaust Memorial Days are translated and disseminated.
    <bullet>  Denmark is implementing and conducting training of 
teachers. In 2009, Danish education authorities organized six teachers 
seminars were organized about materials to combat anti-Semitism and 18 
seminars on teaching about Holocaust and other genocides.
    <bullet>  In Germany, approximately 12,000 copies of the teaching 
materials have been distributed during teachers' seminars or through 
online orders. Almost 600 teachers have been trained and more than 40 
seminars organized. The Guide on addressing anti-Semitism and 
publication on preparing Holocaust Memorial Days are translated and 
disseminated.
    <bullet>  The teaching materials have been prepared and translated 
in Hungary. A teacher training is planned in December.
    <bullet>  In Lithuania, more than 6,000 copies of the teaching 
materials have been printed. Around 50 teachers have been trained 
during three seminars organized in 2008 and 2009. The Guide on 
addressing anti-Semitism and publication on preparing Holocaust 
Memorial Days are translated and disseminated.
    <bullet>  Anne Frank House organized eight training seminars and 
trained approximately 200 teachers on the use of materials in the 
Netherlands. The materials were printed in 15,000 copies. The 
publication on preparing Holocaust Memorial Days is translated and 
disseminated.
    <bullet>  In Poland, 22 training seminars were organized in 2008 
and 2009 with a total of 450 teachers. Materials were printed in 9,000 
copies. The Guide on addressing anti-Semitism and publication on 
preparing Holocaust Memorial Days are translated and disseminated.
    <bullet>  In the Slovak Republic, teaching materials were printed 
in 7,000 copies were distributed to approximately 125 schools in 2008 
and 2009. Approximately, 5,000 students have been exposed to the 
materials. The Guide on addressing anti-Semitism is translated and 
disseminated.
    <bullet>  In Spain, materials are currently being translated. The 
main implementing partner is the organization Casa Sefarad.
    <bullet>  Sweden is implementing and conducting training of 
teachers. Main partners include Swedish Committee against Anti-Semitism 
and Living History Forum. In 2010, Sweden organized a training seminar 
for teachers.
    <bullet>  In Ukraine, more than 250 teachers have been trained in 
2010. Two additional training seminars are planned to take place in 
December. Ukrainian Centre for Holocaust Studies printed approximately 
9,000 copies of the teaching materials. The Guide on addressing anti-
Semitism is translated and disseminated.
Holocaust Memorial Days
    <bullet>  In 2010, ODIHR published a report ``Holocaust Memorial 
Days in the OSCE Region.'' It provides a country-by-country overview of 
the official commemorative activities that take place in OSCE 
participating States on Holocaust remembrance days.
    <bullet>  The data shows that 21 States commemorate 21 January (the 
date Liberation of the Auschwitz-Birkenau concentration camp). These 
include: Belgium, Croatia, Czech Republic, Denmark, Estonia, Finland, 
Germany, Greece, Ireland, Italy, Liechtenstein, Luxembourg, Monaco, 
Norway, Portugal, Serbia, Slovenia, Spain, Sweden, Switzerland and the 
United Kingdom. Canada and the United States commemorate Yom Hashoah --
Beginning of the Warsaw Ghetto Uprising in 1943, while Austria, 
Bulgaria, France, Hungary, Latvia, Lithuania, Netherlands, Poland, 
Romania, Slovakia commemorate special dates from their history.
    <bullet>  The updated version of the publication will be available 
on 19 April 2012.
Activities in 2012
    <bullet>  ODIHR seeks to improve the visibility and the 
accessibility of the teaching materials. To this end, a web version of 
the teaching materials will be developed and the existing national 
versions will be uploaded on TANDIS and the websites of partner 
institutions.
    <bullet>  The Latvian version of the teaching materials will be 
finalized. ODIHR is currently discussing with two additional 
participating States the possibility of adapting the teaching 
materials.
    <bullet>  ODIHR will continue supporting training of teachers upon 
availability of resources.

  8The Osce High Level Meeting On Confronting Anti-Semitism In Public 
                      Discourse (23-24 March 2011)

Introduction and Background
    The OSCE high level meeting ``Confronting Anti-Semitism in Public 
Discourse'' was held in Prague on 23-24 March 2011. \1\ The meeting was 
co-organized by the OSCE Office for Democratic Institutions and Human 
Rights (ODIHR) and the OSCE Chairmanship-in-Office and was hosted by 
the Foreign Ministry of the Czech Republic. A total of 164 participants 
registered, including 51 civil society representatives. Participants 
came from 36 participating States.
---------------------------------------------------------------------------
    \1\  For a copy of the final meeting report, please refer to http:/
/www.osce.org/odihr/77450
---------------------------------------------------------------------------
    The meeting took place in the framework of the OSCE's ongoing 
efforts to promote international co-operation to combat anti-Semitism. 
Ministerial Council Decisions in Maastricht and Sofia, \2\ among 
others, established a broad set of commitments aimed at preventing and 
responding to anti-Semitism and other forms of intolerance. 
Participating States have also equipped the Organization with tools to 
address the problem of anti-Semitism and there has been considerable 
progress in combating anti-Semitism in the OSCE area, and in particular 
in response to hate crimes. Despite these efforts, expressions of anti-
Semitism in public discourse remain a serious issue of concern in the 
OSCE region.
---------------------------------------------------------------------------
    \2\  Maastricht Ministerial Council decision 4/03 on Tolerance and 
Non-Discrimination (2003); Sofia Ministerial Council Decision 12/04 on 
Tolerance and Non-Discrimination and Annex to Decision 12/04 on 
Combating Anti-Semitism (2004).
---------------------------------------------------------------------------
Key Themes and Discussions
    The meeting was organized into three working sessions, focused on:

    <bullet>  Traditional anti-Semitic themes and practices (Session 
I);
    <bullet>  International developments as a new factor related to 
manifestations of anti-Semitism (Session II); and
    <bullet>  Effective practices in combating anti-Semitism in public 
discourse (Session III).

    Session I explored the distinction between `traditional' or 
historic forms and contemporary forms of anti-Semitism. During 
subsequent discussions, there was an overwhelming focus on hate speech 
regulation and in particular the challenges in new or transitioning 
states to combat such discourse. While there was a divergence of 
opinion about the role of the state in prohibiting and/or regulating 
hate speech, there was overwhelming agreement on the need to build the 
capacity of media professionals to report on interfaith and tolerance 
related issues in a professional and impartial manner.
    Session II provided meeting participants with an opportunity to 
explore how international developments can spark manifestations of 
anti-Semitism. In particular, panelists and participants discussed how 
events in the Middle East and negative perceptions of Israeli policies 
have been followed by spikes in anti-Semitic hate crimes. Other modern 
forms of anti-Semitism were also raised, including manifestations on 
the Internet.
    The focus of Session III was to share good practices and gather a 
set of recommendations on how to prevent and respond to anti-Semitism 
in public discourse. The value of coalition building--both within 
parliaments through cross party alliances and more broadly--emerged as 
a good practice. Education was also stressed for its positive value, 
both within the formal education sector and non-formal sector. 
Holocaust, peace and tolerance education, and the use of social 
networks and creative campaigns targeting youth were provided as 
examples. Finally, capacity building and professional development for 
journalists were favoured as strategies rather than prohibitive 
sanctions.
Key Recommendations
The following recommendations represent some of the key recommendations 
which were proposed during the high level meeting and are addressed to 
OSCE participating States. A full list of recommendations targeting 
different stakeholders, including members of the media and OSCE 
institutions, can be found in the meeting report. \3\
---------------------------------------------------------------------------
    \3\  For a copy of the final meeting report, please refer to http:/
/www.osce.org/odihr/77450

    <bullet>  Participating States should implement OSCE commitments on 
monitoring and reporting of hate crimes and should enact laws that 
establish hate crimes as specific offenses or provide enhanced 
penalties for bias-motivated violent crimes. When collecting and 
publicizing data on hate crimes, participating States should produce 
disaggregated statistics in order to be able to distinguish anti-
Semitic hate crimes from other hate crimes.
    <bullet>  Participating States should fulfill their obligations to 
provide security to vulnerable communities and invest the necessary 
resources to protect vulnerable community institutions and places of 
worship, including synagogues, cemeteries, and faith based schools.
    <bullet>  Parliaments should consider establishing all-party 
parliamentary committees against anti-Semitism.
    <bullet>  Governments should consistently and publicly denounce all 
forms of intolerant speech, and condemn the use of foreign conflicts to 
inflame domestic inter-communal tension. Politicians should counter 
hate speech and Holocaust denial with truthful and informative 
responses and should increase the use of the Internet and online forums 
in addition to traditional media sources when communicating these 
messages to the public.
    <bullet>  Participating States should create specialized law 
enforcement units to monitor and investigate cyber hate speech and 
should strengthen transnational networks and partnerships that monitor 
and investigate hate speech on the Internet.
    <bullet>  Participating States should invest in educational 
initiatives that confront prejudice and stereotypes related to anti-
Semitism and should invest in teacher training programs on human rights 
norms and principles.
    <bullet>  Participating States should invest in professional 
training programs for members of the media to develop their skills and 
capacity to report about issues facing different religious and cultural 
groups, including the Jewish community. These programs should focus on 
the role of the media in exacerbating and/or decreasing inter-ethnic 
tension and violence and explore issues relating to professional ethics 
and responsibility.

Summary of Ministerial Council Taskings Given to the ODIHR in the Area 
                  of Tolerance and Non-Discrimination

Ministerial Council Decision No. 4 (Maastricht MC 2003)
-- Encourages all participating States to collect and keep records on 
reliable information and statistics on hate crimes, including on forms 
of violent manifestations of racism, xenophobia, discrimination, and 
anti-Semitism, as discussed and recommended in the above-mentioned 
conferences. Recognizing the importance of legislation to combat hate 
crimes, participating States will inform the ODIHR about existing 
legislation regarding crimes fuelled by intolerance and discrimination, 
and, where appropriate, seek the ODIHR's assistance in the drafting and 
review of such legislation;

-- Tasks the ODIHR, in full co-operation, inter alia, with the United 
Nations Committee on the Elimination of Racial Discrimination (UNCERD), 
the European Commission against Racism and Intolerance (ECRI) and the 
European Monitoring Center on Racism and Xenophobia (EUMC), as well as 
relevant NGOs, with serving as a collection point for information and 
statistics collected by participating States, and with reporting 
regularly on these issues, including in the format of the Human 
Dimension Implementation Meeting, as a basis for deciding on priorities 
for future work.

-- The ODIHR will, inter alia, promote best practices and disseminate 
lessons learned in the fight against intolerance and discrimination;

-- Encourages the participating States to seek the assistance of the 
ODIHR and its Panel of Experts on Freedom of Religion or Belief.

-- Undertakes to combat discrimination against migrant workers. Further 
undertakes to facilitate the integration of migrant workers into the 
societies in which they are legally residing. Calls on the ODIHR to 
reinforce its activities in this respect;

-- Undertakes, in this context, to combat, subject to national 
legislation and international commitments, discrimination, where 
existing, against asylum seekers and refugees, and calls on the ODIHR 
to reinforce its activities in this respect;

-- Tasks the Permanent Council, the ODIHR, the HCNM and the RFoM, in 
close co-operation with the Chairmanship-in-Office, with ensuring an 
effective follow-up to the relevant provisions of the present decision, 
and requests the Permanent Council to address the operational and 
funding modalities for the implementation of this decision.
Ministerial Council Decision No. 12 (Sofia MC 2004)
PC Decision 601 on Combating Anti-Semitism Tasks participating States 
        to:

-- Collect and maintain reliable information and statistics about anti-
Semitic crimes, and other hate crimes, committed within their 
territory, report such information periodically to the OSCE Office for 
Democratic Institutions and Human Rights (ODIHR), and make this 
information available to the public;

-- Endeavour to provide the ODIHR with the appropriate resources to 
accomplish the tasks agreed upon in the Maastricht Ministerial Decision 
on Tolerance and Non-Discrimination;
Tasks the ODIHR to:
-- Follow closely, in full co-operation with other OSCE institutions as 
well as the United Nations Committee on the Elimination of Racial 
Discrimination (UNCERD), the European Commission against Racism and 
Intolerance (ECRI), the European Monitoring Centre on Racism and 
Xenophobia (EUMC) and other relevant international institutions and 
NGOs, anti-Semitic incidents in the OSCE area making use of all 
reliable information available;

-- Report its findings to the Permanent Council and to the Human 
Dimension Implementation Meeting and make these findings public. These 
reports should also be taken into account in deciding on priorities for 
the work of the OSCE in the area of intolerance;

-- Systematically collect and disseminate information throughout the 
OSCE area on best practices for preventing and responding to anti-
Semitism and, if requested, offer advice to participating States in 
their efforts to fight anti-Semitism;
PC Decision 621 on Tolerance and the Fight against Racism, Xenophobia 
        and Discrimination Tasks participating States to:

-- Collect and maintain reliable information and statistics about hate 
crimes motivated by racism, xenophobia and related discrimination and 
intolerance, committed within their territory, report such information 
periodically to the OSCE Office for Democratic Institutions and Human 
Rights (ODIHR) and make this information available to the public;

-- Endeavour to provide the ODIHR with the appropriate resources to 
accomplish the tasks agreed upon in the Maastricht Ministerial Decision 
on Tolerance and Non-Discrimination;
Tasks the ODIHR to:
-- Follow closely, in full co-operation with other OSCE institutions as 
well as the United Nations Committee on the Elimination of Racial 
Discrimination (UNCERD), the United Nations Office of the High 
Commissioner for Human Rights (UNHCHR), the European Commission against 
Racism and Intolerance (ECRI), the European Monitoring Centre on Racism 
and Xenophobia (EUMC) and other relevant international institutions and 
NGOs, incidents motivated by racism, xenophobia, or related 
intolerance, including against Muslims, and anti-Semitism in the OSCE 
area making use of all reliable information available;

-- Report its findings to the Permanent Council and to the Human 
Dimension Implementation Meeting and make these findings public. These 
reports should also be taken into account in deciding on priorities for 
the work of the OSCE in the area of intolerance;

-- Systematically collect and disseminate information throughout the 
OSCE area on best practices for preventing and responding to racism, 
xenophobia and discrimination and, if requested, offer advice to 
participating States in their efforts to fight racism, xenophobia and 
discrimination;

-- Support the ability of civil society and the development of 
partnerships to address racism, xenophobia, discrimination or related 
intolerance, including against Muslims, and anti-Semitism;
Ljubljana Ministerial Decision No. 11 on the promotion of human rights 
        education and training in the OSCE area (Ljubljana MC 2005) 
        Tasks the ODIHR:
-- To produce a compendium of best practices for participating States 
on enhancing the promotion of human rights education and training, 
including the promotion of tolerance, mutual respect and understanding, 
and non-discrimination in the OSCE area.
Ljubljana Ministerial Decision No. 10 on Tolerance and Non-
        Discrimination: Promoting Mutual Respect and Understanding 
        (Ljubljana MC 2005) Commits participating States to:
-- Strengthen efforts to provide public officials, and in particular 
law enforcement officers, with appropriate training on responding to 
and preventing hate crimes, and in this regard, to consider setting up 
programmes that provide such training, and to consider drawing on ODIHR 
expertise in this field and to share best practices;

-- Encourage public and private educational programmes that promote 
tolerance and non-discrimination, and raise public awareness of the 
existence and the unacceptability of intolerance and discrimination, 
and in this regard, to consider drawing on ODIHR expertise and 
assistance in order to develop methods and curricula for tolerance 
education in general, including:
        -- Fighting racial prejudice and hatred, xenophobia and 
        discrimination;
        -- Education on and remembrance of the Holocaust, as well as 
        other genocides, recognized as such in accordance with the 1948 
        Convention on the Prevention and Punishment of the Crime of 
        Genocide, and crimes against humanity;
        -- Education on anti-Semitism in order to ensure a systematic 
        approach to education, including curricula related to 
        contemporary forms of anti-Semitism in participating States;
        -- Fighting prejudice, intolerance and discrimination against 
        Christians, Muslims and members of other religions;

-- Strengthen efforts to collect and maintain reliable information and 
statistics on hate crimes and legislation within their territories, to 
report such information periodically to the ODIHR, and to make this 
information available to the public and to consider drawing on ODIHR 
assistance in this field, and in this regard, to consider nominating 
national points of contact on hate crimes to the ODIHR;
Tasks to the Secretary General:
-- The Secretary General, drawing on the expertise of the OSCE 
structures and institutions, in particular the ODIHR, to provide in co-
operation with participating States an OSCE contribution to the 
``Alliance of Civilizations'' initiative and to bring it to the 
attention of the Alliance of Civilizations High-Level Group by the end 
of June 2006.
Tasks the ODIHR to:
-- Assist participating States upon their request in developing 
appropriate methodologies and capacities for collecting and maintaining 
reliable information and statistics about hate crimes and violent 
manifestations of intolerance and discrimination, with a view to 
helping them to collect comparable data and statistics;

-- Continue its co-operation with other OSCE structures and 
institutions, as well as with the United Nations Committee on the 
Elimination of Racial Discrimination (UNCERD), the United Nations 
Office of the High Commissioner for Human Rights (UNHCHR), the European 
Commission against Racism and Intolerance (ECRI), the European 
Monitoring Centre on Racism and Xenophobia (EUMC), the Task Force for 
International Co-operation on Holocaust Education, Remembrance and 
Research, and with other relevant institutions and civil society, 
including non-governmental organizations;

-- Through its Advisory Panel of Experts on Freedom of Religion or 
Belief, to continue providing support to the participating States, upon 
their request, in their efforts to promote freedom of religion or 
belief, and to share the Panel's conclusions and opinions with OSCE 
participating States, both bilaterally and at relevant OSCE conferences 
and events;
Brussels Ministerial Decision No. 13 on Combating Intolerance and 
        Discrimination and Promoting Mutual Respect and Understanding 
        (Brussels MC 2006) Encourages the ODIHR, based on existing 
        commitments, including through co-operation with relevant OSCE 
        executive structures to:
-- Further strengthen the work of its Tolerance and Non-Discrimination 
Programme, in particular its assistance programmes, in order to assist 
participating States upon their request in implementing their 
commitments;

-- Further strengthen the work of the ODIHR's Advisory Panel of Experts 
on Freedom of Religion or Belief in providing support and expert 
assistance to participating States;

-- Continue its close co-operation with other relevant inter-
governmental agencies and civil society working in the field of 
promoting mutual respect and understanding and combating intolerance 
and discrimination, including through hate crime data collection;

-- Continue to serve as a collection point for information and 
statistics on hate crimes and relevant legislation provided by 
participating States and to make this information publicly available 
through its Tolerance and Non-Discrimination Information System and its 
report on Challenges and Responses to Hate-Motivated Incidents in the 
OSCE Region;

-- Strengthen, within existing resources, its early warning function to 
identify, report and raise awareness on hate-motivated incidents and 
trends and to provide recommendations and assistance to participating 
States, upon their request, in areas where more adequate responses are 
needed;
Madrid Ministerial Decision No. 10/07 on Tolerance and Non-
        Discrimination: Promoting Mutual Respect and Understanding
The Decision:

-- Calls for continued efforts by political representatives, including 
parliamentarians, strongly to reject and condemn manifestations of 
racism, xenophobia, anti-Semitism, discrimination and intolerance, 
including against Christians, Jews, Muslims and members of other 
religions, as well as violent manifestations of extremism associated 
with aggressive nationalism and neo-Nazism, while continuing to respect 
freedom of expression;

-- Underlines the continued need for participating States to collect 
and maintain reliable data and statistics on hate crimes and incidents, 
to train relevant law enforcement officers and to strengthen co-
operation with civil society;

-- Encourages the promotion of educational programmes in the 
participating States in order to raise awareness among youth of the 
value of mutual respect and understanding;

-- Calls on participating States to increase their efforts, in co-
operation with civil society to counter the incitement to imminent 
violence and hate crimes, including through the Internet, within the 
framework of their national legislation, while respecting freedom of 
expression, and underlines at the same time that the opportunities 
offered by the Internet for the promotion of democracy, human rights 
and tolerance education should be fully exploited.
Athens Ministerial Decision No. 9/09 on Combating Hate Crimes
Calls on the participating States to:
-- Collect, maintain and make public, reliable data and statistics in 
sufficient detail on hate crimes and violent manifestations of 
intolerance, including the numbers of cases reported to law 
enforcement, the numbers prosecuted and the sentences imposed. Where 
data-protection laws restrict collection of data on victims, States 
should consider methods for collecting data in compliance with such 
laws;

-- Enact, where appropriate, specific, tailored legislation to combat 
hate crimes,

-- providing for effective penalties that take into account the gravity 
of such crimes;

-- Take appropriate measures to encourage victims to report hate 
crimes, recognizing that under-reporting of hate crimes prevents States 
from devising efficient policies. In this regard, explore, as 
complementary measures, methods for facilitating, the contribution of 
civil society to combat hate crimes;

-- Introduce or further develop professional training and capacity-
building ativities for law-enforcement, prosecution and judicial 
officials dealing with hate crimes;

-- In co-operation with relevant actors, explore ways to provide 
victims of hate crimes with access to counselling, legal and consular 
assistance as well as effective access to justice;

-- Promptly investigate hate crimes and ensure that the motives of 
those convicted of hate crimes are acknowledged and publicly condemned 
by the relevant authorities and by the political leadership;

-- Ensure co-operation, where appropriate, at the national and 
international levels, including with relevant international bodies and 
between police forces, to combat violent organized hate crime;

-- Conduct awareness raising and education efforts, particularly with 
law enforcement authorities, directed towards communities and civil 
society groups that assist victims of hate crimes;

-- Nominate, if they have not yet done so, a national point of contact 
on hate crimes to periodically report to the ODIHR reliable information 
and statistics on hate crimes;

-- Consider drawing on resources developed by the ODIHR in the area of 
education, training and awareness raising to ensure a comprehensive 
approach to the tackling of hate crimes;

-- To seek opportunities to co-operate and thereby address the 
increasing use of the Internet to advocate views constituting an 
incitement to bias-motivated violence including hate crimes and, in so 
doing, to reduce the harm caused by the dissemination of such material, 
while ensuring that any relevant measures taken are in line with OSCE 
commitments, in particular with regard to freedom of expression.
ODIHR
-- Invites the Director of the ODIHR to keep the participating States 
informed about the ODIHR's work in assisting the participating States 
to combat hate crimes during his or her regular reporting to the 
Permanent Council.

                                 <all>





  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
